<html>
<title> - NOMINATION OF HON. ELAINE L. CHAO, TO BE SECRETARY OF THE DEPARTMENT OF TRANSPORTATION</title>
<body><pre>[Senate Hearing 115-32]
[From the U.S. Government Publishing Office]



                                                         S. Hrg. 115-32
 
                   NOMINATION OF HON. ELAINE L. CHAO,
                         TO BE SECRETARY OF THE
                      DEPARTMENT OF TRANSPORTATION

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            JANUARY 11, 2017

                               __________

    Printed for the use of the Committee on Commerce, Science, and Transportation
    
    
    
    
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
 
 
 
 
 
 
                   U.S. GOVERNMENT PUBLISHING OFFICE
                    
  25-973 PDF                WASHINGTON : 2017       
 ____________________________________________________________________
  For sale by the Superintendent of Documents, U.S. Government Publishing Office,
 Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001     
 
    
    
                             


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER F. WICKER, Mississippi         BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
TED CRUZ, Texas                      AMY KLOBUCHAR, Minnesota
DEB FISCHER, Nebraska                RICHARD BLUMENTHAL, Connecticut
JERRY MORAN, Kansas                  BRIAN SCHATZ, Hawaii
DAN SULLIVAN, Alaska                 EDWARD MARKEY, Massachusetts
DEAN HELLER, Nevada                  CORY BOOKER, New Jersey
JAMES INHOFE, Oklahoma               TOM UDALL, New Mexico
MIKE LEE, Utah                       GARY PETERS, Michigan
RON JOHNSON, Wisconsin               TAMMY BALDWIN, Wisconsin
SHELLEY MOORE CAPITO, West Virginia  TAMMY DUCKWORTH, Illinois
CORY GARDNER, Colorado               MAGGIE HASSAN, New Hampshire
TODD YOUNG, Indiana                  CATHERINE CORTEZ MASTO, Nevada
                       Nick Rossi, Staff Director
                 Adrian Arnakis, Deputy Staff Director
                    Jason Van Beek, General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
                      Renae Black, Senior Counsel
                      
                      
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on January 11, 2017.................................     1
Statement of Senator Thune.......................................     1
    Letter dated January 5, 2017 from Michael Sacco, President, 
      Seafarers International Union of North America.............    25
    Letter dated January 6, 2017 to Hon. Mitch McConnell, Hon. 
      John Thune, Hon. Charles Schumer, and Hon. Bill Nelson from 
      Gabriel M. Ojeda, President, Fritz-Pak Corporation.........    26
    Letter dated January 6, 2017 to Hon. Mitch McConnell, Hon. 
      John Thune, Hon. Charles Schumer and Hon. Bill Nelson from 
      Kerri Leininger, Senior Vice President of Government and 
      Political Affairs, National Ready Mixed Concrete 
      Association (NRMCA)........................................    27
    Letter dated January 9, 2017 to Hon. John Thune and Hon. Bill 
      Nelson from Michael W. Johnson, President and CEO, National 
      Stone, Sand & Gravel Association (NSSGA)...................    28
    Letter dated January 9, 2017 to Hon. Mitch McConnell, Hon. 
      John Thune, Hon. Charles Schumer and Hon. Bill Nelson from 
      Earl Losier, President, Preferred Materials, Inc...........    29
    Letter dated January 9, 2017 to Hon. John Thune from Mufi 
      Hannemann, President and CEO, Hawaii Lodging and Tourism 
      Association, former Mayor of Honolulu......................    30
    Letter dated January 9, 2017 to Hon. Mitch McConnell, Hon. 
      John Thune, Hon. Charles Schumer and Hon. Bill Nelson from 
      Highway Materials Group....................................    31
    Letter dated January 9, 2017 to Hon. Mitch McConnell, Hon. 
      John Thune, Hon. Charles Schumer and Hon. Bill Nelson from 
      Thomas A. Chizmadia, Senior Vice President, Government 
      Affairs, Public Relations and Sustainability, Lehigh 
      Hanson, Inc................................................    32
    Letter dated January 9, 2017 to Hon. Mitch McConnell, Hon. 
      John Thune, Hon. Charles Schumer and Hon. Bill Nelson from 
      North American Concrete Alliance...........................    33
    Letter dated January 9, 2017 to Hon. Mitch McConnell, Hon. 
      John Thune, Hon. Charles Schumer and Hon. Bill Nelson from 
      Ty Gable, President, National Precast Concrete Association.    34
    Letter dated January 9, 2017 to Hon. John Thune and Hon. Bill 
      Nelson from A. Todd Johnston, Executive Vice President, 
      Portland Cement Association (PCA)..........................    35
    Letter dated January 9, 2017 to Hon. John Thune from David P. 
      Storch, Chairman, President and Chief Executive Officer, 
      AAR Corp...................................................    36
    Letter dated January 9, 2017 to Hon. John Thune and Hon. Bill 
      Nelson from Paul R. Brubaker, President and CEO, Alliance 
      for Transportation Innovation (ATI21)......................    37
    Letter dated January 9, 2017 to Hon. Mitch McConnell, Hon. 
      John Thune, Hon. Charles Schumer and Hon. Bill Nelson from 
      Melanie O'Regan, Vice President/General Manager, Washington 
      Materials Division, CalPortland Company....................    38
    Letter dated January 9, 2017 to Hon. Mitch McConnell, Hon. 
      John Thune, Hon. Charles Schumer and Hon. Bill Nelson from 
      John P. Carew, President, Carew Concrete & Supply Co., Inc.    39
    Letter dated January 9, 2017 to Hon. Mitch McConnell, Hon. 
      John Thune, Hon. Charles Schumer and Hon. Bill Nelson from 
      John W. (Jack) Finger, P.E., President/CEO, Sioux 
      Corporation................................................    40
    Letter dated January 9, 2017 to Hon. Mitch McConnell, Hon. 
      John Thune, Hon. Charles Schumer and Hon. Bill Nelson from 
      Jim Spurlino, President, Spurlino Materials................    41
    Letter dated January 9, 2017 to Hon. John Thune and Hon. Bill 
      Nelson from James L. Henry, Chairman and President, 
      Transportation Institute...................................    42
    Letter dated January 10, 2017 to Sen. John Thune and Sen. 
      Bill Nelson from David Owen, President, National 
      Association of Small Trucking Companies (NASTC)............    43
    Letter dated January 10, 2017 to Hon. John Thune and Hon. 
      Bill Nelson from Harold A. Schaitberger, General President, 
      International Association of Fire Fighters.................    44
    Letter dated January 10, 2017 to Hon. John Thune and Hon. 
      Bill Nelson from Anthony Green, Director, Public Policy, 
      Safe Kids..................................................    45
    Letter dated January 10, 2017 from Diane Woodend Jones, 
      Chair, Women's Transportation Seminar (WTS)................    47
    Letter dated January 11, 2017 to Hon. John Thune and Hon. 
      Bill Nelson from John M. Grau, Chief Executive Officer, 
      National Electrical Contractors Association (NECA).........    48
    Letter dated January 11, 2017 to Hon. John Thune and Hon. 
      Bill Nelson from David French, Senior Vice President, 
      Government Relations, National Retail Federation (NRF).....    49
    Letter dated January 12, 2017 to Hon. John Thune and Hon. 
      Bill Nelson from Marc Rotenberg, President; Caitriona 
      Fitzgerald, Policy Director; and Kimberly Miller, Policy 
      Fellow, Electronic Privacy Information Center (EPIC).......    50
    Letter dated January 23, 2017 to Hon. John Thune, Hon. Bill 
      Nelson, Hon. John Barrasso and Hon. Tom Carper from Chris 
      Jahn, President, The Fertilizer Institute (TFI)............    53
Statement of Senator Nelson......................................     3
Statement of Senator Wicker......................................    56
Statement of Senator Cantwell....................................    58
Statement of Senator Blunt.......................................    60
Statement of Senator Klobuchar...................................    61
Statement of Senator Fischer.....................................    63
Statement of Senator Moran.......................................    64
Statement of Senator Blumenthal..................................    67
Statement of Senator Schatz......................................    68
Statement of Senator Sullivan....................................    70
Statement of Senator Peters......................................    72
Statement of Senator Inhofe......................................    74
    Article, dated January 1, 2009 from Occupational Health & 
      Safety entitled, ``What is Elaine Chao's Legacy?''.........    75
Statement of Senator Baldwin.....................................    78
Statement of Senator Duckworth...................................    80
Statement of Senator Capito......................................    81
Statement of Senator Hassan......................................    83
Statement of Senator Gardner.....................................    85
Statement of Senator Lee.........................................    87
Statement of Senator Cortez Masto................................    89
Statement of Senator Young.......................................    91
Statement of Senator Booker......................................    92
Statement of Senator Heller......................................    94
Statement of Senator Udall.......................................    96
Statement of Senator Markey......................................    98
Statement of Senator Cruz........................................    99

                               Witnesses

Hon. Mitch McConnell, U.S. Senator from Kentucky.................     4
Hon. Rand Paul, U.S. Senator from Kentucky.......................     5
Hon. Elaine L. Chao, to be Secretary of the Department of 
  Transportation.................................................     6
    Prepared statement...........................................     8
    Biographical information.....................................    10

                                Appendix

Response to written questions submitted to Hon. Elaine L. Chao 
  by:
    Hon. John Thune..............................................   105
    Hon. Roger F. Wicker.........................................   106
    Hon. Jerry Moran.............................................   107
    Hon. Dan Sullivan............................................   108
    Hon. Dean Heller.............................................   108
    Hon. Bill Nelson.............................................   109
    Hon. Maria Cantwell..........................................   111
    Hon. Amy Klobuchar...........................................   115
    Hon. Richard Blumenthal......................................   116
    Hon. Richard Blumenthal and Hon. Edward Markey...............   121
    Hon. Brian Schatz............................................   124
    Hon. Edward Markey...........................................   125
    Hon. Cory Booker.............................................   128
    Hon. Tom Udall...............................................   133
    Hon. Gary Peters.............................................   139
    Hon. Tammy Baldwin...........................................   141
    Hon. Tammy Duckworth.........................................   142


                   NOMINATION OF HON. ELAINE L. CHAO,



                         TO BE SECRETARY OF THE



                      DEPARTMENT OF TRANSPORTATION

                              ----------                              


                      WEDNESDAY, JANUARY 11, 2017

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:20 a.m. in 
room SD-G50, Dirksen Senate Office Building, Hon. John Thune, 
presiding.
    Present: Senators Thune [presiding], Nelson, Wicker, Blunt, 
Cruz, Fischer, Moran, Sullivan, Heller, Inhofe, Lee, Capito, 
Gardner, Young, Cantwell, Klobuchar, Blumenthal, Schatz, 
Markey, Booker, Udall, Peters, Baldwin, Duckworth, Hassan, and 
Cortez Masto.

             OPENING STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    The Chairman. Good morning, everyone. I want to welcome 
everyone to this Commerce Committee's first hearing of the 
115th Congress, especially our new Members, Senators Inhofe, 
Lee, Capito, Young, Baldwin, Duckworth, Hassan, and Cortez 
Masto. In addition to growing in size, the Committee now has 
the proud distinction of being the Senate committee with the 
most women Members ever, at eight.
    [Applause.]
    The Chairman. I also want to thank all of our returning 
Members, especially Ranking Member Nelson, for their hard work 
last Congress. Together, we were able to enact over 60 measures 
in the 114th Congress. I am anticipating another full agenda 
this Congress, and I am confident that we'll be equally 
successful.
    Today we'll consider the nomination of Secretary Elaine 
Chao to be the 18th Secretary of Transportation. The agency 
that Secretary Chao has been nominated to lead plays a vital 
role in facilitating and promoting the safe and efficient 
movement of goods and people throughout our country and the 
world.
    The Department contains 10 component agencies, employs over 
57,000 full-time employees, and has an operating budget of $75 
billion. According to the Bureau of Labor Statistics, the 
transportation sector employs over 12 million people nationwide 
and contributes nearly $1.4 trillion to the Nation's economy, 
or 8.6 percent of the U.S. Gross Domestic Product.
    In my home state of South Dakota, this translates into 
approximately 10,000 jobs. But these numbers only begin to tell 
the story because so much of our economy is dependent upon a 
thriving transportation sector. For example, without a robust 
and efficient transportation sector, rural states like mine 
would be unable to get their goods to market. Increasing the 
capacity and efficiency of our Nation's highways, rail lines, 
pipelines, and ports is crucial, and will have to be a top 
priority for the next Secretary of Transportation.
    Another top priority for the next Secretary of 
Transportation must be safety. While our Nation's pipelines, 
railroads, airways, and highways have a strong record of 
safety, improvements can and should be made. Of course, it will 
be important to avoid one-size-fits-all solutions on safety. 
Instead, the Department must offer a range of tools to combat 
unique safety challenges, as South Dakota has done with its 
innovative 24/7 sobriety program to combat impaired driving.
    Many of the strong safety improvements this Committee 
advanced as part of the FAST Act and PIPES Act last Congress 
are yet to be implemented, and we will expect our next 
Secretary of Transportation to work with us to ensure speedy 
implementation. We will also have the opportunity to 
collaborate on safety improvements when we revisit the 
authorization of the Federal Aviation Administration later this 
year.
    The next Secretary of Transportation will also have a 
unique opportunity to show Federal leadership in the 
advancement of transportation innovation. V2V technology, 
autonomous vehicles, and unmanned aircraft systems, to name a 
few, have great promise to increase safety, improve efficiency, 
and spur economic growth.
    But, like all new technologies, these must be properly 
integrated into our current networks in a way that maximizes 
their benefits without compromising the performance of the 
current systems.
    Secretary Chao, if confirmed, you will have a momentous 
opportunity to transform Americans' transportation network by 
promoting safety and innovation, growing our Nation's freight 
network, and ensuring all users, both urban and rural, benefit 
equally.
    To my colleagues, I would say that if you were to imagine 
an ideal candidate to tackle these challenges, it would be hard 
to come up with a more qualified nominee than the one before us 
today. In addition to serving for 8 years as the U.S. Secretary 
of Labor, Secretary Chao has also served as the Deputy 
Secretary of the Department she has how been tapped to lead. 
Her extensive experience also includes leading the United Way 
of America, the Peace Corps, and the Federal Maritime 
Commission.
    Secretary Chao, you have consistently proven your 
willingness to roll up your sleeves and address the challenges 
facing our Nation. I would like to thank you for testifying 
today and for your willingness to continue your record of 
service to the country.
    I will now turn to Ranking Member Nelson for any opening 
remarks, and then before Secretary Chao's opening statement, 
she is going to be introduced by her husband, Senator 
McConnell, our Majority Leader in the United States Senate, and 
the other Member of the Kentucky delegation, Senator Paul.
    The Chair recognizes Senator Nelson.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Thank you, Mr. Chairman.
    As we start out, I want to take a minute to express on 
behalf of the Committee, our condolences to the friends and 
loved ones of the victims of Friday's horrific shooting at Fort 
Lauderdale's airport. I want to thank the heroic work that was 
undertaken by the first responders and the law enforcement 
personnel in responding.
    Although the investigation remains ongoing, I expect all of 
us in the Congress will continue exploring ways to protect the 
traveling public in light of this tragic incident. While we've 
made some progress in last year's FAA bill to double the number 
of the VIPR teams, the dog teams, and bolster the screening of 
airport workers, this tragic shooting serves as a reminder that 
our work to improve airport security remains a constant 
challenge. This year's FAA reauthorization bill that we will 
have to take up could be a good place to start if more needs to 
be done to prevent similar tragedies from occurring.
    So, Mr. Chairman, we're here today at a time when our 
Nation is at a crossroads. Many of our roads, bridges, tunnels, 
and rails are aging and desperately need to be repaired and 
replaced.
    Years of neglect and increased demand have brought us to 
the point that we can no longer sit by idly and watch our 
country's most critical infrastructure continue to deteriorate. 
We must step up to this challenge, and that's particularly 
pertinent to the hearing on the confirmation of Secretary Chao.
    We must commit to building the next generation of great 
American infrastructure or risk harming our economy and global 
competitiveness, risk it by failing to do so, and that means 
investing in projects that will move people and goods for 
decades to come, such as ports.
    We have a lot in Florida. They're responsible for moving a 
lot of the goods in and out of our country; rails and highways 
that move the goods throughout our states; transit and rail 
projects that get Americans to work; airports and passenger 
rail projects that connect our communities; and technologies of 
tomorrow that will move people and goods more efficiently and 
more safely.
    These projects will also create good-paying jobs, whether 
it's construction workers laying the foundation, an engineer 
doing the design, or the steelworker making the parts. The 
benefits of updating and expanding our transportation 
infrastructure can produce thunderous ripple effects, creating 
new developments, generating increased investments, and driving 
new economic opportunities. That's what our country needs now 
and in the immediate future. It takes a strong commitment, 
however, from the Congress and the administration, and 
specifically the Department of Transportation. And it's going 
to take a significant amount of funding.
    And so, Secretary Chao, I hope we'll hear more from you 
today on your administration's plan and how you intend to pay 
for it.
    Our Nation's transportation challenges include more than 
the deteriorating bridges and roads. Safety, of course, 
continues to be a serious problem. The last two years marked a 
disturbing trend of rising fatalities on our highways, 
reversing a lot of progress that we've seen over the last half 
century.
    The Department of Transportation must aggressively use all 
of its authority and resources to bring those numbers down, 
whether it's cracking down on the drunk and distracted driving, 
increasing seatbelt use, or getting defective vehicles, such as 
those with the exploding Takata airbags, fixed immediately.
    And the Department must prepare for the future. As I speak, 
automakers are rapidly moving toward commercializing autonomous 
technology and self-driving cars, and the Department is going 
to have to play a very central role in ensuring that this is 
safe for the American public.
    Then, of course, there is aviation safety. It's critical, 
it's an important task, and it will be before the Committee in 
the FAA reauthorization bill.
    Now, Chairman Thune and I have worked hard on a bipartisan 
and comprehensive FAA reauthorization bill last year, and, as a 
result, 95 to 3 in the Senate. The reauthorization bill was 
stalled in the House, given a proposal there to privatize air 
traffic control.
    Besides the total opposition of the United States 
Department of Defense, which has 20 percent of the air traffic, 
besides being costly and disruptive in implementation, 
privatization would upset the partnership between the FAA and a 
lot of the agencies of government.
    And last, certainly not least, I hope, Madam Secretary, 
that we will get a commitment from you that you will look out 
for the traveling public by ensuring that they have basic 
consumer protections. This means working with us here, in the 
Congress, to make sure that airline passengers know what 
they're paying for up front and that those costs are fair. 
These provisions had broad bipartisan support in last year's 
FAA reauthorization, and we should get them across the finish 
line.
    And, Madam Secretary, just a personal note, you and my wife 
are the dearest of friends. She is one of your biggest fans. I 
have watched you as you have comported yourself in a previous 
administration as a Cabinet Member. It has been with grace and 
excellence that you have done so, and I certainly look forward 
to you in this new administration doing the same.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Nelson.
    It may be a first to have a Senate Leader testify in front 
of this Committee, but we're privileged today to have Senator 
McConnell here to make a very special introduction. And so the 
Chair recognizes the Senate Majority Leader for a statement.

              STATEMENT OF HON. MITCH McCONNELL, 
                   U.S. SENATOR FROM KENTUCKY

    Senator McConnell. Chairman Thune, Senator Nelson, Members 
of the Committee, obviously it's a great pleasure to be here 
today. Actually, Chairman Thune, it's probably not the first 
time the Majority Leader has been before this Committee. I'm 
reminded of something Bob Dole said at the confirmation hearing 
for another transportation nominee, his wife, Elizabeth. We all 
remember Bob for having the best sense of humor ever of anyone 
who served here. This is how he began. He said, ``I feel a 
little bit like Nathan Hale. I regret that I have but one wife 
to give for my country's infrastructure.''
    [Laughter.]
    Senator McConnell. Well, that was Bob Dole for you.
    [Laughter.]
    Senator McConnell. The nominee before us is extraordinarily 
well qualified, incredibly capable, and she's got really great 
judgment.
    [Laughter.]
    Senator McConnell. On a whole variety of things.
    [Laughter.]
    Senator McConnell. I know Senator Paul will have much more 
to say about her qualifications when he speaks next, but let me 
just say this. Elaine is going to do a fantastic job as 
Secretary of Transportation. She is going to do good things for 
our country. She is going to make the Commonwealth of Kentucky 
proud. She will be only the second cabinet secretary we've had 
from my state since World War II. Who was the other? you might 
ask. Secretary of Labor Elaine Chao.
    [Laughter.]
    Senator McConnell. I said at her last confirmation hearing 
that Elaine would be one of the best Secretaries of Labor we've 
ever had. I'm saying today that Elaine will be one of the best 
Secretaries of Transportation as well. She has overcome some 
pretty big obstacles in her life, but everything she does, she 
does well. I know she will perform brilliantly again in this 
new role.
    Her family gathered here today couldn't be prouder, 
especially Elaine's father, Dr. James Chao. I feel exactly the 
same way he does. Thank you for the opportunity to be here. And 
let me turn to my colleague from Kentucky.

    STATEMENT OF HON. RAND PAUL, U.S. SENATOR FROM KENTUCKY

    Senator Paul. Mr. Chairman, it is my privilege this morning 
to introduce a friend, a dear friend, and a fellow Kentuckian, 
Secretary Elaine Chao, for her nomination hearing to serve as 
Secretary of Transportation. I would also like to welcome her 
family, Dr. James Chao, who is renowned in his own right.
    My wife, Kelley, and I have come to know Elaine well since 
our first election to the Senate six years ago, and we were 
both grateful for her many kindnesses and friendship as we 
transitioned to public service. We both admire Elaine for her 
thoughtfulness, integrity, intellect, and dedicated service to 
the country.
    Elaine's record of accomplishment and leadership make her a 
truly exceptional candidate. Prior to her nomination, Secretary 
Chao had served this Nation under three Presidential 
administrations, most notably as the longest serving Secretary 
of Labor since World War II under President George W. Bush.
    As an immigrant to this country, Secretary Chao's successes 
are not only a testament to the American dream, but also the 
unbridled spirit of Kentucky. Having emigrated from Taiwan at 
the age of eight with no background in the English language, 
Secretary Chao would copy all the words of her teachers on the 
blackboard so her parents could go over them daily when she 
arrived at home to improve her English skills.
    Her father worked three jobs to support their six children, 
but they always expressed optimism for the future. The family 
was truly grateful to be in America, and despite the 
challenges, they seized the opportunity that this Nation had to 
offer. Secretary Chao's parents' belief in education, service, 
and hard work set the foundation for her success, which 
includes a degree from Harvard Business School and 36 honorary 
doctorate degrees from institutions around the world. But for 
the Chao family, education is never the end, it is just the 
beginning.
    Secretary Chao's extensive background in both public and 
private sectors includes not only her previous stint as 
Secretary of Labor, but also Deputy Secretary of 
Transportation, Chairman of the Federal Maritime Commission, 
Deputy Maritime Administrator, and Deputy Administrator at the 
U.S. Department of Transportation, Director of the Peace Corps. 
It's a long resume. We would all wish to have such a resume. 
She was also President of the United Way as well. I have no 
doubt that she will do an excellent job and that her integrity 
will lead her to great heights as the Secretary of 
Transportation.
    I look forward to working with Secretary Chao and officials 
at the Department of Transportation to address our 
infrastructure issues facing our country. I urge the 
Committee's favorable consideration of my friend Elaine Chao.
    The Chairman. Thank you, Senator Paul.
    And thank you, Senator McConnell.
    And at this point, we will ask our nominee, Secretary 
Elaine Chao, to please come forward and offer her opening 
statement.

   STATEMENT OF HON. ELAINE L. CHAO, TO BE SECRETARY OF THE 
                  DEPARTMENT OF TRANSPORTATION

    Secretary Chao. Chairman Thune, Ranking Member Nelson, 
Members of the Committee, thank you for the opportunity to 
appear before you today. I also want to thank my home state 
Senators from the great Commonwealth of Kentucky for their kind 
introductions. I'm very honored to have the support of Senator 
Rand Paul, and I'll be working to ``lock in'' the Majority 
Leader's support tonight over dinner.
    [Laughter.]
    Secretary Chao. I'm especially delighted to introduce my 
father, Dr. James S.C. Chao, who along with my mother, Ruth 
Mulan Chu Chao, is the foundation of everything that my sisters 
and I have been able to achieve. Like so many others, as you've 
heard, my father left everything familiar behind to come to 
this country and build a better life for our family. My mother, 
two sisters, and I endured 3 long years of separation before we 
were able to join him, traveling from Asia to America via a 
cargo ship on an ocean journey that lasted 37 days.
    There were many challenges during those early days, living 
in an apartment in Queens, New York, learning English, and 
adapting to a completely foreign culture. But my parents' love, 
optimism, faith, and diligence kept us together.
    If I can ask my father to stand up, I would really 
appreciate it.
    Dad, you've got to stand up.
    [Applause.]
    Secretary Chao. Thank you so much.
    I'm also very pleased to introduce one of my sisters, May 
Chao, and her twin daughters, Miranda and Jessica, from New 
York City. May is the daughter whose name symbolizes America. 
My mother was 7 months pregnant with May when my father left 
for America, and he did not see his third daughter, May, until 
she was 3 years old.
    And, May, if I can ask you and the girls to stand up.
    [Applause.]
    Secretary Chao. And my brother-in-law, Gordon, is here. And 
that's it for the family.
    [Laughter.]
    Secretary Chao. My executive career in government began at 
the U.S. Department of Transportation. During my career, I've 
had the extensive privilege of leading large, complex 
organizations in the public and the private sectors, as Deputy 
Secretary of Transportation, Director of the Peace Corps, 
President and CEO of United Way of America, and the U.S. 
Secretary of Labor. In each of these positions, my goal has 
always been to help others access opportunities in mainstream 
America and build better lives for themselves and their 
families by supporting policies that foster job creation and 
workforce competitiveness.
    Our country's transportation infrastructure is the 
underpinning of our world-class economy, one of the most 
productive, flexible, and dynamic in the world. It is a key 
factor in productivity growth, which has provided millions of 
hard-working Americans with a standard of living that is the 
envy of the world. And it has provided us with unprecedented 
mobility, safety, and security. And yet today, these gains are 
jeopardized by aging infrastructure, growing congestion, 
increased fatalities on our highways, and a failure to keep 
pace with emerging technologies.
    The U.S. Department of Transportation has a rare 
opportunity to shape the transformation of our critical 
infrastructure, and a chance to lead the Department at this 
pivotal historic time is a great honor.
    First and foremost, safety will continue to be the primary 
objective. Regulatory decisions should be rooted in analysis 
derived from sound science and data with risk-based analysis 
that prevents accidents before they occur, and considers both 
the cost and the benefits of new rulemakings. Railroads, 
airlines, aircraft manufacturers, pipeline operators, transit 
authorities, and hazardous waste material shippers should be 
deploying comprehensive approaches to safety.
    The Department will also work with states to ensure that 
billions of dollars of Federal funding are focused on improving 
transportation system performance and project delivery. Our 
rail and air traffic operational efficiency, which is so 
important to America's competitiveness, need to be continuously 
improved.
    And I look forward to working with this Committee on FAA's 
transition to 21st century air traffic control technologies 
known as NextGen. Eight months remain before FAA 
reauthorization, so it's important to start the collaborative 
process soon, to provide air travelers with a system second to 
none.
    Another major challenge is to unleash the potential for 
private investment in our Nation's infrastructure. As we work 
together to develop the details of the President-elect's 
infrastructure plan, it's important to know the significant 
difference between traditional program funding and other 
innovative financing tools, such as public-private 
partnerships.
    In order to take full advantage of the estimated trillions 
in capital that equity firms, pension funds, and endowments can 
invest, these partnerships must be allowed to participate with 
a bold, new vision. And again, we look forward to working with 
you to explore all options and to create a mix of practical 
solutions, both public and private, that provide the greatest 
cost benefit to the public because we all know that the 
Government doesn't have the resources to do it all.
    It's also important to recognize that the way we build and 
deliver projects is just as important as how much we invest. 
And we want to seek your advice in identifying and addressing 
unnecessary bottlenecks in the processes that govern project 
development and delivery, as well as the manufacturing 
processes that we oversee.
    And finally, we want to work with you to address the unique 
transportation needs in rural America, as well as the 
challenges that major metropolitan areas face.
    Looking to the future, we also have a unique opportunity to 
address the exciting new technologies transforming travel and 
commerce. The private sector is driving this innovation; they 
are working with cities and states to demonstrate improvements 
in the safety and efficiency of autonomous vehicles. Drones are 
poised to become a major commercial force.
    And the Federal role in these sectors is still very much in 
its infancy. We want to work with Congress to position the 
Federal Government as a catalyst for safe, efficient 
technologies, not as an impediment.
    In summary, the Department of Transportation has a key role 
to play in modernizing our transportation systems, 
strengthening our Nation's competitiveness, and improving our 
quality of life. And I look forward to working with you to 
rebuild, refurbish, and revitalize America's infrastructure so 
our economy can continue to grow, create good paying jobs for 
America's working families, and enhance our quality of life.
    Thank you. And now I'll be pleased to take your questions.
    [The prepared statement and biographical information of 
Secretary Chao follow:]

    Prepared Statement of Hon. Elaine L. Chao, Secretary Designate, 
                      Department of Transportation

    Chairman Thune, Ranking Member Nelson, and members of the 
Committee,
    Thank you for the opportunity to appear before you today. I 
also want to thank my home state Senators for their kind 
introductions. I'm pleased to have the support of Senator Paul, 
and I will be working to ``lock in'' the Majority Leader's 
support tonight over dinner.
    I am pleased to introduce my father, Dr. James S.C. Chao. 
He and my late mother are the foundation of who my sisters and 
I are today. He grew up in a small farming village of just ten 
families in China. His parents believed in education so he 
earned many scholarships to enable him to continue his studies. 
My father left everything familiar behind to build a better 
life for our family. Our family was separated for three long 
years before we were able to come to America, traveling by 
cargo ship on an ocean journey that lasted 37 days. There were 
many challenges during those early years especially since we 
didn't speak English. I didn't receive my citizenship until I 
was 19 years old. But, my parents never doubted that America 
was the land of opportunity.
    Also here today is one of my sisters, May Chao and her twin 
daughters, Miranda Mei Chao Hwang and Jessica Ruth Chao Hwang, 
from New York City. May is the daughter whose name symbolizes 
America. My mother was seven months pregnant with May when my 
father left for America. He didn't see May until she was three 
years old.
    My executive career in government began at the U.S. 
Department of Transportation. During my career, I have had the 
privilege of leading large, complex organizations in the public 
and non-profit sectors, as Deputy Secretary of Transportation, 
Director of the Peace Corps, President and CEO of the United 
Way of America, and U.S. Secretary of Labor. In each of these 
positions, my goal has been to help others access opportunity 
and build better lives for themselves and their families by 
supporting policies that foster job creation and workforce 
competitiveness.
    Our country's transportation infrastructure is the 
underpinning of our world-class economy--one of the most 
productive, flexible and dynamic in the world. It is a key 
factor in productivity growth, which has provided millions of 
hard working Americans with a standard of living that is the 
envy of the world. And it has provided us with unprecedented 
mobility, safety and security. Yet today, these gains are 
jeopardized by infrastructure in need of repair, the specter of 
rising highway fatalities, growing congestion, and by a failure 
to keep pace with emerging technologies.
    The U.S. Department of Transportation has a rare 
opportunity to shape the transformation of our critical 
infrastructure. The chance to lead the Department at this 
historic time is a great honor. First and foremost, safety will 
continue to be the primary objective. Regulatory decisions 
should be rooted in analysis derived from sound science and 
data, with risk-based analysis that prevents accidents before 
they happen, and considers both the costs and the benefits of 
new rulemakings. Railroads, automobile manufacturers, airlines, 
aircraft manufacturers, pipeline operators, transit agencies 
and hazardous material shippers should be deploying 
comprehensive approaches to safety.
    The Department will also work with states to ensure that 
billions of dollars of Federal funds are focused on improving 
transportation system performance and project delivery. Our 
rail and air traffic operational efficiency, which is so 
important to America's competitiveness, need to be continually 
improved. I look forward to working with this Committee on the 
FAA's transition to 21st century air traffic control 
technologies known as NextGen. Eight months remain before FAA 
reauthorization, so it's important to start the collaborative 
process soon, to provide air travelers with a system second to 
none.
    Another major challenge is to unleash the potential for 
private investment in our Nation's infrastructure. As we work 
together to develop the details of President Trump's 
infrastructure plan, it is important to note the significant 
difference between traditional program funding and other 
innovative financing tools, such as public-private 
partnerships. In order to take full advantage of the estimated 
trillions in capital that equity firms, pension funds, and 
endowments can invest, these partnerships must be incentivized 
with a bold new vision. We look forward to working with you to 
explore all the options, and to create a mix of practical 
solutions--both public and private--that provide the greatest 
cost-benefit to the public.
    It's also important to recognize that the way we build and 
deliver projects is as important as how much we invest. We want 
to seek your advice in identifying and addressing unnecessary 
bottlenecks in the processes that govern project development 
and delivery, as well as the manufacturing processes we 
oversee. And finally, we want to work with you to address the 
unique transportation needs in rural America, as well as the 
challenges that major metropolitan areas face.
    Looking to the future, we also have a unique opportunity to 
address the exciting new technologies transforming travel and 
commerce. The private sector is driving this innovation. They 
are working with cities and states to demonstrate improvements 
in the safety and efficiency of autonomous cars and trucks. 
Drones are poised to become a major commercial force. The 
Federal role in these sectors is still in its infancy. We want 
to work with Congress to position the Federal Government as a 
catalyst for safe, efficient technologies, not as an 
impediment.
    In summary, the Department of Transportation has a key role 
to play in modernizing our transportation systems, 
strengthening our country's competitiveness, and improving our 
quality of life. I look forward to working with you to rebuild, 
refurbish and revitalize America's infrastructure, so our 
economy can continue to grow, create good paying jobs for 
America's working families and enhance our quality of life.
    Thank you.
                                ------                                



                      a. biographical information


    1. Name (Include any former names or nicknames used): 
Elaine L. Chao.
    2. Position to which nominated: Secretary of 
Transportation.
    3. Date of Nomination: January 20, 2017 (expected).
    4. Address (List current place of residence and office 
addresses):

        Residence: Information not released to the public.

        Office: Hudson Institute, 1201 Pennsylvania Avenue, NW, 
        Washington, D.C. 20004.

    5. Date and Place of Birth: March 26, 1953; Taipei, Taiwan.
    6. Provide the name, position, and place of employment for 
your spouse (if married) and the names and ages of your 
children (including stepchildren and children by a previous 
marriage).
    Spouse: Mitch McConnell, United States Senator; 
Stepdaughters: Eleanor Hayes McConnell, 44; Claire McConnell, 
41; Marion Porter McConnell, 38.
    7. List all college and graduate degrees. Provide year and 
school attended.

        Harvard Business School, MBA, 1979
        Mount Holyoke College, BA, 1975

    8. List all post-undergraduate employment, and highlight 
all management-level jobs held and any non-managerial jobs that 
relate to the position for which you are nominated.

        Distinguished Fellow, The Hudson Institute; 2016 to 
        present.

        Distinguished Fellow, The Heritage Foundation; 2009-
        2016 and 1996-2001.

        Secretary of Labor, 2001-2009.

        President and CEO, United Way of America; 1992-1996.

        President and CEO, U.S. Peace Corps; 1991-1992.

        Deputy Secretary of Transportation, 1989-1991.

        Chairman, Federal Maritime Commission; 1988-1989.

        Deputy Administrator, Federal Maritime Commission, 
        1986-1988.

        Vice President, Bank of America; 1984-1986.

        White House Fellow, Office of Policy Development, 1983-
        1984.

        Citibank, 1979-1983.

        Foremost Group, 1975-1977.

    *All the above positions are management jobs with the 
exceptions of the Distinguished Fellowships.
    9. Attach a copy of your resume.
    A copy is attached.
    10. List any advisory, consultative, honorary, or other 
part-time service or positions with Federal, State, or local 
governments, other than those listed above, within the last ten 
years. None.
    11. List all positions held as an officer, director, 
trustee, partner, proprietor, agent, representative, or 
consultant of any corporation, company, firm, partnership, or 
other business, enterprise, educational, or other institution 
within the last ten years.

                              Board Service
07/22/2015      12/31/2015      Centerra Group, LLC  Advisory Board
                                7121 Fairway Drive,   Member
                                 Suite 301
                                Palm Beach Gardens,
                                 FL 33418
 
06/04/2015      Present         Ingersoll Rand       Director
                                170/175 Lakeview
                                 Drive
                                Swords, Co. Dublin
 
02/13/2015      Present         Vulcan Material      Director
                                 Company
                                1200 Urban Center
                                 Drive
                                Birmingham, AL
                                 35242
 
10/16/2012      Present         News Corp            Director
                                1211 Avenue of the
                                 Americas
                                New York, NY 10036
 
04/05/2012      02/19/2015      Bloomberg            Advisory Board
                                 Philanthropy         Member
                                25 E 78th St.
                                New York, NY 10075
 
06/2012         Present         New York             Honorary Board
                                 Presbyterian         Member
                                 Hospital
                                525 East 68th
                                 Street
                                New York NY 10065
 
06/28/2011      Present         Wells Fargo          Director
                                420 Montgomery
                                 Street
                                San Francisco, CA
                                 94104
 
06/29/2011      02/01/2015      Protective Life      Director
                                 Corporation
                                2801 Hwy 280
                                South Birmingham,
                                 AL 35223
 
2011            Present         Harvard Business     Advisory Board
                                 School               Member
                                Board of Dean's
                                 Advisor
                                Soldiers Field
                                Boston, MA 02163
 
2010            Present         Federalist Society   Advisory Board
                                1776 I St NW #300,    Member
                                Washington, D.C.
                                 20006
 
2010            Present         Ford's Theater       Advisory Board
                                511 10th St NW        Member
                                Washington, D.C.
                                 20004
 
2010            Present         Harvard Business     Advisory Board
                                 School               Member
                                Board of Global
                                 Advisors
                                Soldiers Field
                                Boston, MA 02163
 
2010            06/2013         National WWII        Advisory Board
                                 Museum               Member
                                945 Magazine Street
                                New Orleans, LA
                                 70130
 
10/23/2009      11/01/2013      Dole Food Company    Director
                                One Dole Plaza
                                West Village, CA
                                 91359-5700
 
2003            Present         Institute of         Advisory Board
                                 Politics, Harvard    Member
                                 University
                                79 John F. Kennedy
                                 St.
                                Cambridge, MA 02138
 
2003            2009            Harvard Business     Advisory Board
                                 School               Member
                                Board of Dean's
                                 Advisor
                                Soldiers Field
                                Boston, MA 02163
 

    12. Please list each membership you have had during the 
past ten years or currently hold with any civic, social, 
charitable, educational, political, professional, fraternal, 
benevolent or religious organization, private club, or other 
membership organization. Include dates of membership and any 
positions you have held with any organization. Please note 
whether any such club or organization restricts membership on 
the basis of sex, race, color, religion, national origin, age, 
or handicap.

        Alfalfa Club--Member

        American Action Forum (AFF)--Advisory Board Member

        Asia Pacific Foundation of Canada: John H. McArthur 
        Distinguished Fellowship--Honorary Advisory Board 
        Member

        Council on Foreign Relations--Member

        Federalist Society--Advisory Board Member

        Ford's Theatre--Advisory Board Member

        International Leadership Foundation (ILF)--Honorary Co-
        Chair

        International Club Number One (IC1)--Member

        National Ethnic Coalition of Organizations (NECO)--
        Honorary Advisory Board Member

        Republican Women's Federation Forum (RWFF)--Member

        Ruth Mulan Chu Chao Foundation--Volunteer Chair (2013-
        2015)

        Trump's Asian Pacific American Advisory Council

        Trust for the National Mall--Advisory Council

        U.S. Senate Spouses--Member

        United Seamen Service (USS): Council of Trustees--
        Honorary Member

        Walt Disney Family Museum--Honorary/Advisory

    13. Have you ever been a candidate for and/or held a public 
office (elected, non-elected, or appointed)? If so, indicate 
whether any campaign has any outstanding debt, the amount, and 
whether you are personally liable for that debt. No.
    14. Itemize all political contributions to any individual, 
campaign organization, political party, political action 
committee, or similar entity of $500 or more for the past ten 
years. Also list all offices you have held with, and services 
rendered to, a state or national political party or election 
committee during the same period.

                                                            Poltiical Contributions--Federal
Contributions to All Other Political Committees Except Joint Fundraising Committees
Contributor Name
Chao, Elaine        Louisville KY           40201                                          McConnell Victory        6/30/2013     -12500     13941128347
                                                                                            Kentucky
Chao, Elaine        Louisville KY           40205    Distinguished     Heritage            Republican Party of     10/25/2012      10000     12940896930
                                                     Fellow            Foundation           Kentucky
Chao, Elaine        Louisville KY           40205    Heritage          Distinguished       Republican Party of      6/30/2013      10000     13941302781
                                                     Foundation        Fellow               Kentucky
Chao, Elaine        Louisville KY           40205    Heritage          Executive           McConnell, Mitch via     5/23/2012       2500     12020463429
                                                     Foundation                             McConnell Senate
                                                                                            Committee
Chao, Elaine        Louisville KY           40205    Heritage          Executive           McConnell, Mitch via     5/23/2012       2500     12020463527
                                                     Foundation                             McConnell Senate
                                                                                            Committee
Chao, Elaine        Louisville KY           40205    U.S.              Secretary of Labor  Republican Party of       7/1/2008      10000     28932511164
                                                     Government                             Kentucky
Chao, Elaine        Louisville KY           40205    Heritage          Distinguished       Republican Party of      4/29/2014      10000     14941236572
                                                     Foundation        Fellow               Kentucky
Chao, Elaine        Louisville KY           40205    U.S.              Secretary of Labor  Republican Party of     12/27/2007      10000     28990628719
                                                     Government                             Kentucky
Chao, Elaine L Ms.  Louisville KY           40205    U.S.              Secretary of Labor  Republican National     10/26/2006      25000     27990094749
                                                     Government                             Committee
Chao, Elaine L.     Washington DC           20002    The Heritage      Distinguished       Protective Life          8/18/2011        425     12950197799
                                                      Foundation       Fellow               Corporation
                                                                                           Federal PAC
Chao, Elaine L.     Washington DC           20002    The Heritage      Distinguished       Protective Life         11/17/2011        425     12950200181
                                                      Foundation       Fellow               Corporation
                                                                                           Federal PAC
Chao, Elaine L.     Washington DC           20002    The Heritage      Distinguished       Protective Life          2/17/2012        425     12970842028
                                                      Foundation       Fellow               Corporation
                                                                                           Federal PAC
Chao, Elaine L.     Washington DC           20002    The Heritage      Distinguished       Protective Life          5/15/2012        425     12952246547
                                                      Foundation       Fellow               Corporation
                                                                                           Federal PAC
Chao, Elaine L.     Washington DC           20002    The Heritage      Distinguished       Protective Life          8/15/2012        425     12954296871
                                                      Foundation       Fellow               Corporation
                                                                                           Federal PAC
Chao, Elaine L.     Washington DC           20002    The Heritage      Distinguished       Protective Life         11/20/2012        425     12940782898
                                                      Foundation       Fellow               Corporation
                                                                                           Federal PAC
Chao, Elaine L.     Washington DC           20002    The Heritage      Distinguished       Protective Life          2/15/2013        425     13961244319
                                                      Foundation       Fellow               Corporation
                                                                                           Federal PAC
Chao, Elaine L.     Washington DC           20002    The Heritage      Distinguished       Protective Life          5/17/2013        425     13963180662
                                                      Foundation       Fellow               Corporation
                                                                                           Federal PAC
Chao, Elaine L.     Washington DC           20002    The Heritage      Distinguished       Protective Life         11/20/2013        425     14951887637
                                                      Foundation       Fellow               Corporation
                                                                                           Federal PAC
Chao, Elaine L.     Washington DC           20002    The Heritage      Distinguished       Protective Life          2/15/2014        425     14960571121
                                                      Foundation       Fellow               Corporation
                                                                                           Federal PAC
Chao, Elaine L.     Washington DC           20002    The Heritage      Distinguished       Protective Life          5/15/2014        425     14941726077
                                                      Foundation       Fellow               Corporation
                                                                                           Federal PAC
Chao, Elaine L.     Washington DC           20002    The Heritage      Distinguished       Protective Life          8/15/2014        425     14978394881
                                                      Foundation       Fellow               Corporation
                                                                                           Federal PAC
Chao, Elaine L.     Washington DC           20002    The Heritage      Distinguished       Protective Life         11/15/2014        425     14952676019
                                                      Foundation       Fellow               Corporation
                                                                                           Federal PAC
Chao, Elaine L.     Washington DC           20002    The Heritage      Labor Secretary     Romney, Mitt/Paul D.     4/23/2012       2500     14942416889
 Ms.                                                  Foundation                            Ryan via Romney for
                                                                                            President, Inc.
Joint Fundraising Contributions
These are contributions to committees who are raising funds to be distributed to other committees.
Chao, Elaine        Louisville KY           40201    Heritage          Executive           McConnell Victory        6/26/2013      12500     13941128330
                                                     Foundation                             Kentucky
Chao, Elaine L.     Washington DC           20013    Heritage          Distinguished       Rand Paul Victory       12/11/2013       5200     14960659449
 Hon.                                                Foundation        Fellow               Committee
 
Chao, Elaine L.     Louisville KY           40202    Self-Employed     Public Speaker      Romney Victory, Inc.     7/27/2012       1000     13941694430
Recipient of Joint Fundraiser Contributions
These are the Final Recipients of Joint Fundraising Contributions
Contributor Name
Chao, Elaine L      Washington DC           20013    Heritage          Distinguished       Paul, Rand via Rand     12/31/2013       2600     14020323733
                                                     Foundation        Fellow               Paul for US Senate
                                                                                            2016
Chao, Elaine L      Washington DC           20013    Heritage          Distinguished       Paul, Rand via Rand     12/31/2013       2600     14020323680
                                                     Foundation        Fellow               Paul for US Senate
                                                                                            2016
Chao, Elaine L      Washington DC           20013    Heritage          Distinguished       Paul, Rand via Rand     12/11/2013       2600     14021051514
 Hon.                                                Foundation        Fellow               Paul for US Senate
                                                                                            2016
Chao, Elaine L      Washington DC           20013    Heritage          Distinguished       Paul, Rand via Rand     12/11/2013       2600     14021051481
 Hon.                                                Foundation        Fellow               Paul for US Senate
                                                                                            2016
Chao, Elaine L.     Louisville KY           40202    Self-Employed     Public Speaker      Romney, Mitt / Paul      7/27/2012       1000     13942788103
                                                                                            D. Ryan via Romney
                                                                                            for President, Inc.
 


                     Political Contributions--State
CHAO, ELAINE                 INDIVIDUAL Contribution
Employer: HERITAGE FUND      $1,000.00 on 02/28/2014
Occupation: FELLOW           MCLAUGHLIN, SANDRA for
                             DISTRICT COURT JUDGE--30TH DISTRICT--3RD
                              DIVISION
                             PRIMARY--05/20/2014
 

    15. List all scholarships, fellowships, honorary degrees, 
honorary society memberships, military medals, and any other 
special recognition for outstanding service or achievements.

                  Inventory of Awards and Recognitions
------------------------------------------------------------------------
Year                   Description of Award/Recognition
------------------------------------------------------------------------
1979  10 Outstanding Young Women of American
------------------------------------------------------------------------
1984  Mount Holyoke College Alumnae Award Mary Lyon Award for Young
       Achievement Award
------------------------------------------------------------------------
1986  County of Los Angeles Notional Council of Women's Young Achievers
       Award
------------------------------------------------------------------------
1986  Organization of Chinese Americans Champion of Excellence Award
------------------------------------------------------------------------
1986  Taiwan Benevolent Association of America & Taiwan Welfare
       Association of New York Outstanding Achievement Award for higher
       ranking Chinese-American in U.S. Government
------------------------------------------------------------------------
1987  Federal Asian Pacific American Council (FAPAC) Exemplary
       Leadership Award
------------------------------------------------------------------------
1987  City of New Orleans International Order of Merit
------------------------------------------------------------------------
1988  National Republican Asian Assembly Award for Service to Asian
       American Republicans & GOP
------------------------------------------------------------------------
1988  Chinese-American Association of Southern California Outstanding
       Achievement Award
------------------------------------------------------------------------
1989  Asian Americans in Public Service Excellence 2000 Award
------------------------------------------------------------------------
1989  Federal Maritime Commission Exceptional Service
------------------------------------------------------------------------
1990  HBS Recognition for Service to HBS Alumni Council 1987-1990
------------------------------------------------------------------------
1990  City of Anaheim, CA recognition for Outstanding Leadership as
       Deputy Secretary of Transportation
------------------------------------------------------------------------
1990  Texas Governor Bill Clements Outstanding Achievement Award and
       Citation as Honorary Citizen of Texas
------------------------------------------------------------------------
1990  Garland, Texas Mayor Ruth Nicholson Recognition as Honorary
       Citizen of Garland, TX
------------------------------------------------------------------------
1991  U.S. Department of Transportation Federal Railroad Administration
       award for Support of the Federal Railroad Administration
------------------------------------------------------------------------
1991  U.S. Department of Transportation Asian Pacific American Employees
       Council Outstanding Service Award
------------------------------------------------------------------------
1991  City of Los Angeles Outstanding Person Achievements Award as
       Deputy Secretary of Transportation
------------------------------------------------------------------------
1991  St. John's University Honorary Citation--Doctor of Laws
------------------------------------------------------------------------
1991  U.S. Coast Guard Award for Distinguished Service
------------------------------------------------------------------------
1992  National Republican Asian Americans Pride of Asian Americans Award
------------------------------------------------------------------------
1992  City of Louisa, KY Recognition as Honorary Citizen
------------------------------------------------------------------------
1992  City of Louisville, KY Recognition as Honorary Citizen
------------------------------------------------------------------------
1992  Jefferson County, KY Recognition as Honorary Citizen
------------------------------------------------------------------------
1993  National Conference for College Women Student Leaders Women of
       Distinction Award
------------------------------------------------------------------------
1993  Governor Brereton C. Jones of KY Kentucky Colonel Award
------------------------------------------------------------------------
1993  California State Legislative Assembly Recognition for Leadership
       as President of United Way
------------------------------------------------------------------------
1993  City of Los Angeles Mayor and City Council President and Members
       Recognition for Outstanding Service to the Community and
       Appointment as United Way President and Chief Executive Officer
------------------------------------------------------------------------
1993  Harvard Business School Alumni Achievement Award
------------------------------------------------------------------------
1993  City of Russell, KY Recognition as Honorary Citizen
------------------------------------------------------------------------
1994  Valley of the Sun and Mesa United Way Phoenix, Arizona Award for
       Leadership of United Way
------------------------------------------------------------------------
1995  City of New Orleans Recognition as Honorary Citizen
------------------------------------------------------------------------
1995  Selection by Newsweek Magazine for Overclass 100 in Politics and
       Government
------------------------------------------------------------------------
1995  United Way of Beaver County, OR Recognition for Outstanding and
       Professional Leadership
------------------------------------------------------------------------
1996  National Peace Corps Association Appreciation Recognition for
       Inspiration and Leadership
------------------------------------------------------------------------
1997  The Jefferson Awards Silver Anniversary Recognition for Service on
       Board of Selector
------------------------------------------------------------------------
1998  National Association of Securities Dealers Recognition Outstanding
       Service as Member of Board of Governors
------------------------------------------------------------------------
1998  China Foundation of the United States Recognition Outstanding
       Leadership
------------------------------------------------------------------------
1998  Organization of Chinese American Women, Organization of Chinese
       Americans--Greater Washington D.C. Chapter Recognition for
       Outstanding Achievements in Public Service
------------------------------------------------------------------------
1999  City of Birmingham, AL Mayor Recognition Leadership/Celebration of
       Birmingham-Southern College Gala
------------------------------------------------------------------------
1999  Community Hospice Recognition for Support of Hospice
------------------------------------------------------------------------
2000  Kenai River Classic, AK Recognition to Promote Habitat & Resource
       Conservation, Kenai River, AK
------------------------------------------------------------------------
2001  U.S. Senator Diane Feinstein (CA) Recognition for Commitment
------------------------------------------------------------------------
2001  City of Chicago, IL Recognition for Achievement
------------------------------------------------------------------------
2001  Asian Pacific American Municipal Offices Leadership Award
------------------------------------------------------------------------
2001  City & County of San Francisco, CA Board of Supervisors
       Commendation of Service
------------------------------------------------------------------------
2001  U.S. Pacific Asian American CC Award for Excellence in Govt
       Service
------------------------------------------------------------------------
2001  Chinese American Society, Rockville, MD Recognition for
       Outstanding Support of Leadership Program
------------------------------------------------------------------------
2001  U.S. Department of Labor--Annual National Equal Opportunity
       Conference Recognition for Commitment to Adults and Youth with
       Disabilities
------------------------------------------------------------------------
2001  United Mine Workers Recognition for Leadership of Mine Safety and
       Health Administration (MSHA)
------------------------------------------------------------------------
2001  United Chinese Community/State of California Resolution # 2501
       Recognition for Personal and Public Achievement; United Chinese
       Community Celebration
------------------------------------------------------------------------
2001  Asian American Federation of California Recognition for Great
       Talent
------------------------------------------------------------------------
2001  City of Los Angeles, CA Recognition for Leadership
------------------------------------------------------------------------
2001  May Society (Asian American PAC) Appreciation Recognition
------------------------------------------------------------------------
2001  Westminster, CA Mayor Margie Rice Recognition as First Asian-
       American Woman in the U.S. Cabinet
------------------------------------------------------------------------
2001  Jobs for America's Graduates Government Leader Award
------------------------------------------------------------------------
2002  Boys and Girls Club of Greater Washington, D.C. Congressional
       Dinner Honoree
------------------------------------------------------------------------
2002  Women In Government Relations Award for Most Women Appointed in
       Department
------------------------------------------------------------------------
2002  Asian American Postal Employees Association Distinguished Asian
       American Award
------------------------------------------------------------------------
2002  Hispanic Association of Colleges and Universities (HACU)
       Certificate of Appreciation
------------------------------------------------------------------------
2002  KY--Henderson County Chamber of Commerce Distinguished Citizen
       Award
------------------------------------------------------------------------
2002  Federal Asian Pacific American Council (FAPAC) Recognition for
       Leadership as Member of Asian American Community
------------------------------------------------------------------------
2002  Fraternal Order of Police of NY Recognition in Appreciation for
       Promoting FOP Ideals
------------------------------------------------------------------------
2002  U.S. Chinese Bankers Alliance Recognition in Appreciation of
       Hospitality
------------------------------------------------------------------------
2002  U.S. Pan Asian American Chamber of Commerce, Southwest Region
       Recognition in Appreciation for Inspiration and Leadership
------------------------------------------------------------------------
2002  Philadelphia Dragon Boat Association, U.S. National Champions,
       2002 Team USA Recognition for Support of Philadelphia Chinatown
       Community
------------------------------------------------------------------------
2002  Pan Asian Association of Greater Philadelphia Recognition for
       Service to Americans
------------------------------------------------------------------------
2002  Asian Pacific American Community of Greater Philadelphia
       Appreciation for Dedicated Service
------------------------------------------------------------------------
2002  Chinese Consolidated Benevolent Association, Council of Presidents
       Appreciation for Service to Chinese Community
------------------------------------------------------------------------
2002  Fort Smith, AR Recognition as Honorary Citizen
------------------------------------------------------------------------
2002  Court TV Women Superstars Award at 3rd Annual Award Breakfast
------------------------------------------------------------------------
2002  National Association of Hispanic Federal Executives Recognition
       for Leadership Supporting Diversity in Federal Workforce
------------------------------------------------------------------------
2002  Syosset High School NY Award for Alumni Distinction
------------------------------------------------------------------------
2002  Nassau County NY Legislature Citation Syosset Alumni Award
------------------------------------------------------------------------
2003  Vision New America, Inc. Award for Excellence in Leadership
------------------------------------------------------------------------
2003  International Leadership Foundation (ILF) Lifetime Achievement
       Award
------------------------------------------------------------------------
2003  Center for Women's Business Research Leading by Example Award
------------------------------------------------------------------------
2003  Women's National Republican Club Special Recognition Award
------------------------------------------------------------------------
2003  Asian American Federation of California 2003 Public Service Award
------------------------------------------------------------------------
2003  U.S. Department of Labor--2003 Mine Rescue First-Aid Bench and
       Preshift Contest Award (Louisville, KY)
------------------------------------------------------------------------
2003  MANA, A National Latina Organization HerMANA Award
------------------------------------------------------------------------
2003  Korean Churches for Community Development Award for Service to
       America and the Asian American Community
------------------------------------------------------------------------
2003  Sergeants' Benevolent Association of New York City Police
       Department Sergeants' Benevolent Award
------------------------------------------------------------------------
2004  Fraternal Order of Police President's Award
------------------------------------------------------------------------
2004  Institute for Corean-American Studies Liberty Foundation (ICAS)
       2003 Liberty Award
------------------------------------------------------------------------
2004  Women's Business Enterprise National Council Applause Award
------------------------------------------------------------------------
2004  Chinese-American Chamber of Commerce of New Jersey Honor of
       Distinction Award
------------------------------------------------------------------------
2004  National Association of Asian American Professionals Award for
       Support of Asian American Community and Commitment to Public
       Service
------------------------------------------------------------------------
2004  Asian Pacific American Institute for Congressional Studies
       (APAICS) Recognition of Political Milestone, ``Decade of Firsts''
------------------------------------------------------------------------
2004  Women's Business Center 2004 Public Sector Entrepreneurial
       Visionary Award
------------------------------------------------------------------------
2004  U.S. Chinese Bankers Alliance Recognition for Generous Support
------------------------------------------------------------------------
2004  Pittsburgh Lifesciences Greenhouse Recognition for Commitment to
       Ensuring Opportunities to Better Prepare U.S. Workers
------------------------------------------------------------------------
2004  Seaman's Church Institute of New York and New Jersey Silver Bell
       Award for Service to the Maritime Community
------------------------------------------------------------------------
2004  Cultural Development Center/Plainview Chinese School of Long
       Island, NY American Dream Award
------------------------------------------------------------------------
2004  Thurgood Marshall Scholarship Fund Recognition for Commitment to
       Adults and Youth with Disabilities, Community Leadership
------------------------------------------------------------------------
2004  Sergeants' Benevolent Association of New York City Police
       Department Heroism Award
------------------------------------------------------------------------
2004  American Society for Competitiveness Award for Promotion of Global
       Competitiveness
------------------------------------------------------------------------
2004  Chinese American Citizens Alliance, Houston, TX Lodge Recognition
       for Dedication to Public Service
------------------------------------------------------------------------
2004  Allies Building Community, Inc. & The Chinatown Steering Committee
       Public Service Award
------------------------------------------------------------------------
2004  Small Business & Entrepreneurship Council (SBE) Small Business
       Advocate of the Month Award
------------------------------------------------------------------------
2005  Independent Women's Forum Woman of Valor Award
------------------------------------------------------------------------
2005  National Ethical Coalition of Organizations Foundation, Inc.
       (NECO) 2005 Ellis Island Medal of Honor
------------------------------------------------------------------------
2005  Pitney Bowes Honor for Commitment
------------------------------------------------------------------------
2005  XXI Magazine 2004 Communicator Award
------------------------------------------------------------------------
2005  Richard G. Lugar Excellence in Public Service Series (Lugar
       Series) Excellence in Public Service Award
------------------------------------------------------------------------
2005  Asian American Pacific Islander Inaugural Ball Committee
       Recognition for Dedicated Service to Asian Americans
------------------------------------------------------------------------
2005  League of United Latin American Citizens (LULAC) Outstanding
       Leadership Award
------------------------------------------------------------------------
2005  Alabama State Senate Recognitions for Contributions as Secretary
       of Labor
------------------------------------------------------------------------
2005  Fraternal Order of Police Exemplary Service Award
------------------------------------------------------------------------
2005  Sing Tao Daily Pioneer Award at 40th Anniversary Gala
------------------------------------------------------------------------
2005  Fukienese American Unity Association Inc. Recognition for Service
       to Chinese Community
------------------------------------------------------------------------
2005  Korean Community Service Center of Greater Washington Recognition
       for Commitment to the KCSC & Asian American Community
------------------------------------------------------------------------
2005  U.S. President George W. Bush Presidential Quality Award for
       Management Excellence
------------------------------------------------------------------------
2005  Asian Job Service Employer Committee Pinnacle Award for
       Outstanding Leadership
------------------------------------------------------------------------
2006  Recognition on Washingtonian Magazine's The List of the Top 100
       Most Powerful Women
------------------------------------------------------------------------
2006  City of Baton Rouge, LA Mayor Melvin ``Kip'' Holden Recognition as
       Honorary Mayor
------------------------------------------------------------------------
2006  City of Baton Rouge, LA Recognition as Honorary Citizen &
       Designation of ``Elaine L. Chao Day''
------------------------------------------------------------------------
2006  KY--Organization of Chinese Americans, KY Chapter & Asian Pacific
       American Community of Greater KY Pioneer Award
------------------------------------------------------------------------
2006  Houston Asian Chamber of Commerce Distinguished Achievement Award
       at 11th Annual Gala
------------------------------------------------------------------------
2006  National Association of Hispanic Publications & Foundation
       Outstanding Leadership Award
------------------------------------------------------------------------
2006  The American Legion Recognition in Appreciation of Service
------------------------------------------------------------------------
2006  Clare Boothe Luce Policy Institute Conservative Leadership Award
------------------------------------------------------------------------
2006  LULAC National Convention Recognition of Achievement as Secretary
       of Labor
------------------------------------------------------------------------
2006  LULAC National Convention President's Citation Award
------------------------------------------------------------------------
2006  U.S. Department of Commerce Ronald H. Brown Leadership Award
------------------------------------------------------------------------
2006  Chinese American Academic and Professional Society Outstanding
       Public Service Award
------------------------------------------------------------------------
2006  Chen Kung University Alumni Association of Greater New York 2006
       Distinguished Special Achievement Award
------------------------------------------------------------------------
2006  KY--Henry Clay Society Distinguished Service Award
------------------------------------------------------------------------
2006  National Urban League National Public Service Award
------------------------------------------------------------------------
2007  League of United Latin American Citizens (LULAC) National
       Legislative Award at 10th Annual Awards Gala
------------------------------------------------------------------------
2007  National Association of Hispanic Publications Recognition of
       Commitment to Latinas
------------------------------------------------------------------------
2007  Asian Pacific American Institute for Congressional Studies
       (APAICS) Distinguished Lifetime Achievement
------------------------------------------------------------------------
2007  U.S.-Mexico Chamber of Commerce Good Neighbor Award
------------------------------------------------------------------------
2007  Society of Asian Federal Officers 2007 Person of the Year Award
------------------------------------------------------------------------
2007  Fraternal Order of Police (FOP) President's Award
------------------------------------------------------------------------
2007  International Mine Rescue Conference Recognition for Leadership in
       Support of U.S. Mine Rescue Teams
------------------------------------------------------------------------
2007  Paralyzed Veterans of America Recognition for Public Service
------------------------------------------------------------------------
2007  Assoc. of Chinese Scientists & Engineers Recognition for
       Outstanding Service
------------------------------------------------------------------------
2008  Latina Style Image of Ana Maria Arias (founder of the magazine)
       Recognition for Exceptional Contribution to the success of the
       Latina Style 50
------------------------------------------------------------------------
2008  Chinese Consolidated Benevolent Association, Council of Presidents
       Outstanding Leader Award
------------------------------------------------------------------------
2008  Cuban American Federation Leadership Award
------------------------------------------------------------------------
2008  U.S. Department of Homeland Security, Citizenship & Immigration
       Services American by Choice Award
------------------------------------------------------------------------
2008  Asian American Hotel Owners Association Leadership Award
------------------------------------------------------------------------
2008  Phoenix Satellite Television Personality of the Year Award
------------------------------------------------------------------------
2008  Asian American Government Executives Network (AAGEN) Excellence in
       Public Service Inaugural Award
------------------------------------------------------------------------
2008  Lung Kong Tin Yee Association of Phoenix, AZ Recognition as
       Secretary of Labor
------------------------------------------------------------------------
2008  Who's Who in Asian America 2008 Legacy Award
------------------------------------------------------------------------
2008  City of Westminster, CA Recognition as Honorary Citizen
------------------------------------------------------------------------
2008  National Asian Peace Officers Association 2008 National Public
       Servant Recognition Award
------------------------------------------------------------------------
2008  KY--City of Paducah, KY Recognition as Duchess of Paducah
------------------------------------------------------------------------
2008  Council on Competitiveness Recognition for Contributions to
       American Competitiveness
------------------------------------------------------------------------
2008  U.S. Asia Institute Recognition of Distinguished Public Service in
       building U.S. Asia Relations; Given at U.S. Asia Institute 30th
       Anniversary Gala
------------------------------------------------------------------------
N/A   Chinese Language Plaque (Texas)
------------------------------------------------------------------------
N/A   KY--University of Louisville Alumni Association Recognition as
       Adopted Alumni
------------------------------------------------------------------------
N/A   Vietnamese Fishermen Association of America Recognition for
       Support of HR 4009
------------------------------------------------------------------------
N/A   U.S. Department of Labor Voluntary Protection Plan Recognition for
       Support of DOL Voluntary Protection Plan (VPP)
------------------------------------------------------------------------
N/A   RightNOW Star Award for Inspiration to Women
------------------------------------------------------------------------
N/A   KY--City of Middlesboro, KY Recognition as Honorary Citizen
------------------------------------------------------------------------
N/A   KY--Henderson, KY Mayor Recognition as Honorary Citizen
------------------------------------------------------------------------
N/A   League of Korean Americans--USA Woman of the Year Award
------------------------------------------------------------------------
N/A   PACE Union Local 5-550--Paducah, KY Recognition of Leadership in
       Department of Labor's Implementation of the Energy Employees
       Occupational Illness Compensation Program Act of 2000
------------------------------------------------------------------------
2010  KY Society of Washington 2010 Henry Clay Distinguished Kentuckian
       Award
------------------------------------------------------------------------
2010  KY Federation of Rep. Women to ELC Lifetime Achievement Award
------------------------------------------------------------------------
2010  Museum of Chinese in America Heritage and Family Award to honor
       Dr. James S. C. Chao and Mrs. Ruth Mulan Chu Chao
------------------------------------------------------------------------
2011  Woodrow Wilson Center Woodrow Wilson Award for Public Service
------------------------------------------------------------------------
2014  National Dropout Prevention Network Crystal Star Award for
       Lifetime Achievement for National Impact
------------------------------------------------------------------------
2015  Georgetown University Honorary Degree from McDonough School of
       Business
------------------------------------------------------------------------
2015  U.S. China Policy Foundation Award--Outstanding Achievement Award
       in Public Service
------------------------------------------------------------------------
2016  National Taiwan Ocean University Honorary Degree, Doctor of Law
------------------------------------------------------------------------

    16. Please list each book, article, column, or publication 
you have authored, individually or with others. Also list any 
speeches that you have given on topics relevant to the position 
for which you have been nominated. Do not attach copies of 
these publications unless otherwise instructed.
  Articles and Op-Eds
        ``A Return to Prosperity is Light Years Away if We 
        Follow Obama's Road Map'' 
        Gazette Xtra; September 7, 2009

        ``Anti-Trade Agenda a Real Economy Killer'' 
        The Heritage Foundation; April 10, 2009

        Embracing her old Kentucky home
        Politico
        November 7, 2013

        Procrastination no longer an option
        The Hill
        December 5, 2012

        Concentrate on Needs of Employers
        The New York Times
        November 8, 2012

        Winter of recovery not likely with current policies, 
        inaction on taxes
        The Heritage Foundation
        July 11, 2012

        Government and Industry Must Invest
        The New York Times
        July 9, 2012

        Demand More than ``New Normal'' (co-authored with 
        Douglas Holtz-Eakin)
        National Review
        May 3, 2012

        Our Best Diplomats: Women in the Peace Corps
        Time Magazine
        March 19, 2012

        Americans Are More Generous Than We Think
        Time Magazine
        January 5, 2012

        Remembering Pearl Harbor
        The Washington Times
        December 6, 2011

        The Best Recession Protection: Education
        Time Magazine
        November 29, 2011

        America's jobless ask: Where's the recovery?
        The Hill
        July 21, 2011

        All Americans Need 401(k) Loan Insurance
        Roll Call
        June 7, 2011

        Statement on the passing of Matthew K. Fong, American 
        Patriot and National Leader
        ElaineLChao.com
        June 2, 2011

        A Day of Reckoning for Public Pensions: The bills are 
        due, the coffers are empty
        The Christian Science Monitor
        October 1, 2010

        Another Unhappy Labor Day
        The Wall Street Journal
        September 2, 2010

        How to Get America Back to Work
        The Daily Beast
        January 10, 2010

        Where the Workers Are
        Wall Street Journal
        December 9, 2003

        A Return to Prosperity is Light Years Away if we Follow 
        Obama's Road map
        McClatchy-Tribune News Service
        September 7, 2009

        Left-Wing Proxy Playz
        The Washington Times
        August 16, 2009

        Obama Tries to Stop Union Disclosure
        The Wall Street Journal
        May 6, 2009

        Topic A--The Next 100 Days
        The Washington Post
        April 26, 2009

        Topic A--The Employee Free Choice Act
        The Washington Post
        April 12, 2009

        Anti-Trade Agenda a Real Economy Killer
        The Chicago Tribune
        April 10, 2009

        Two Steps Back on Labor Rights
        The Wall Street Journal
        March 21, 2009

        Our Workers Deserve Secret Ballots
        Wall Street Journal
        January 14, 2009

        Will Obama's Labor Department Help or Hinder Recovery?
        The Wall Street Journal
        January 1, 2009

        The Coming Assaults on America's Competitiveness
        Townhall Magazine
        December 1, 2008

        Defining Democracy Down
        The Wall Street Journal
        July 20, 2007

        Secret Ballot Under Fire for American Worker
        The Chicago Tribune
        March 1, 2007

        Rescuing Your Retirement (co-authored with John Snow 
        and Carlos Gutierrez)
        New York Times
        November 21, 2005

        Helping America's Remarkable Workforce Meet its 
        Challenges
        Des Moines Register
        September 27, 2005

        Utilize Some Well-Trained Talent; Give a Returning 
        Veteran a Job
        Atlanta Journal-Constitution
        September 5, 2005

        Honoring Promises Made to Workers
        Seattle Post-Intelligencer
        February 15, 2005

        We Must Win Fight Against AIDS
        Augusta Chronicle
        November 29, 2004

        New Overtime Rules Protect U.S. Workers
        Kansas City Star
        August 24, 2004

        Women Becoming a Powerful Voice
        Miami Herald
        March 15, 2004

        Challenges in Africa
        Louisville Courier-Journal
        February 1, 2004

        A Chance for Health Care Coverage
        Lexington Herald-Leader
        September 1, 2003

        The IRS v. The People--Chapter 11 ``Why the Flat Tax 
        Will Boost Charitable Giving''
        The Heritage Foundation
        1999

  Speeches
        Conferral Ceremony of National Taiwan Ocean University 
        Keelung--October 16, 2016

        American Action Forum Panel on Social Commerce--
        November 19, 2015

        Taipei Economic and Cultural Office in New York--March 
        2, 2012

        Speech at National Maritime Day Celebration, Baltimore, 
        Maryland, May 22, 2008

        Workforce Innovations 2007, Kansas City, Missouri--July 
        17, 2007

        U.S. Merchant Marine Academy Alumni Foundation Dinner, 
        New York, New York, September 27, 2006

        Speech at National Maritime Day, Propeller Club, 
        Washington, D.C.; May 22, 2006

        Speech at Women Entrepreneurship in the 21st Century; 
        April 3, 2003
  1989
        International Business Association, Long Beach, 
        California; February 24, 1989
  1988
        Women's Propeller Club of New York, New York; January 
        14, 1988

        American Association of Port Authorities, San 
        Francisco, CA; September 13, 1988

        National Export Traffic League of New York; September 
        23, 1988

        National Customs Brokers and Forwarders Association of 
        America Washington, D.C., September 27, 1988

        Western Cargo Conference, Vancouver, B.C.; October 7, 
        1988

        National Transportation Industrial League, Dallas, 
        Texas; November 16, 1988
  1987
        Computer--Aided Operations Research Center (CAORF) 
        Privatization Ceremony Rings Point, New York; May 16, 
        1987

        The Propeller Club, Port of New Orleans, New Orleans, 
        LA; May 23, 1987

        Admiral King's Farewell Washington, D.C.; June 5, 1987

        WWS Ports and Terminals Conference New York, NY; June 
        18, 1987

        Society of Marine Consultants (Delivered for Elaine L. 
        Chao by Patricia A. Connell); October 6, 1987
  1986
        National Conference of State Legislators, Anchorage, 
        Alaska; May 31, 1986

        Seminar on U.S. International Liner Trades, Cambridge, 
        Massachusetts; June 4, 1986

        Gulf Regional Meeting of USMMA Alumni Houston, Texas; 
        June 21, 1986

        National Defense Transportation Association, Tampa, 
        Florida; October 1, 1986

        Maritime Administrative Bar Association Washington, 
        D.C.; November 13, 1986

    17. Please identify each instance in which you have 
testified orally or in writing before Congress in a 
governmental or non-governmental capacity and specify the date 
and subject matter of each testimony.
  2001
        January 24--Committee on Health, Education, Labor and 
        Pensions
                Confirmation as Secretary of Labor

        March 6--Senate Subcommittee on Labor, HHS, Education 
        Appropriations
                Ergonomics rule

        April 25--Senate Subcommittee on Labor, HHS, Education 
        Appropriations
                Ergonomics

        October 16--House Committee on Education and the 
        Workforce
                Economic Recovery and Assistance to Workers
  2002
        February 6 and 7--House Committee on Education and the 
        Workforce
                ENRON collapse: implications for worker 
                retirements
        February 13--House Subcommittee on Labor, HHS, 
        Education Appropriations
                FY 2003 budget request
        March 21--Senate Subcommittee on Labor, HHS, Education 
        Appropriations
                FY 2003 budget request
        April 18--Senate Committee on Health, Education, Labor 
        and Pensions
                Ergonomics
        May 8--House Subcommittee on Labor, HHS, Education 
        Appropriations
                FY 2003 budget request
  2003
        February 5--Senate Committee on Small Business
                Association Health Plans
        February 12--House Education and the Workforce
                Economic Recovery and WIA Reforms
        March 5--House Committee on Small Business
                Association Health Plans
        March 12--House Committee on Ways and Means
                FY 2004 budget request
        April 9--Senate Subcommittee on Labor, HHS, Education 
        Appropriations
                FY 2004 budget request
        April 10--House Subcommittee on Labor, HHS, Education 
        Appropriations
                FY 2004 budget request
  2004
        January 20--Senate Subcommittee on Labor, HHS, 
        Education Appropriations
                Overtime regulations
        February 12--House Subcommittee on Labor, HHS, 
        Education Appropriations
                FY 2005 budget request
        March 4--House Committee on Ways and Means
                FY 2005 budget request
        April 28--House Committee on Education and the 
        Workforce
                Overtime regulations
  2005
        March 5--Senate Subcommittee on Labor, HHS, Education 
        Appropriations
                FY 2006 budget request
        March 16--House Committee on Ways and Means
                FY 2006 budget request
        March 17--House Subcommittee on Labor, HHS, Education 
        Appropriations
                FY 2006
        October 18--Senate Committee on the Judiciary (with 
        Secretary Chertoff)
                Immigration reform
  2006
        February 16--House Subcommittee on Labor, HHS, 
        Education Appropriations
                FY 2007 budget request
        April 6--House Committee on Education and the Workforce 
        (with Secretary Spellings)
                American Competitiveness
  2007
        March 28--Senate Subcommittee on Labor, HHS, Education 
        Appropriations
                FY 2008 budget request
        April 26--House Subcommittee on Labor, HHS, Education 
        Appropriations
                FY 2008 budget request
  2008
        March 6--House Subcommittee on Labor, HHS, Education 
        Appropriations
                FY 2009 budget request
        May 7--Senate Subcommittee on Labor, HHS, Education 
        Appropriations
                FY 2009 budget request
  2009
        January 21--House Republican Forum on President Obama's 
        Labor Agenda

    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you 
have been nominated, what in your background or employment 
experience do you believe affirmatively qualifies you for 
appointment to the position for which you have been nominated, 
and why do you wish to serve in that position?
    I believe my background makes me well suited to be U.S. 
Secretary of Transportation. My previous government service, 
including serving as U.S. Secretary of Labor, Deputy Secretary 
of Transportation, Chairman of the Federal Maritime Commission, 
Deputy Maritime Administrator at the U.S. Department of 
Transportation, and transportation banker at two financial 
institutions, have prepared me not only for the management 
challenges of a large Federal department, but also for the task 
of providing leadership and developing legislation and 
regulatory programs that will enhance transportation safety and 
infrastructure for our country.
    19. What do you believe are your responsibilities, if 
confirmed, to ensure that the department/agency has proper 
management and accounting controls, and what experience do you 
have in managing a large organization?
    The head of any agency has the ultimate responsibility for 
ensuring the integrity of the agency's mission and its 
resources. A first step in fulfilling this responsibility is to 
identify, recruit and hire the best people possible for the 
positions that will be open in the incoming Administration to 
help lead the organization. It would be expected that the 
leadership team will work together to foster an environment of 
mutual respect and open communications, to flag any problems or 
issues for our collective attention before they get out of 
hand, and to work together to seek the appropriate approvals of 
major decisions and policies. It has been my experience as a 
manager and leader to cultivate a collaborative and open 
management environment. As can be seen from my background, I 
have an MBA and significant experience in leading large complex 
organizations. Under my leadership, the U.S. Department of 
Labor achieved record results in protecting the health, safety, 
wages, and retirement security of the Nation's workforce. As 
President and Chief Executive Officer of United Way of America, 
I worked with the Board and local United Ways to restore public 
trust and confidence in one of our Nation's premier charitable 
institutions after it had been tarnished by financial 
mismanagement and abuse. Good stewardship of the people's 
resources has always been, and will continue to be, my highest 
priority.
    20. What do you believe to be the top three challenges 
facing the department/agency, and why?
    A top priority for DOT is to maintain a culture of good 
stewardship on behalf of the American people. This means 
effective enforcement of safety measures; getting the most 
benefit from the Department's expenditures including 
strengthening its planning and acquisition practices; and 
preparing for the future by considering new technologies in our 
infrastructure. Second, given the Nation's need to improve 
critical infrastructure, it is important to find ways to 
expedite the process of making repairs and building new 
constructions and decreasing the regulatory burdens when 
appropriate. With or without a new infusion of funds, it is 
necessary to look at the existing processes for infrastructure 
development and find more efficient ways to address bottlenecks 
in planning and permitting. Third, with so many needs 
everywhere in the country, a big challenge will be to strive 
for equity between urban and rural areas, among different modes 
of transportation, and other competing but equally deserving 
stakeholders.


                   b. potential conflicts of interest


    1. Describe all financial arrangements, deferred 
compensation agreements, and other continuing dealings with 
business associates, clients, or customers. Please include 
information related to retirement accounts.
    News Corporation: The Deferred Stock Units to which Nominee 
is entitled will be paid in cash upon separation from the 
board, which is anticipated to be January 2017. The amount that 
Nominee will receive will be based on the stock price of News 
Corporation at the time of separation; the value at October 31, 
2016, based on the then-current stock price, was --------.
    Wells Fargo & Company: The Directors' Stock Compensation 
and Deferral Plan (DSC) to which Nominee is entitled will be 
paid in cash, at periods determined by annual elections that 
she has made. The amount paid will be based on the underlying 
shares and the current stock price of Wells Fargo & Company at 
the time payment is made. The aggregate value of the DSC awards 
at November 30, 2016, based on the then current stock price, 
was, payable in these approximate amounts and dates, and 
assuming separation from the board in January 2017: July 2017--
48 percent; March 2018--29 percent; March 2019--15 percent; 
March 2020--4 percent; and March 2021--4 percent. For the 
portion of DSC units that hasn't been redeemed, Nominee will 
continue to receive DSC equivalents for dividends on the 
company's common stock.
    Delta Airlines: Nominee is entitled to discounted air fare 
on Delta Airlines as a result of her service on the board of 
Northwest Airlines.
    Vulcan Materials: The Deferred Stock Units (DSU) to which 
Nominee is entitled will be paid in cash the April following 
the year of separation. Assuming separation in January 2017, 
the payment would be made in April 2018, based on the then-
current market price of the company's common stock. Nominee 
will continue to receive DSU equivalents for dividends on the 
company's common stock until the DSUs are redeemed. The value 
of the DSUs at October 31, 2016, based on the then-current 
stock price, is --------. Although 57 percent of the DSUs are 
not vested, the board has the authority to grant full vesting.
    Ingersoll-Rand: The Directors' Retainer Stock Unit Plan 
(RSU) will be paid in cash upon separation from the board, 
which is anticipated to be in January 2017. The amount that 
Nominee will receive will be based on the company's stock price 
at the date of separation; the value at November 30, 2016, 
based on the then-current stock price, was --------.
    2. Do you have any commitments or agreements, formal or 
informal, to maintain employment, affiliation, or practice with 
any business, association or other organization during your 
appointment? If so, please explain. No.
    3. Indicate any investments, obligations, liabilities, or 
other relationships which could involve potential conflicts of 
interest in the position to which you have been nominated. 
None.
    4. Describe any business relationship, dealing, or 
financial transaction which you have had during the last ten 
years, whether for yourself, on behalf of a client, or acting 
as an agent, that could in any way constitute or result in a 
possible conflict of interest in the position to which you have 
been nominated. None.
    5. Describe any activity during the past ten years in which 
you have been engaged for the purpose of directly or indirectly 
influencing the passage, defeat, or modification of any 
legislation or affecting the administration and execution of 
law or public policy. None.
    6. Explain how you will resolve any potential conflict of 
interest, including any that may be disclosed by your responses 
to the above items.
    If there is any conflict of interest, the nominee will 
follow the recommendation of the OGE.


                            c. legal matters


    1. Have you ever been disciplined or cited for a breach of 
ethics, professional misconduct, or retaliation by, or been the 
subject of a complaint to, any court, administrative agency, 
the Office of Special Counsel, professional association, 
disciplinary committee, or other professional group? If yes:

    a. Provide the name of agency, association, committee, or 
group;
    b. Provide the date the citation, disciplinary action, 
complaint, or personnel action was issued or initiated;
    c. Describe the citation, disciplinary action, complaint, 
or personnel action;
    d. Provide the results of the citation, disciplinary 
action, complaint, or personnel action.
    No.
    2. Have you ever been investigated, arrested, charged, or 
held by any Federal, State, or other law enforcement authority 
of any Federal, State, county, or municipal entity, other than 
for a minor traffic offense? If so, please explain. No.
    3. Have you or any business or nonprofit of which you are 
or were an officer ever been involved as a party in an 
administrative agency proceeding, criminal proceeding, or civil 
litigation? If so, please explain.

  1. LClass of Dole Food Co. shareholders v. Directors--filed 
        June 2013 in Delaware Court of Chancery; alleged breach 
        of fiduciary duty by directors; Case dismissed against 
        the directors

  2. LClass of Dole Food Co. shareholders v. Directors--filed 
        June 2013 in California Superior Court; alleged breach 
        of fiduciary duty by the directors; claims stayed, 
        dismissed.

  3. LAs a director of Wells Fargo Bank, the nominee was named 
        in multiple derivative Wells Fargo shareholder lawsuits 
        filed between September and November 2016 in the U.S. 
        District Court for the Northern District of CA, and in 
        state Superior Court in San Francisco; this litigation 
        alleges breaches of fiduciary duty for certain banking 
        practices and remains in early procedural stages.

    4. Have you ever been convicted (including pleas of guilty 
or nolo contendere) of any criminal violation other than a 
minor traffic offense? If so, please explain. No.
    5. Have you ever been accused, formally or informally, of 
sexual harassment or discrimination on the basis of sex, race, 
religion, or any other basis? If so, please explain. No.
    6. Please advise the Committee of any additional 
information, favorable or unfavorable, which you feel should be 
disclosed in connection with your nomination. None.


                     d. relationship with committee


    1. Will you ensure that your department/agency complies 
with deadlines for information set by congressional committees? 
Yes.
    2. Will you ensure that your department/agency does 
whatever it can to protect congressional witnesses and whistle 
blowers from reprisal for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with 
requested witnesses, including technical experts and career 
employees, with firsthand knowledge of matters of interest to 
the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you 
may be reasonably requested to do so? Yes.

                               Attachment

                      Brief Bio of Elaine L. Chao

    Elaine L. Chao served as the 24th U.S. Secretary of Labor 
from 2001-2009 and is the first Asian American woman to be 
appointed to a President's Cabinet in American history.
    Secretary Chao has a distinguished career in the public, 
private and nonprofit sectors. An immigrant who arrived in 
America at the age of eight speaking no English, she received 
her citizenship at the age of 19. Secretary Chao's experience 
transitioning to a new country has motivated her to devote most 
of her professional life to ensuring that everyone has the 
opportunity to build better lives.
    As Secretary of Labor, she focused on increasing the 
competitiveness of America's workforce in a global economy and 
achieved record results in workplace safety and health.
    Prior to the Department of Labor, Secretary Chao was 
President and Chief Executive Officer of United Way of America, 
where she restored public trust and confidence in one of 
America's premier institutions of private charitable giving 
after it had been tarnished by financial mismanagement and 
abuse. As director of the Peace Corps, she established the 
first programs in the Baltic nations and the newly independent 
states of the former Soviet Union. Her government service also 
includes serving as Deputy Secretary at the U.S. Department of 
Transportation, Chairman of the Federal Maritime Commission, 
Deputy Maritime Administrator at the U.S. Department of 
Transportation, and White House Fellow specializing in 
transportation and trade in the Office of Policy Development. 
She has also worked in the private sector as Vice President of 
Syndications at Bank of America and transportation banker at 
Citicorp.
    Secretary Chao earned her MBA from the Harvard Business 
School and an economics degree from Mount Holyoke College. 
Honored for her extensive record of accomplishments and public 
service, she is the recipient of 36 honorary doctorate degrees.
    A popular speaker on jobs, the economy, and America's 
global competitiveness, Secretary Chao is Distinguished Fellow 
at the Hudson Institute. She was also a Distinguished Fellow at 
the The Heritage Foundation. An active volunteer, she currently 
serves on a number of nonprofit and corporate boards.

    The Chairman. Thank you, Secretary Chao. Before we begin 
our questions, I want to ask unanimous consent to put 20 
letters of support for Secretary Chao into the record. They 
come from a diverse group of stakeholders ranging from first 
responders and transportation infrastructure groups to labor 
and shippers.
    Without objection, it's so ordered.
    [The information referred to follows:]

    The Chairman. Secretary Chao, I think I counted at least a 
half a dozen references to working with Congress, and more 
specifically, to working with this Committee in your testimony. 
I know you appreciate the importance of cooperation between the 
branches of our government. Nevertheless, these hearings give 
us an opportunity to underscore that point.
    So if confirmed, will you pledge to work collaboratively 
with this Committee and provide thorough and timely responses 
to our requests for information as we work together to address 
transportation policy?
    Secretary Chao. I'll look forward to working with this 
Committee and also the Congress on all these issues of concern.
    The Chairman. Planes, trains, and automobiles are 
particularly important in a rural state like South Dakota, 
where long distances often separate people from economic hubs, 
the markets for their goods, and even hospitals.
    Secretary Chao, I appreciated your recognition of the need 
and challenge of achieving equity between urban and rural areas 
in your top priorities for the Department, and as a Senator 
from the state of South Dakota, this balance is especially 
important to me and to my constituents.
    The FAST Act struck a careful balance to ensure that we 
appropriately invested in both urban and rural infrastructure 
critical for connecting the country, supporting mobility 
options for all Americans, and moving agricultural, 
manufactured, and other essential products to the market. To 
what extent do you see the funding allocations in the FAST Act 
as providing a framework for thinking about potential 
allocations under any infrastructure proposal put forward by 
the administration?
    Secretary Chao. I think the President-elect's vision for an 
infrastructure proposal is ambitious and forward-looking, and 
comprehensive. We will be starting a task force and a process 
to address these issues. The FAST Act was a tremendous 
accomplishment by the last Congress. And there are many, many 
other financing options which should be considered as well. And 
we would hope that as we go into the future, that we'll also be 
creative, innovative, and consider all options as well because, 
as mentioned, the government does not have the resources to 
address all the infrastructure needs within our country, so all 
of us need to put our best thinking forward as to how to 
address the aging infrastructure.
    The Chairman. Would you strive also to try and strike the 
balance or achieve the balance when it comes to funding 
allocations between urban and rural areas that was accomplished 
in the FAST Act?
    Secretary Chao. Absolutely. I've lived on the East Coast, 
and the West Coast. I now live in Kentucky. I'm very, very 
familiar with the balance that needs to be kept between the 
urban and the rural areas.
    The Chairman. Another area of importance for South Dakota 
and for a lot of the Members on this Committee is the 
availability of reliable and affordable commercial air service, 
which has the ability to allow access to and from 
geographically isolated areas of the country to hubs in 
metropolitan areas. And while it's a convenience for travelers, 
commercial aviation is something that often helps communities 
attract businesses, create jobs, and spur economic development.
    Various factors have altered the market, and unfortunately, 
in some cases, threatened or eliminated access to commercial 
aviation for rural communities. If confirmed, what will you do 
to improve commercial aviation connectivity to rural 
communities?
    Secretary Chao. Rural communities are a critical part of 
our country, and their access to affordable and easy air 
service is an issue and something that we have talked about in 
many, many ways over the years. So I look forward to working 
with the Congress on continuing the EAS program and finding 
ways in which we can improve it as well.
    The Chairman. New technologies, I mentioned in my opening 
remarks, like autonomous vehicles, have the potential to 
improve our transportation system by saving lives, increasing 
mobility, and improving fuel economy. The Department has begun 
developing a framework for autonomous vehicles, as you noted in 
your testimony, but the Federal role is still at a very early 
stage of development.
    So I welcome your goal of making the Federal Government a 
catalyst rather than an impediment for technologies that 
improve safety and efficiency. If confirmed, how will the 
Department, under your leadership, keep pace with evolving 
advanced technologies and foster innovation?
    Secretary Chao. Innovation and creativity is a hallmark of 
America. We are famous throughout the world because of the 
ingenuity and creativity that we have shown, and we have led 
the world on so many fronts because of the new technologies 
that our country has been able to pioneer. We are now seeing 
the advent of autonomous vehicles, artificial intelligence, 
smart cars, and also drones.
    While the benefits are very much known, there are also 
concerns about how they will continue to develop. And I will 
work with this Committee and the Congress to address many of 
these concerns, but we need to do so in a way that will not 
dampen the basic creativity and innovation of our country.
    The Chairman. Thank you, Secretary Chao.
    Senator Nelson.
    Senator Nelson. Mr. Chairman, I want to welcome the four 
new Members on the Democratic side. They have certainly helped 
the ratio of male to female that you talked about: Senators 
Baldwin, Duckworth, Hassan, and Cortez Masto. And I hope to 
announce the Ranking Members of the Subcommittees very shortly.
    I'm just going to ask one question. I want to give our 
Members the opportunity to ask about the plethora of subjects 
that this Committee handles, and then I'll do any cleanup at 
the end.
    The question of privatization of air traffic control. The 
opposition of DoD. The fact that whereas the business 
roundtable supports the privatization, there is dissention 
within that organization. On the other side, the Aerospace 
Industries Association opposes privatization. Do you want to 
offer any of your thoughts on this?
    Secretary Chao. I would like to get confirmed first.
    [Laughter.]
    Senator Nelson. Oh.
    Secretary Chao. Obviously, this is an issue of great 
importance and this is a huge issue that needs to have national 
consensus, and for that national consensus to occur, there 
needs to be a dialogue, a great discussion, a national 
discussion. The administration has not made a decision on this 
point, and I expect that come January 20, this will be one of 
the issues in which the White House will be determining the 
position of the administration.
    I am open to all ideas. I'm very cognizant of those who are 
in favor of it. I'm also very cognizant of those who are 
concerned about the safety aspects of it.
    Senator Nelson. OK.
    Secretary Chao. So I will obviously work with the Congress 
and also with this Committee on all those issues.
    Senator Nelson. Well, in view of your answer, let me just 
say that we will collaborate extensively----
    Secretary Chao. Yes.
    Senator Nelson.--with you with regard to this. And it is so 
important that we get a full FAA reauthorization, a multiyear. 
The Chairman and I worked it out where we would get basically 
one year and get a number of important things etched into law 
in that bill, but for the certainty of the airline industry in 
the future, for the future of the next generation of air 
traffic control, et cetera, we need this multiyear FAA 
reauthorization bill, and there is a huge contention between 
the House and the Senate over this issue of privatization. So 
we will be consulting with you and collaborating and 
communicating with you extensively on this.
    Thank you, Mr. Chairman.
    Secretary Chao. I look forward to it.
    The Chairman. Thank you, Senator Nelson.
    Senator Wicker.

              STATEMENT OF HON. ROGER F. WICKER, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Wicker. Madam Secretary, I think most Members of 
this Committee are delighted that you have been chosen for this 
position. I think you'll be confirmed with a nice bipartisan 
vote. And I think we'll be consulting and collaborating with 
you on a wide variety of issues because you have quite a bit of 
jurisdiction.
    I think what I heard you say with regard to Senator 
Nelson's question is if we're going to make a major change, as 
has been proposed, then there needs to be a national consensus 
on that and that there needs to be more of a national 
conversation. And certainly I appreciate your assurances that 
Congress will be consulted on this, so I appreciate that.
    I would also simply like to underscore that in response to 
Senator Thune's question about rural America, you expressed 
support for the essential air service. And I would just use 
part of my time today to say I think the point there that I 
would underscore in endorsing your statement, Madam Secretary, 
is that it is a bargain for job creators and economic 
developers in the United States to have this assurance. And so 
I appreciate hearing that from you.
    I would like to just touch briefly on three other things, 
and those would be the Federal Contract Tower Program, the 
Merchant Marine Academy, and the Jones Act.
    Now, with regard to the Federal Contract Tower Program, 
this has been one of the FAA's most successful Government-
industry partnership programs, and it is critical to air 
traffic control safety in 253 smaller airports, including 7 in 
my home state of Mississippi.
    What are your plans to ensure that this program would enjoy 
strong bipartisan and bicameral support in Congress, continues 
to provide these important air traffic control services for our 
traveling public and our small airports?
    Secretary Chao. I would hope to work with the Congress. 
Obviously, I've always done that in the past. This is a very 
important issue. I look forward to working with you on it.
    Senator Wicker. OK. Well, I look forward to a continuing 
conversation on that also.
    Now, as you may know--and I think we had this conversation 
when you came by early on for a visit, which I appreciated--I'm 
a member of the Board of Visitors at the Merchant Marine 
Academy. This has been one of the finest collegiate degrees a 
young American man or woman could receive in the United States 
of America. And we've had some bumps and hiccups along the way.
    On January 6, I was pleased to learn that Secretary Foxx 
has lifted the suspension of the Sea Year on commercial vessels 
for students--for midshipmen--at the Merchant Marine Academy. I 
want to encourage you to continue efforts to ensure the 
integrity of this critical training program for our future 
Merchant Marine mariners.
    The Merchant Marine Academy is operating also under a 
warning with regard to accreditation. Now, this is unimaginable 
to me based on where this Academy has been historically in 
terms of academic achievement. The accreditation warning 
presents a serious risk.
    I hope you have plans. And my question to you is, Will you 
make it a priority, Madam Secretary, to ensure that the Academy 
will stay on track to address the cited deficiencies prior to 
the April 2018 deadline? And will you agree with me that the 
alumni of this fine institution have a lot of knowledge and 
wisdom that they can impart to us, as Government policymakers, 
in this regard?
    Secretary Chao. Senator Wicker, during my courtesy visit 
with you, you were very concerned about this issue, and I 
listened very carefully to what your concerns are, which you 
echoed once again here today. I have been to Kings Point when I 
was Deputy Maritime Administrator. I know the facility very 
well. This is a huge issue, and I can assure you that if 
confirmed, this will be the first issue that I take up at 
MARAD.
    Senator Wicker. Well, thank you very much. And then just 
briefly, because my time is fleeting, a vitally important part 
of our maritime industry is the Jones Act, which this Committee 
has jurisdiction over. I hope you will be a strong supporter of 
the Jones Act and advocate for our domestic maritime sector, as 
a bipartisan majority of this Committee has always done.
    Secretary Chao. The Jones Act is the law of the land, and 
it will be obeyed, unless the Congress changes its mind on 
that.
    Senator Wicker. Thank you.
    The Chairman. Thank you, Senator Wicker.
    Senator Cantwell.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman.
    And welcome and congratulations on your nomination. I think 
we had a chance to discuss the state of Washington and how 
rapidly it is growing, how the fact that being a gateway to the 
Pacific has made our transportation system one of the key 
cornerstones of our economic success, that our state and local 
governments are making strategic investments. In 2014, 
Washington businesses, though, lost $800 million because of 
congestion. And we have very challenged infrastructure issues.
    For the third consecutive year, Sea-Tac is the fastest 
growing airport in the United States. In the last 3 years, the 
passenger volume has increased by 32 percent. Railroads are 
moving over 105 million tons of freight each year; Sound 
Transit is the fastest growing light rail service in the 
country; the Northwest Seaport Alliance, the largest cargo 
center; and our GDP in the state grew by 3 percent compared to 
the Nation as a whole, which was 2.5; and Washington employment 
grew 3.5 percent, the fastest in the Nation, adding 109,000 
jobs in 2016.
    So we have growth, we have an economic engine, but we 
desperately, desperately, desperately, desperately need the 
infrastructure investment.
    So I listened to your words very carefully as you phrased 
out ways in which to get that infrastructure investment. I'm 
all for creativity. I would say that our last transportation 
bill stretched us to the limits. There are no more SPRO dollars 
to get for infrastructure investment, and so it is very 
important that we move forward.
    So I just have a couple of questions. You can just answer 
yes or no. It's not trick yes or no questions, it's more just 
trying to get a sense of what you will prioritize as far as 
funding.
    So do you support the legislation that this Committee 
passed that was implemented, the Freight Act and funding 
FASTLANE Grant programs to move freight more cost effectively 
through the United States and continuing to fund that program?
    Secretary Chao. In concept, of course we want to make sure 
that freight is moved efficiently. It adds to the productivity 
of our country, it's good for the economy.
    As for the second part of your question, I'm not quite sure 
yet because I've not been briefed on what the current situation 
is, but if confirmed, I'll be more than glad to do that.
    Senator Cantwell. OK. When it comes to the FAA, my 
colleague mentioned this, so I just want to be clear. Do you 
support coming up with additional funding, however it works 
out, do you support a new infrastructure investment in our 
airports?
    Secretary Chao. We need more resources to build, repair, 
refurbish our infrastructure, including those that relate to 
the aviation sector, yes.
    Senator Cantwell. OK. I mentioned Sound Transit, one of the 
fastest growing commuter systems in the country. There are 
projects that are already in the pipeline. Do you support 
continuation of those projects? And you mentioned creativity, 
one of the things that they've been able to use is the Master 
Credit Agreements so that they can get more affordable loan 
rates. Are those the kinds of programs you would support for 
Sound Transit?
    Secretary Chao. At this point, if I'm confirmed, I need to 
take a look at those projects. There are many projects that are 
on the books, and there are different reasons why some are 
faster, some are slower. So I need to take a look at what is 
happening with each of those projects.
    Senator Cantwell. OK. I would like to follow up with you, 
if I could, on that in writing to see if we can get an answer 
to that.
    Secretary Chao. Of course.
    Senator Cantwell. And then when you and I visited, I 
mentioned this issue of the volume of crude by rail going 
through the state of Washington, extraordinary growth rates of 
trains that have every city in my state concerned about the 
volatility of this product.
    Department of Energy and DOT are working on an analysis of 
the volatility of that product. Will you continue to support 
that research?
    Secretary Chao. You and I have talked about this at length. 
The prospect of having these products go through urban areas is 
of great concern. But, again, until I'm confirmed and I have an 
opportunity to be briefed on all of these, it would be 
premature for me to say anything at this point.
    Senator Cantwell. OK.
    Secretary Chao. But I will work with you on this.
    Senator Cantwell. Well, I definitely came here very 
interested in your nomination and very enthusiastic about the 
prospects of a former cabinet member moving over to focus on 
something that has been very, if you will, administrations 
sometime choose someone of the opposite party just because of 
the bipartisan nature of transportation. And so I would hope 
that you could look at some of these----
    Secretary Chao. Absolutely.
    Senator Cantwell.--and give me a more specific answer. I'm 
not trying to box you in as much as the main debate for my 
state right now is, are we going to fund infrastructure 
investment? And so we need to know that you are going to step 
up and say yes to that and work creatively with us to find 
those solutions.
    Secretary Chao. The way you have just phrased the question, 
absolutely.
    Senator Cantwell. OK.
    Secretary Chao. Yes.
    Senator Cantwell. But the specifics you have----
    Secretary Chao. I do need to--if I'm confirmed, I do need 
to take a look at the specifics.
    Senator Cantwell. OK. I'm going to send you a few more in 
writing.
    Thank you so much, Mr. Chairman.
    Secretary Chao. Thank you.
    The Chairman. Thank you, Senator Cantwell.
    Senator Blunt.

                 STATEMENT OF HON. ROY BLUNT, 
                   U.S. SENATOR FROM MISSOURI

    Senator Blunt. Thank you, Chairman.
    Secretary Chao, it's wonderful to have you here. I think--I 
don't know that any other Committee will have somebody that 
goes through this process this year who has already been 
confirmed four times, so far without a dissenting vote on the 
Senate floor. You're in the process of setting a record that it 
will be hard for anybody else to meet in the future.
    We had a chance to work together when you were at the 
Department of Labor, the Secretary of Labor. I thought you did 
a tremendous job there, but one of the things I liked best 
about your focus there was on compliance even more than on 
enforcement. And I wonder if you would talk a little bit about 
that theory of trying to get people into compliance as a 
principal focus rather than the heavy hand of enforcement as 
your first place to go.
    Secretary Chao. A lot of times, the rules and regulations 
can be very confusing. And so the government, whether it be at 
the Federal, State, or local levels, I believe has a 
responsibility to engage in outreach to help the regulated 
community understand what is required of them. This benefits 
not only those who are being protected, which is the sole 
criteria, of course, but also it builds a culture, for example, 
of safety that benefits those who are being protected because 
workers alone cannot protect themselves, they need the rules 
and regulations and the laws, they need the cooperation of the 
government, they also need the cooperation of their employers.
    But working together, by making it very clear what the 
obligation of the employer is and how best to understand the 
plethora of Federal, local, state and local regulations to make 
it transparent and easily understandable, that's the best way 
to protect workers, and that was the philosophy in compliance 
that we followed.
    Senator Blunt. You know, I think another area that comes 
into that immediately, too, all of our appropriate discussions 
on infrastructure--and, you know, in Kentucky and Missouri, 
really transportation is our greatest advantage. The rivers 
come together, the highways come together, the rail systems 
come together, and obviously not as dependent on geography, but 
air as well. But I think it's really important that we now be 
thinking intermodally how all of those things work.
    And I believe 10 years from now we'll look back at this 
moment where world food demand is going to double in 3 or 4 
decades, and such great economic opportunities, and either 
think it was a good thing we got started right now looking at 
that intermodal opportunity or, why didn't we do that?
    And I'm wondering what your thoughts are as to the inland 
port structure, the rail structure, and the highway structure, 
how those things, along with air, come together.
    Secretary Chao. Intermodality is a concept that has been 
discussed since the 1970s, and as we've progressed since then, 
we've improved many aspects, but not nearly enough. We still 
have sectors of the economy, different modes of transportation, 
viewing each other as competitors, whereas we should all be 
working together in an integrated intermodal system.
    And so as we consider the infrastructure of the future, we 
need to focus more on how different modes of transportation can 
be seamless partners and service deliverers to provide a more 
efficient and productive transportation system for the benefit 
of the consumer, the shippers, and overall quality of life for 
our country.
    Senator Blunt. I think that competitive model where we're 
all trying to figure out how we compete as a country by making 
intermodal transportation work more effectively is a much more 
realistic model than thinking of each transportation mode 
individually: trucking, barge, and rail. It's how you use this 
whole system in a way that makes us as competitive as we need 
to be and can be.
    And one last thought on streamlining, which you've 
mentioned. You know, in both the last highway bill and the 
railroad bill, we've created some opportunities where you're 
working in existing space for a more fast-tracked process that 
lets you go ahead and improve that rail spur, that rail line, 
that bridge that's already standing there. Just a few minutes 
on your thoughts on streamlining that regulatory process to get 
things done.
    Secretary Chao. If I'm confirmed, I think one of the major 
things that I will be looking at is the issue that you 
discussed and also the intermodal compatibility and interaction 
that can occur. We are seeing more cooperation between the 
different modes of transportation, but, again, more needs to be 
done. Part of it is the lack of Federal resources and resources 
to improve our infrastructure, but all of that is connected to 
the question that you have raised. And, again, if confirmed, 
that would be an issue that we would be having with this 
Committee and the Congress on how to improve the situation.
    Senator Blunt. Thank you, Secretary.
    Thank you, Chairman.
    The Chairman. Thank you, Senator Blunt.
    Senator Klobuchar.

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you very much, Mr. Chairman.
    And congratulations on your nomination, and we're excited 
to work with you going forward. I'm not going to pose an exact 
question about infrastructure except to say how important it is 
in our state. We are the state that had the 35W Bridge collapse 
in the middle of that summer day. It got rebuilt with good 
bipartisan work in a year. It was my first few years in the 
Senate, and I'll never forget that. And I've been devoted to 
this issue of infrastructure ever since.
    I've joined with Senators Warner and Blunt on their 
proposal for financing authority. And as Senator Cantwell has 
pointed out, there are a lot of ideas out there, and I was 
heartened by the fact that the President-elect listed this as a 
number one issue on election night, which all of America saw. 
So I'm hoping that we can come together on something that makes 
sense to up our infrastructure in our country, which would 
include broadband. And a number of the Members here are members 
of our broadband caucus. I'm one of the co-chairs, and you and 
I discussed that.
    But I thought I would get to some specific questions. First 
some air questions. Both Democratic and Republican 
administrations have pursued an expanded Open Skies agreement 
to provide U.S. consumers, carriers, and airports with more 
choice, access to new destinations. I'm concerned that recent 
actions by some companies, like Norwegian Air International, 
and some countries, like the UAE and Qatar, are undermining our 
Open Skies agreements, hurting American workers, because of the 
way they're financing their airlines.
    Could you work with me on this to make sure that our 
American airline workers aren't harmed by unfair competition 
from abroad? Competition is great, but not when it's not an 
even playing field.
    Secretary Chao. Thank you for offering that. I look forward 
to working with you on this important issue, if confirmed.
    Senator Klobuchar. Thank you very much. The first item on 
the NTSB's list of most wanted safety improvements for 2016 was 
reducing fatigue-related crashes. We have all seen a number of 
horrific crashes in the last few years, including Colgan Flight 
3407. We have worked really hard on this issue for passenger 
flights. Senator Boxer, who is no longer with our Committee, as 
she retired, and I worked on a bill with Captain ``Sully'' 
Sullenberger, from the ``Miracle on the Hudson,'' involving 
cargo flights and having some rules in place that make sure 
that their pilots are flying safe.
    Secretary Chao, do you share my commitment to increasing 
aviation safety, working on this cargo issue, and continuing to 
have this as a priority?
    Secretary Chao. I look forward to working with you on all 
these issues if I'm confirmed.
    Senator Klobuchar. OK. Thank you. You and I also talked 
about the general aviation. Minnesota is home of Cirrus in 
Duluth. We make small jets. It's an expanding industry with a 
lot of exports nationally, and Senator Murkowski and I passed a 
bill, we finally got the rules done, to speed up the approval 
process for their safety additions, and I'm hoping you will 
continue to help us. It's an important manufacturing industry 
to America.
    Secretary Chao. If confirmed, I look forward to working 
with you on that.
    Senator Klobuchar. OK. So now we go to snowmobiles. You 
know, we've got to end good here. The Recreational Trails 
Program, it's extremely important. It funds off-highway 
vehicles, snowmobiles, and non-motorized trail uses. It's one 
of these issues where we've actually had the cross-country 
skiers and the bicyclists working with the motorized vehicles. 
It derives its funding from gas taxes paid by off-highway 
vehicle users when they fill up their machines. And I hope that 
you will work with us going forward on that issue as well. It's 
maybe not the first thing you thought of when you got up this 
morning, but that's been a very--a positive program for 
recreational use.
    Secretary Chao. I look forward to working with you on it. 
Thank you.
    Senator Klobuchar. OK. Last, just thoughts on rail safety. 
We have got a lot of issues in our state. You and I talked 
about the fact that we are at this hub where the oil is coming 
in from North Dakota and some from Canada, and we're glad that 
we've had more production in our country, but that, combined 
with the biofuels, we've had a number of derailments. I look at 
Senator Baldwin in Wisconsin as well. And just your thoughts on 
that, rail safety.
    Secretary Chao. Rail safety is number one. There is no 
question about that. And so safety will continue to be the 
number one priority and responsibility of the Department of 
Transportation. And if confirmed, I look forward to working 
with you--we've talked about this during our courtesy visits--
and with all Members of the Committee and the Congress on this 
very important priority.
    Senator Klobuchar. OK. Thank you.
    Secretary Chao. Thank you.
    Senator Klobuchar. And I will put some questions on the 
record on distracted driving. I've been leading those efforts, 
and we've had some success. It's a very hard issue, but overall 
nationally, a 7 percent increase in traffic fatalities from 
2014 to 2015. Secretary LaHood, actually this was one of his 
top priorities when he was in, and I hope that we can 
reinvigorate those efforts and make this a top priority.
    Secretary Chao. Thank you.
    Senator Klobuchar. Thank you.
    The Chairman. Thank you, Senator Klobuchar.
    Senator Fischer.

                STATEMENT OF HON. DEB FISCHER, 
                   U.S. SENATOR FROM NEBRASKA

    Senator Fischer. Thank you, Mr. Chairman.
    Welcome, Madam Secretary. It is a pleasure to see you 
today, and I want to add my congratulations on your nomination.
    I appreciated you coming in for a private meeting that we 
had in our office, and I thought we covered a variety of 
issues, and I just want to touch on a few of those today with 
you.
    Of course, on everybody's mind is the Highway Trust Fund. 
When you hear the President-elect speak about infrastructure 
and putting money into infrastructure, part of that, I would 
assume, would go to the Highway Trust Fund. We are looking at a 
shortfall of $107 billion over the next 5 years following the 
expiration of the FAST Act. And what are your thoughts on 
addressing that long-term solvency of the Federal Highway Trust 
Fund?
    Secretary Chao. The Highway Trust Fund is in bad shape. 
Because of the declining miles--because of the increased miles 
per gallon that cars normally get, the gas tax, which was 90 
percent of the funding of the Highway Trust Fund, is not as 
great a funding source as it used to be. And the Fund annually 
spends $47 billion, takes in $37 billion, that's a $10 billion 
deficit every year. You can't make that up on volume.
    So this is a huge issue. And the pay-fors for any 
infrastructure proposal are all challenging and all have their 
particular champions and also detractors.
    So once again, if confirmed, I look forward to working with 
this Committee and also the Congress on this priority, among 
the top priorities, of this President-elect. And the Highway 
Trust Fund will go bankrupt by 2021 if we don't do something. 
So we all know this.
    Senator Fischer. Yes. Yes. This is an issue I worked on in 
my state as a state senator. We were successful in thinking 
outside the box on some policy issues, and in a couple weeks, 
we'll be putting forward a proposal here to start that 
conversation on how we're going to be funding our highways.
    Another thing that I've worked on in this Committee, 
Secretary Chao, is addressing and reduce the growing number of 
those unnecessary regulations that we face. And during the last 
Congress, the Subcommittee on Surface Transportation, that I 
chaired, held nearly 20 hearings and events on how best that we 
can keep goods moving across this country and do so safely. So 
I was pleased to be able to have language in the FAST Act to 
reform the Federal Motor Carrier Safety Administration's 
regulatory process by making it more transparent and responsive 
and open to input from our stakeholders.
    I would ask you, what do you think is the best way that we 
can keep passengers and freight moving across our system? And 
how do you plan to approach looking at regulations that many 
consider to be a burden on how we are moving goods and people 
across this country?
    Secretary Chao. You and I had a long conversation during 
our courtesy meeting, which I'm very grateful that you granted, 
about many of the transportation issues in your state, and it 
was very clear from your career in the past, as part of the 
state legislature, that you are quite an expert on all of these 
transportation issues yourself. So it was a real benefit for me 
to learn from you and hear your points and also see your 
passion for protecting the interest of your state.
    What was your question? I'm so sorry.
    Senator Fischer. How are we going to----
    Secretary Chao. Oh, the regulations. Sorry. So on the 
regulations, I think the great challenge for all regulators is 
to balance the ultimate goal obviously of safety, but also to 
make sure that the regulations that are enacted are based on 
sound science, on true data, and that the underlying analysis 
is solid. That is the best way that we protect consumers and 
passengers.
    Senator Fischer. Right. I agree with you on that. Another 
point, we're looking at shortages with regards to commercial 
truck drivers, with airline pilots, and that has a direct 
impact, not just on our transportation system, but on our 
country as a whole, when we're not able to move people, when 
we're not able to move and see products and see commerce grow. 
So I look forward to working with you on that as well.
    My time is up. But I thank you for being open to all of the 
issues that your portfolio is going to encompass when you take 
over the Department as the new Secretary. Thank you.
    Secretary Chao. Thank you.
    The Chairman. Thank you, Senator Fischer.
    Senator Moran.

                STATEMENT OF HON. JERRY MORAN, 
                    U.S. SENATOR FROM KANSAS

    Senator Moran. Mr. Chairman, thank you very much.
    Elaine, welcome to the Committee. Robba joins me in 
offering our congratulations to you on this nomination.
    Secretary Chao. Thank you.
    Senator Moran. And while I've always been an admirer of 
your abilities, it's your nieces that I'm most admiring this 
morning. They are well behaved, apparently are seemingly 
attentive to what's being said here, and perhaps the only 
people in the audience that seem to be interested in what 
Members of the U.S. Senate are saying.
    [Laughter.]
    Senator Moran. So I appreciate the suggestion that what 
we're saying is of interest to them, and I would commend your 
sister and her husband for raising apparently good daughters, 
so congratulations to your family as well.
    Secretary Chao. Thank you.
    Senator Moran. Senator Nelson raised the topic of 
privatization of air traffic control. One of the justifications 
that's been used, and I'm very concerned with that 
privatization, so I join Senator Nelson in that regard, but one 
of the justifications that proponents of that privatization 
have utilized is the failure of the FAA to in a timely manner 
implement NextGen, to bring the latest technologies and safety 
to our air traffic control system, and the knock is that by the 
time the Department of Transportation completes its work on 
NextGen, its technologies will already be outdated.
    So my question is maybe you can help us eliminate one of 
the reasons that people advocate for privatization by telling 
us how we could have faster, quicker, more efficient 
implementation of technologies designed to improve our air 
traffic control system and the safety that it provides.
    Secretary Chao. When I was Deputy Secretary in President 
George H.W. Bush's administration, and the organization of the 
air traffic control was a huge issue then. A lot has changed, a 
lot has been done, but more needs to be done. Obviously, as 
times change and the lag in the ability of the organization to 
keep up with the modernization that is required, this is a huge 
issue.
    I am very much aware of those who are for it, those who are 
against privatization. I know that you, with your state of many 
general aviation interests, have not been a proponent.
    We need to have a national discussion about this. And so I 
look forward to working with the Congress, especially with the 
FAA reauthorization bill coming up on September 30 of this 
year, on addressing many of these very important aviation 
issues if I'm confirmed.
    Senator Moran. Well, Ms. Chao, I appreciate that, and am 
certainly interested in working on the privatization issue. I 
would just reiterate my belief that one of the ways we can 
diminish the demand for a different air traffic control system 
is to get the technology in place necessary for the latest 
updated advanced air traffic control system even under its 
current governance structure.
    You're right. Wichita, Kansas, is the air capital of the 
world. We manufacture more general aviation aircraft than any 
place in the country, and that would give me the opportunity to 
highlight the importance of something that's developing today, 
and that involves the certification process, the method by 
which we get new aircraft to market. And getting that done in a 
timely fashion enables Wichita, Kansas, and our manufacturers, 
and the aerospace and aviation industry in our country to 
compete in a global market.
    Reforms that encourage the full use of Organization 
Designation Authorization, ODAs, is important to us, meaning 
that it is moving in a direction of self-certification. The FAA 
has been helpful in recent times in accomplishing that, and I 
would bring that issue to your attention.
    The FAA and industry are moving toward a risk-based safety 
oversight approach, and I would encourage you to encourage the 
FAA to continue that process so that we can get the latest 
technologies in our manufacturing sector utilized, new products 
in the market, and better able to compete in a global economy. 
Any reaction or response?
    Secretary Chao. I would certainly hope to do that. Yes, 
thank you.
    Senator Moran. I appreciate that. I would only mention 
because, as was indicated earlier by one of my colleagues, as 
the clock has already turned to red that his time was fleeting, 
my time is fleeting. And I would be interested in visiting with 
you because the Subcommittee that I've chaired on this 
Committee in the past dealing with the vehicle-to-vehicle 
technology, and we have jurisdiction over NHTSA, and we look 
forward to working with you and hearing your views on how we 
can implement safety in the latest technologies.
    There seems to be a theme here in my conversation, which is 
technology provides us great advantages, and we want to work 
with you to see that it is readily available to the industry 
and to the consumer.
    Secretary Chao. I look forward to working with you if 
confirmed.
    Senator Moran. Thank you, ma'am.
    The Chairman. Thank you, Senator Moran.
    And following up on that point, I think the reason that 
there has been such a discussion about FAA and reform is 
because the promised benefits of NextGen have not been 
realized.
    Secretary Chao. I understand.
    The Chairman. And there is plenty of documentation to that 
effect. And you've indicated an open mind about how to proceed. 
I have an open mind, too. But it's going to require that we 
work together. And it's certainly important that travelers, 
taxpayers, and people in the aviation stakeholder community 
realize the benefits of this and make sure they're getting a 
good return on the billions that have already been spent.
    Senator Nelson. And, Mr. Chairman, let me just chime in on 
that issue. What we're doing with NextGen is we're basically 
going to have air traffic control off of satellites instead of 
radars, and as a result, you can vector an aircraft much more 
efficiently to its designated airport. At the same time, 
aircraft can be aware of each other so that you've got real-
time awareness in air traffic control in the cockpit. The 
technology is there, we just need to implement it. And those 
contracts are being vigorously performed in the FAA. I just 
wanted to add that, Mr. Chairman.
    The Chairman. Senator Nelson.
    Senator Blumenthal is back.

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thank you very much, Mr. Chairman.
    Welcome, Ms. Chao, and thank you for your past service. I 
look forward to working with you. And I might just say, 
although Senator McConnell has left, he and I have something in 
common, which is we both married above ourselves.
    [Laughter.]
    Senator Blumenthal. And my wife, Cynthia, is a friend and 
admirer of yours. And welcome to our Committee.
    Secretary Chao. Thank you.
    Senator Blumenthal. I look forward to working with you on 
issues that concern investment in infrastructure. You and I 
have talked a little bit about the need to modernize and 
upgrade our deteriorating railroads and bridges.
    We see this issue particularly in Connecticut on our roads 
and bridges, but also the safety and reliability and speed of 
our rail system, which needs to be significantly improved, and 
that requires real investment, public resources, not just tax 
credits.
    And you and I have talked about the need for a public-
private partnership. I hope that we can work together to make 
that happen and build a bipartisan consensus in favor of it, as 
I think is very possible.
    I also think that safety in our other kinds of 
transportation is very important. As you well know, a lot of 
the recommendations made by the agencies that will be under 
your jurisdiction very simply have not been implemented 
according to the latest numbers from the National 
Transportation Safety Board. There are hundreds of open safety 
recommendations, 305 at the Federal Aviation Administration, 61 
at the Federal Railway Administration, 91 at NHTSA. These 
recommendations are essentially potentially life-saving for 
people who are affected by them, and the agencies have failed 
to fulfill recommendations.
    And so my first question to you is, What are your plans to 
close those recommendations and make sure that they are 
implemented?
    Secretary Chao. As mentioned, safety is a top priority of 
the Department. If confirmed, one of my first tasks will be to 
get briefed on all of these outstanding issues, and I look 
forward to working with you and your Committee on all of this.
    Senator Blumenthal. I know there's a tendency sometimes to 
be dismissive about these kinds of recommendations. I hope that 
you will make them a priority.
    Secretary Chao. If confirmed, I will look at them very 
seriously.
    Senator Blumenthal. And make sure that they are 
implemented, because I know you're a doer, and these 
recommendations need doing.
    Let me turn to one of the areas where technology is 
tremendously important. You mentioned technology in your 
opening statement. Positive Train Control, not a new 
technology, it has been around for many years. The deadline for 
implementing it was 2015, which then was extended until 2018, 
over opposition from a number of us, including myself, and, 
again, you and I have talked a little bit about it. Would you 
plan to make sure that that deadline is fulfilled and that, in 
fact, Positive Train Control, which is a life-saving 
technology, is implemented by 2018?
    Secretary Chao. If confirmed, I hope to get briefed on 
this, and if there's a deadline, as you mentioned, of that 
particular date, I would look at it very seriously. And, again, 
I want to get an up-to-date briefing on what's going on, on 
that, and I did promise you that I would do that.
    Senator Blumenthal. You had promised.
    Secretary Chao. Yes.
    Senator Blumenthal. And I hope the promise again is not 
just to be briefed, but also to take action, because we've seen 
in the Northeast, the consequences of the failure to implement 
it in a number of the rail catastrophes that have happened, at 
Spuyten Duyvil in Pennsylvania, and others where these 
disasters could have been stopped with Positive Train Control.
    One last question relating to the plan recently issued by 
the Federal Railway Administration, which would in fact reroute 
some of the rail going through Connecticut in bypasses, through 
areas like Old Lyme, where they would have disastrous effects 
on the environment, culture, historic landmarks, and quality of 
life.
    I would ask your commitment that you will review this plan 
and change it in response to the overwhelming outcry from 
people in Connecticut that the recently implemented FRA plan 
simply is unworkable, and it is also unaffordable.
    Secretary Chao. You and I have spoken about this before 
during our courtesy visit, and I will certainly review this 
very carefully if confirmed.
    Senator Blumenthal. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Blumenthal.
    Senator Schatz and Senator Sullivan.

                STATEMENT OF HON. BRIAN SCHATZ, 
                    U.S. SENATOR FROM HAWAII

    Senator Schatz. Thank you, Mr. Chairman.
    Thank you, Secretary Chao, and thank you to your family for 
their commitment to public service and their commitment to you. 
This morning was historic, at least for me; it was the first 
time I saw Leader McConnell hug anyone.
    [Laughter.]
    Secretary Chao. I'm glad it was me.
    [Laughter.]
    Senator Schatz. So, Secretary Chao, we have a serious 
safety crisis on our roads. More than 35,000 people died in 
crashes in 2015. As Senator Klobuchar mentioned, that's a 7 
percent increase over the previous year, and the largest 
increase in 50 years. The early estimates show that that number 
will surpass 40,000 in 2016.
    And these are not just car-on-car accidents, we're also 
failing those that walk along the roads. In 2015, 10 percent of 
all roadway deaths were pedestrians. Seniors are 50 percent 
more likely than other pedestrians to be struck and killed by a 
car, and this problem is particularly bad in the state of 
Hawaii, where we have the unfortunate distinction of having the 
highest rate of pedestrian fatalities among our elderly in the 
country.
    These deaths are preventable. They're preventable through 
the implementation of best practices. Senator Heller and I have 
worked on the implementation of Safe Streets, and we worked 
with the current Secretary of Transportation to try to get 
metropolitan planning organizations, departments of 
transportation services, and state departments of 
transportation to implement Safe Streets.
    Do we have your commitment to work on pedestrian safety and 
the implementation of a Safe Streets agenda?
    Secretary Chao. We've talked about this as well. I look 
forward to working with you on that if confirmed.
    Senator Schatz. Thank you, Secretary. Following up on 
Senator Wicker's question regarding the Jones Act. It is 
bipartisan consensus, as you know. It's the foundation of the 
domestic U.S.-Flag maritime industry. And it is also essential 
to our national security. U.S.-Flag Vessels and American 
Merchant Marines support our warfighters, transporting medical 
supplies, food, and other cargo to troops in combat.
    The military's confidence in a fleet of U.S.-Flag ships to 
move cargo to troops deployed in places like Iraq and 
Afghanistan allow the Navy to save limited cargo space for 
weapons, fuel, and other essential goods, and that's why every 
Secretary of Defense, every Secretary of the Navy, for 
generations has supported the Jones Act, and with the usual 
caveats.
    But understanding that you have a unique role as the former 
MARAD Administrator, former Deputy of Transportation, and the 
former Secretary of Labor, and your private sector experience 
in the shipping context, can you talk about the importance of 
the Jones Act from both a national security standpoint and from 
an economic security standpoint?
    Secretary Chao. The Jones Act is a very important program 
that secures national security. We have seen two wars now in 
the last 25 years. I'm of an age where I have seen two wars in 
pivotal areas of the world. If we did not have the Merchant 
Marine assets to assist the great halls on these campaigns, the 
military naval campaigns, our country would not have been able 
to supply our troops, bring the necessary equipment. All of 
that is not done on the gray bottoms, gray hull bottoms, but, 
rather, Merchant Marine bottoms.
    This is an area that I'm very familiar with, and I have 
great interest in as well. And the national security provided 
by the Merchant Marine fleet of this country is part of the way 
that we are able to be effective overseas and protect this 
country. So I am a great proponent of the U.S.-Flag Merchant 
Marine fleet.
    Senator Schatz. Thank you very much. And my final question 
is just following up on our conversation during our courtesy 
visit. Hawaii is the most isolated populated place on the 
planet, and so our unique geography and topography, the fact 
that we're an island state, means that our maritime needs, our 
aviation picture, our broadband infrastructure needs, and our 
surface transportation needs are different, and not dissimilar 
to Senator Sullivan's unique situation, representing the state 
of Alaska.
    We would just ask for your continued understanding both as 
we're crafting statutes, but also as you make rules, and also 
as you interpret existing rules and statutes, and even 
procedures, to understand that every place says they are 
different, and that is only true in Hawaii and Alaska.
    [Laughter.]
    Secretary Chao. We've talked about this, and I appreciated 
your sharing with me the concerns of your state. I look forward 
to working with you.
    Senator Schatz. Thank you very much.
    The Chairman. Thank you, Senator Schatz.
    Senator Sullivan.

                STATEMENT OF HON. DAN SULLIVAN, 
                    U.S. SENATOR FROM ALASKA

    Senator Sullivan. Thank you, Mr. Chairman.
    And, Madam Secretary, congratulations. I certainly agree 
with the Chairman that you are an ideal candidate for this 
position. My wife, Julie, sends her congratulations as well.
    Secretary Chao. Thank you.
    Senator Sullivan. And I want to begin by thanking you for 
your exceptional service to our Nation. When you look at your 
background, it's just remarkable what you've done for this 
country.
    And I also just want to mention that you and your family, 
including your nieces, are a great example for all Americans, 
and I hope a lot of people are watching to hear the story of 
your family. It's very powerful.
    I appreciate your focus on modernizing the transportation 
system, but I really want to emphasize that it's going to be 
very difficult to do that without modernizing the Federal 
Permitting System. And you and I have had the opportunity to 
discuss some of these challenges, but just last year in a 
hearing in this Committee, we had the head of the Seattle 
Airport, Sea-Tac Airport, when he talked about it took 4 years 
to build the new runway at Sea-Tac, but 15 years, 15 years, to 
get the Federal permits to start building.
    There are stories all across the country that I know you're 
familiar with. In Alaska, we've had many nightmare scenarios. 
It took 20 years almost to permit a gold mine in my state.
    And, you know, our country used to be the envy of the world 
in terms of building infrastructure projects responsibly on 
time. The 1,500-mile Alaska-Canada Highway was built in under a 
year, and now in America it takes on average 6 years to get a 
permit for a bridge.
    So if we're looking at infrastructure, the major 
infrastructure initiative, which I support, if we're not also 
undertaking major Federal permitting, I think that we're not 
going to be successful in our infrastructure initiative. Do you 
see this as a major problem, and will you work with us both 
from your regulatory authority standpoint and legislation that 
we would undertake here and on the EPW Committee to try to 
address this?
    Secretary Chao. Yes, I would. Senator, you wrote a very, 
very good article in the Wall Street Journal about this 
particular issue, and what we hear from many investors and 
outside interests, just various stakeholders, is the 
duplicative and bureaucratic permitting that sometimes may 
occur. We want to make sure that the regulatory process works, 
but that also means getting rid of some of the redundancies and 
some of the unnecessary burdens.
    So you've certainly been a leader on that, and I look 
forward to working with you.
    Senator Sullivan. Well, we look forward to working with you 
as well. I would note that both the EPW Committee former 
Chairman Inhofe and Chairman Thune, we're all very committed to 
that.
    One other area--and we want to work with you. And in that 
Wall Street Journal op-ed that you mentioned, I appreciate you 
commenting on that, but we are working on a major permitting 
reform bill called the ``Rebuild America Now Act,'' and I 
certainly look forward to working with you and the rest of the 
Trump administration on those kind of permitting reforms.
    One other area I just wanted to mention, we have all these 
opportunities with regard to energy in this country. We're once 
again the world's energy superpower, and yet the Obama 
administration has clearly politicized and delayed the 
permitting of pipelines. The Keystone XL pipeline took 8 years 
until the President finally pulled the plug on that. And the 
irony is, is that pipelines are much more safe than delivering 
by rail.
    So can we get your commitment to help us streamline the 
permitting of pipelines and to depoliticize what has become a 
very politicized permitting process with the current 
administration on that important area of permitting?
    Secretary Chao. I look forward to working with you on this 
issue, as we've discussed, if I get confirmed.
    Senator Sullivan. Thank you. And, finally, I will turn a 
little bit, as Senator Schatz had mentioned, to talk about 
Alaska and some of the rural areas. You know, we're a very 
resource-rich but infrastructure-poor state.
    At almost 600,000 square miles of land, Alaska is more than 
two and a half times the size of Texas. We like to say in 
Alaska, if you split Alaska in two, Texas would be the third 
largest state in the country. But we only have 10,400 miles of 
paved roads compared to Texas, which has 313,000. Another 
comparison, Alaska is 118 times the size of Connecticut, but we 
have less than half the roads that Connecticut has.
    So if confirmed, will you commit to come to Alaska with me 
to meet with my constituents to help us address the unique 
challenges and opportunities with regard to infrastructure, 
roads, bridges, pipelines in Alaska that are not only important 
to my constituents, but really important to the Nation?
    Secretary Chao. I would be delighted to. In our courtesy 
meeting, Senator, you mentioned how important your office is in 
terms of convening important stakeholders to address these 
issues. And I'll be more than glad to help convene and also to 
help and to participate in those as well.
    Senator Sullivan. Great. Thank you. Thank you again for 
your great service to our country.
    The Chairman. Thank you, Senator Sullivan, and the newly 
minted Chairman of the Ocean Subcommittee. So we're all for 
more roads in Alaska.
    Next up is Senator Peters followed by Senator Inhofe.

                STATEMENT OF HON. GARY PETERS, 
                   U.S. SENATOR FROM MICHIGAN

    Senator Peters. Thank you, Mr. Chairman.
    Secretary Chao, it's great to have you here. And I'll 
concur with my colleagues that it's a privilege to have you 
testifying before us today.
    Secretary Chao. Thank you.
    Senator Peters. I also appreciate your story and your 
family's story. It's a true American story and shows the power 
of immigration and how immigration has brought many wonderful 
people to our shores to pursue their version of the American 
dream. So thank you for being an embodiment of that.
    Secretary Chao. Thank you.
    Senator Peters. I also want to thank you for the time which 
you spent with me in my office talking about a variety of 
issues. And I think it was fairly clear at the end of the 
meeting you know that I am focused primarily on automobiles, 
being from Michigan, and some of the incredible things that are 
going to be happening when it comes to autonomous vehicles, or 
as I refer to them, as self-driving vehicles.
    ``Autonomous'' sounds a little sinister; it sounds like you 
get in the car and it just takes you where it wants to go, it's 
autonomous. You actually will tell it where to go, it's going 
to drive for you, and will have incredible benefits when it 
comes to things such as safety. We heard from Senator Schatz 
and others.
    I was just at the Detroit Auto Show before coming here. The 
whole focus of that is mobility. We think, NHTSA believes, we 
can eliminate nearly all auto crashes. Eighty percent of auto 
crashes could be eliminated, saving tens of thousands of lives. 
This is transformational technology on par with the first car 
to come off of the assembly line, it's that big.
    But as we talked about, it is also an area where there is 
intense competition, and who gets there first with this 
technology from an international perspective will have a 
significant competitive advantage. We know the Asians are 
moving on this very aggressively. We know the Europeans are 
moving very aggressively.
    We also know our American auto companies are doing a 
phenomenal job. In fact, Ford Motor Company has announced that 
they will have a production vehicle by 2021, a mass production 
vehicle, a self-driving vehicle, available. That's roughly 5 
years. We may actually see that accelerating.
    So I want to just touch on a couple of issues. We know that 
speed, though, is critical. And we've got tough competition, as 
I mentioned, so we need to move this forward. One aspect that 
we talked about is test facilities to test these technologies.
    Secretary Chao. Yes.
    Senator Peters. We are in a competition right now with a 
number of sites around the country. There may be multiple ones 
that are selected as early as next week to do this kind of 
testing. I would hope that you would want to be, will be, fully 
engaged after those facilities are selected to work on 
collaborative ways that we can work with the Federal Government 
to help industry fully use those facilities to test vehicles 
and get your thoughts on that.
    Secretary Chao. I would certainly want to do that.
    Senator Peters. I appreciate that. And the other aspect is 
Federal policy. These technologies are going at an exponential 
rate. Federal policy tends to move much slower than that. Do 
you have some specific ideas as to how we speed that process 
up, but understanding, as you have said over and over again, 
safety is paramount?
    The public already will be a little bit concerned about a 
self-driving vehicle, and so any kind of accidents that occur 
will have a tremendous public blowback. We can't have that. The 
industry doesn't want it. We certainly can't do that. But on 
the same token, we need to be able to allow innovation to go 
and test vehicles not just on test tracks, but getting them out 
on the road. Any thoughts as to what you would be open to see 
on that?
    Secretary Chao. I'm very open to working with you on it. 
We've talked about it. You're obviously a tremendous proponent 
for your state and for the manufacturers that are in your 
state. I thought it was very interesting, with Senator Heller 
here as well, that you talked about testing grounds and how 
sometimes snow and cold weather are actually advantages in 
testing grounds.
    But what we are seeing is obviously technology outstripping 
the consumer ability to accept and understand some of the 
technology. So I think it behooves all of us, as a country, as 
a society, to bring greater familiarity and greater comfort for 
those who are passengers and other stakeholders who will be 
eventual users of this technology to understand the benefits, 
the limitations, and also what it means going forward in the 
future. So it requires a national discussion, and I look 
forward to doing that with you. Thank you.
    Senator Peters. Well, I will look forward to that as well.
    One final question, and it's another important issue for 
me. Back in 2005, following Hurricane Katrina, President Bush 
and the Department of Labor, which was under your leadership at 
that time, suspended Davis-Bacon provisions on Federal 
contracts in the Gulf Coast. This action was very concerning to 
me, as I know many others, because even a temporary suspension 
of Davis-Bacon will drastically reduce wages to American 
workers who are tasked to rebuild their community.
    Now, I know President-elect Trump has stated that his 
administration will follow a mantra of ``Buy America, Hire 
America,'' and we hope that part of that mantra also means that 
there are fair wages paid to those Americans who are doing that 
work.
    And that's why just a final question, Can you commit now to 
us to the application of Davis-Bacon for all Department of 
Transportation contracts issued under your leadership?
    Secretary Chao. Well, Davis-Bacon is currently the law, and 
unless the Congress changes that, it is the law.
    Senator Peters. So the suspension we saw in the past is 
not----
    Secretary Chao. The suspension in Katrina was very, very 
extraordinary.
    Senator Peters. Right.
    Secretary Chao. It was extraordinary circumstances in which 
we needed to get rebuilding going at a very fast rate to enable 
obviously very distressed communities to come back to life.
    Senator Peters. So you support the basic foundation of 
Davis-Bacon as well, and that's something you will continue to 
support as Secretary?
    Secretary Chao. Well, as I mentioned, Davis-Bacon is the 
law, and will be the law unless the Congress changes it.
    Senator Peters. Right. Well, thank you. I appreciate that.
    The Chairman. Thank you, Senator Peters.
    Senator Inhofe and then Senator Baldwin.

                 STATEMENT OF HON. JIM INHOFE, 
                   U.S. SENATOR FROM OKLAHOMA

    Senator Inhofe. Thank you, Mr. Chairman. And I say to you 
and the Ranking Member that I am just delighted to be on this 
Committee, and I'm looking forward to it.
    You know, I think, keep thinking, last night I was with you 
and your family, your daddy, how much--how popular--how excited 
your daddy is right now----
    [Laughter.]
    Secretary Chao. Thank you.
    Senator Inhofe.--thinking about the things that are going 
on and that he is responsible for you and your performing. And 
your cute little nieces, I guess they are, I have really 
enjoyed.
    Secretary Chao. Yes, Miranda and Jessica.
    Senator Inhofe. Yes, yes, they're great.
    [Laughter.]
    Senator Inhofe. Well, anyway, but I say that because, as 
you know, I've got 20 kids and grandkids. You've got some more 
work to do, but that's all right.
    [Laughter.]
    Senator Inhofe. Let me share a couple of things with you 
that perhaps even you didn't know. I think you probably did 
know this. I think a lot of the Members of this Committee did 
not know this, that I've been on a committee that's like this, 
Environment and Public Works has a lot of jurisdiction here 
also in transportation, for 21 years. Prior to that, 8 years on 
the T&I Committee in the House of Representatives. So I've been 
around this thing for a long time. Our biggest problem used to 
be when I was in the House that we had too much surplus in the 
Highway Trust Fund.
    Secretary Chao. Not anymore.
    Senator Inhofe. Yes. And you outlined in your opening 
statement why that changed. But that was actually a fact. In 
fact, I remember when Bill Clinton was first President of the 
United States, he was looking for some money to rob out of some 
of their accounts, and he took $16 billion out of the Highway 
Trust Fund. So those days are behind us, and we can't go back 
to them, but nonetheless, it's kind of fun to review the 
history.
    Let me share something else. And then I'm going to ask 
unanimous consent that two articles be made a part of the 
record this morning.
    That's a UC, Mr. Chairman.
    The Chairman. Without objection.
    [The information referred to follows:]

               Occupational Health & Safety--Jan 01, 2009

                     What Is Elaine Chao's Legacy?

    Elaine Chao's Labor Department was busy as 2008 wound down, giving 
emergency grants to a few states and touting its convictions of 15 
union officials in the first two months of FY2009 and a 15 percent cut 
in real terms since 2001 in the department's huge discretionary budget. 
The Employee Benefits Security Administration, a DOL unit, announced a 
record $11.9 billion had been recovered for pension and other employee 
benefits plans during the eight years Chao has been Labor secretary. 
But where was the list of safety and health accomplishments for Chao, 
who took office eight years ago this month and stayed on to become the 
longest-serving secretary of Labor since World War II? She again cited 
the lowest U.S. injury and illness rate on record.
    Here's how her bio page on www.dol.gov sums up Chao's achievements:

        ``During her tenure, the Department updated the white collar 
        overtime regulations under the Fair Labor Standards Act, which 
        has been on the agenda of every Administration since 1977. The 
        most significant regulatory tort reform of President Bush's 
        first term, the new regulations provided millions of low-wage 
        vulnerable workers with strengthened overtime protection. In 
        2003, the Department achieved the first major update of union 
        financial disclosure regulations in more than 40 years, giving 
        rank and file members enhanced information on how their hard-
        earned dues are spent. The Department has set new worker 
        protection enforcement records, including recovering record 
        back wages for vulnerable low wage immigrant workers. The 
        Department has also launched comprehensive reform of the 
        Nation's publicly funded worker training programs, to better 
        serve dislocated and unemployed workers. On August 17, 2006, 
        President Bush signed the Pension Protection Act, which 
        protects the 44 million workers whose retirement security rests 
        upon private sector defined benefit pension plans.''

    One month after Chao took office in February 2001, Congress and 
President Bush repealed OSHA's ergonomics standard. She outlined her 
approach in two early speeches in which the chief theme was her 
interest in finding ``fresh ideas, fresh approaches, and new 
partnerships to help us prepare the 21st century workforce,'' she said.

        ``And if we really are going to protect workers, we must put 
        more emphasis than ever before on prevention and compliance 
        assistance--rather than just after-the-fact enforcement,'' Chao 
        said March 6, 2001. ``Each time I approve a major fine against 
        a company--for safety violations that were discovered after an 
        accident that cost the life of an employee--I can't help but 
        feel a twinge that if we had just worked harder on prevention, 
        we wouldn't be in the impossible position of trying to 
        calculate the value of a lost human life.''

        ``So while I am committed to enforcement, I believe that the 
        necessary predicate to enforcement must be better prevention. 
        At the same time, I think the Department of Labor has a broader 
        mission that I believe it can fulfill: to become the Department 
        of the Workforce, contributing to America's economic 
        development by investing in its most precious capital resource: 
        its workers.''

    Eight years later, on Oct. 2, 2008, her speech at a U.S. Chamber of 
Commerce ``Labor Policy at a Crossroads'' event was devoted to 
attacking the union-supported Employee Free Choice Act and urging 
Congress not to embrace a European-style interventionism that tells 
employers how they must provide pensions and health care to their 
workers. She talked of ``fostering cooperation between employers and 
workers to update technology, educate and train workers, and fill the 
jobs of the new economy.''
    Chao headed a cabinet department longer than anyone else during 
George W. Bush's presidency, and she never backed away from his agenda. 
To some within the safety and health community, that's the problem.
    ``It's almost gotten to the point where, is OSHA even relevant 
today, and is it having any impact in the workplace?'' AIHA President 
Lindsay E. Booher, CIH, CSP, asked during a December interview. ``I 
think ultimately the buck has to stop with the [OSHA] assistant 
secretary and the secretary. They seem to be proud of the way the 
injuries have come down, and I don't know how factual those [injury 
numbers] are.''
    Few U.S. Labor secretaries have equaled the longevity of Chao, the 
24th secretary thus far. The first person to hold the office, William 
B. Wilson, served from March 6, 1913, to March 4, 1921, and the second, 
James J. Davis, served almost 10 years, from March 5, 1921 to Nov. 30, 
1930. The most famous secretary was Frances Perkins, who served from 
March 4, 1933 to June 30, 1945--12 years, the longest tenure ever, and 
through the bulk of World War II, which required the transformation of 
American industry and wrought lasting changes in the U.S. workforce. 
Her tenure also saw the enactment of the bedrock labor laws still in 
effect, including the Fair Labor Standards Act (1938), which dictates 
the minimum wage and regulates employers' use of overtime.
    Chao's resume includes serving as deputy secretary at the U.S. 
Department of Transportation, chairman of the Federal Maritime 
Commission, and she was a Distinguished Fellow at The Heritage 
Foundation before Bush nominated her to lead DOL.
    She has an MBA from the Harvard Business School and an 
undergraduate economics degree from Mount Holyoke College. She is 
married to the U.S. Senate's Republican leader, Mitch McConnell of 
Kentucky.
The Next Secretary's Priorities
    President-elect Barack Obama nominated U.S. Rep. Hilda Solis, D-
Calif., to replace Chao in the new administration. Chao's successor 
faces big challenges, given the U.S. economy's problems and rising 
unemployment. AIHA President Booher said he'd like the new secretary to 
reaffirm that health and safety excellence confers a competitive 
advantage to a business--and then turn that into action by requiring 
U.S. companies to write and implement their own safety and health 
management plans.
    ASSE voiced a similar opinion Dec. 19 and said it had discussed its 
goals for the new administration's safety and health approach with the 
Obama transition team. ``OSHA should encourage employers to take 
proactive responsibility for safety and health through risk-based 
regulatory approaches and compliance assistance resources,'' ASSE 
advised. ``Europe, Japan, China and committed U.S. employers already 
use such approaches. OSHA is falling behind the world in not 
incorporating risk-based safety and health management approaches.''
    ``We've got to update the PELs,'' Booher added. ``We can't have 
credibility with PELs written in 1968. That's embarrassing. This is a 
political problem, not a technical problem.''
    Singapore and other Asian countries are writing better exposure 
standards, he noted. Asked whether the United States is world class in 
safety and health, he answered, ``I think we're saying it, but we're 
just not walking the talk.''
    Solis' congressional record and Obama's campaign statements 
indicate they will break sharply from some of Chao's priorities. Solis 
supports the Employee Free Choice Act, a favorite bill of organized 
labor that is anathema to employer groups. She supports equal pay for 
women, ensuring health care for Latinos and other underserved 
minorities, and enacting a U.S. ban on asbestos in any product. Like 
U.S. Rep. George Miller, a fellow California Democrat who chairs the 
Education and Labor Committee, Solis condemned DOL's December 2008 rule 
changes in guest worker programs as a mean-spirited attempt to cut farm 
laborers' wages and rights. (DOL said the H-2A rule changes, set to 
take effect Jan. 17, protect farmworkers' wages by setting them at 
local prevailing wage rates.)
    Solis, who came to Congress in 2000 and won five terms, might have 
been a good choice for EPA administrator. She served three terms as 
chair of the Congressional Hispanic Caucus' Task Force on Health and 
the Environment and was vice chair of the House Environment and 
Hazardous Materials Subcommittee, which is a subcommittee of the House 
Committee on Energy and Commerce.
    She and Chao might agree on the necessity of training America's 
workers for the 21st Century. Solis is the author of the Green Jobs Act 
and will champion ``green jobs,'' as Obama has.

    Senator Inhofe. All right. These articles are articles that 
were very complementary to you when you had your previous 
Secretary position of Labor. And they talk about how you got on 
the job. I wouldn't bring this up except it's in writing here, 
and on virtually the first day, you got everybody in there and 
said, ``This is what we--these are our problems, these are 
going to be our solutions, and we're going to stay on top of 
them,'' and you never slowed down from the very beginning.
    Secretary Chao. Thank you so much.
    Senator Inhofe. And I would hope and would ask that you do 
the same thing in this job. And I do happen to know, because 
they've contacted us, that in the audience here we have people 
who were strong supporters of you and worked for you during 
those years. They're all gone and doing grand things now, but 
they still have that allegiance and that love for you.
    In fact, I have to say this, in the years that I've been 
here, and that's 30 years now, I've never seen anyone come 
into, get the nomination for a position, that people loved more 
than you. There has got to be a reason for that.
    All right. Let me--a couple of specific things that I do 
want to get in, and one is we've been talking about the big 
issue, the privatization, and all this. I think I might be the 
only active commercial pilot on this Committee, and so I deal 
with this. And on controllers, I know that there are other 
options out there, as have been pointed out by the Ranking 
Member, but they've done a great job, and we need to make sure 
that we do this thing right.
    I see as a problem, just an observation to me, my 
communications normally with the general aviation community, 
because I've been involved in it for so many years, but it just 
seems to me that there is not a lot of communication going back 
and forth, and I would just suggest, judging from your past 
performance, that one of the first things you might do is get 
them all in one room and talk about it. It's surprising how 
sheltered people are in their own opinions. Just a thought. 
What do you think about that?
    Secretary Chao. Thank you very much for making that 
suggestion. And obviously if confirmed, the convening power of 
the Secretary of Transportation is considerable----
    Senator Inhofe. Yes.
    Secretary Chao.--and that certainly could be put to good 
use in convening these various stakeholders to talk about an 
important issue like this.
    Senator Inhofe. Yes. One of the things that has not been 
mentioned so far, and a lot has been mentioned during this, is 
the use of drones and how significant that is now. It started 
out, in my experience, with them in the House Armed Services 
Committee, then the Senate Armed Services Committee. And, of 
course, we had some provisions put in the FAA bill to 
facilitate the use of drones, areas like pipelines and other 
areas. And I know this is going to be one that is going to be 
of interest to you.
    One of the inhibiting factors in drones is all of the 
overregulations that are there. Do you, number one, agree with 
that? And do you have plans to attack these regulations pretty 
quick in your service?
    Secretary Chao. You know, the drones started out, as you 
mentioned, with the Department of Defense. It's an emerging 
technology. There are those who see the benefits of 
commercializing them for various uses. It's transforming the 
way we work, the way we do commerce.
    There are also others who are very concerned about privacy 
issues, security issues. And again, for going forward with an 
emerging technology as important as this, with such vast 
implications for our future, I think we need to talk about it. 
We need to have, again, a national consensus on where we're 
going. State-by-state patchwork is of concern.
    Senator Inhofe. Right.
    Secretary Chao. And what does that mean for Federal 
regulation? So I look forward to working with the Committee and 
also with the Congress on the issues.
    Senator Inhofe. That's great. And my time is expired. So 
for the record, if you would address something that hasn't been 
addressed, and that is the energy infrastructure, which hasn't 
really been given the attention that it should, and perhaps you 
could give me your ideas, give us your ideas, for the record.
    Secretary Chao. I will be glad to do so.
    The Chairman. Thank you, Senator Inhofe, and welcome to the 
Committee.
    Senator Baldwin is up next followed by, if nobody else 
shows up, Senator Capito.

               STATEMENT OF HON. TAMMY BALDWIN, 
                  U.S. SENATOR FROM WISCONSIN

    Senator Baldwin. Thank you, Mr. Chairman, and I want to 
thank the Chairman and Ranking Member for a warm welcome to the 
Committee.
    I'm delighted, Secretary Chao, that my first Commerce 
Committee meeting is your confirmation hearing.
    Secretary Chao. Thank you.
    Senator Baldwin. Welcome, and thank you again for our visit 
last week. It was helpful to start the conversation. And I 
actually want to start by asking you to speak a little bit more 
on a topic that we discussed when we visited, which is the 
``Buy America'' rule. Simply put, I firmly believe that 
American workers should build our infrastructure with American 
products, and that taxpayers' money should not be spent on 
Chinese or Russian steel and iron.
    So here in the Senate, I have spent some time working on 
including a Buy America provision in our recently passed Water 
Infrastructure bill that was signed into law just a few weeks 
ago. And despite broad bipartisan support in the Senate, 
Speaker Ryan and the congressional Republicans pulled my Buy 
America provision from the Water Infrastructure bill, as we 
discussed.
    Now, their position against Buy America is at stark odds 
with the President-elect, who has repeated his pledge that 
there will be two rules for rebuilding America's 
infrastructure, quote, Buy American and Hire American.
    So if confirmed, you will undoubtedly play a leading role 
in implementing the President-elect's infrastructure plan. But 
it's noteworthy to me that you have previously been critical of 
Buy America rules. In 2009, you wrote an op-ed describing Buy 
America as, ``Dig a mote around America policy.'' This is in a 
Heritage Foundation op-ed. And to further quote you, you said, 
``Buy America squanders America's credibility on international 
trade.''
    So I want to tease out how this conflict might be resolved. 
And my question is, If confirmed as Secretary of 
Transportation, will you stand with the President-elect and 
support Buy America?
    Secretary Chao. The President has made very clear his 
position on this, and it is his policy, and, of course, all 
cabinet members will follow his policy.
    Senator Baldwin. OK. Well, that's a welcomed change and 
welcomed news to me from your past writing on this topic. And I 
look forward to working with you on Buy America language as we 
move forward.
    I do want to note that Buy America provisions have been 
written into the authorizing language of several Department of 
Transportation grant programs. Every single statute, however, 
allows the Secretary of Transportation wide latitude to waive 
the Buy America requirement if, quote, it would be inconsistent 
with the public interest.
    And given your past views on Buy America restrictions, I 
guess I would like to hear more about how you would intend to 
use that authority to waive Buy America restrictions, how you 
would evaluate what is in the public interest, and under what--
my specific question is, Under what conditions would you see 
granting these waivers, or will you grant them sparingly or 
frequently?
    Secretary Chao. I think it is premature at this point for 
me to comment on any of this until I get fully briefed. I have 
mentioned that Buy America is the President's priority. When 
you drill down to some of the details that you talked about, 
thank you so much for bringing it to my attention, I am not 
fully cognizant about that. So if confirmed, I look forward to 
getting briefed on all those issues.
    Senator Baldwin. And I look forward to working with you in 
that implementation role.
    Secretary Chao. Yes, of course.
    Senator Baldwin. The President-elect pledged to rebuild our 
Nation's crumbling infrastructure with a trillion dollar 
investment in transportation, clean water, telecommunications, 
and other pressing needs, and I welcome that discussion, 
especially if it includes real investments and not just tax 
credits.
    When we met last week, I mentioned my support for reliable 
broadband infrastructure to ensure access to quality and 
affordable Internet in rural communities, and we have many of 
those in Wisconsin.
    Additionally, it's well documented that water 
infrastructure across the country is in need of repair and 
upgrade, not only to avoid the failure and tragedy we 
experienced in Flint, Michigan, but to also meet the growing 
needs for delivering clean water to families and businesses.
    We talked about the Water Council located in Milwaukee, 
Wisconsin, that is working to find solutions to the Nation's 
most difficult and pressing water problems, and I've introduced 
reforms that encourage the development and deployment of 
innovative water technology, and I believe these reforms have a 
place in any bold infrastructure investment. So my colleagues 
and I are eager to learn more about the scope of the 
infrastructure package that you will help shape.
    But my final question is, If confirmed, will you work with 
me on an infrastructure package that includes real funding to 
address both the infrastructure challenges and support 
innovation exemplified by what is occurring in my home state of 
Wisconsin?
    Secretary Chao. I will be more than glad to.
    Senator Baldwin. Thank you.
    The Chairman. Thank you, Senator Baldwin.
    Senator Duckworth has returned.
    So you're up next, followed by Senator Capito.

              STATEMENT OF HON. TAMMY DUCKWORTH, 
                   U.S. SENATOR FROM ILLINOIS

    Senator Duckworth. Thank you, Mr. Chairman. Let me say how 
pleased I am to join you on this Committee. I am looking 
forward to working with you on transportation infrastructure 
and other issues that are critical to the Midwest, and to 
Illinois in particular.
    Secretary Chao, first let me thank you for the time you 
took with me in my office earlier this week. Your commitment to 
maintaining an open line of communication with me is matched by 
my commitment to be helpful to you where our interests and 
those of my state are aligned.
    The question I have for you has to do with this new rule 
from the Department of Transportation on the Metropolitan 
Planning Organization consolidation rule. As we discussed in my 
office, I am deeply concerned that this recent DOT rule, in 
fact, it was passed December 20, at a time when you sort of 
push through rules that are problematic and may have some 
opposition. But it was pushed through, and it threatens to 
disrupt important transportation projects in Illinois and 
throughout all of the Midwest.
    I appreciate that the intent of the initiative may have 
been to encourage better results through regional cooperation, 
but, in fact, the impact of the new mandate will have 
unintended consequences for some localities and would be 
absolutely disastrous for Illinois, and in particular, the 
Chicagoland greater metropolitan area. If it doesn't work in 
Illinois, it's hard to see how it can work for any other 
metropolitan area in the Midwest and around the country.
    And essentially, the MPO consolidation rule will require, 
for example, the Chicago Metropolitan Agency for Planning to 
merge with a similar agency in Wisconsin and Indiana, and it 
would require the Governors that any Federal transportation 
funding in Chicago be approved by the Governors of Indiana and 
Wisconsin. The application of this rule will slow down the 
delivery of important transportation projects nationwide, and 
in Chicagoland, give other states huge leverage over decisions 
that are best made by the local community. And the converse is 
true as well for decisions that are made in Wisconsin or 
Indiana or our neighboring states.
    If confirmed, will you work with me to either reverse this 
rule or to, at the very least, make sure that it works for 
everyone, including Illinois and other metropolitan areas, 
especially those near state borders?
    Secretary Chao. Senator, thank you so much for that meeting 
in your office, and thank you for bringing this to my 
attention. So as I mentioned, if confirmed, I will be very 
eager to look into this particular issue. I need to understand 
it more. So I look forward to getting more briefed on MPOs, and 
I look forward to, of course, working with you on it as we go 
forward.
    Senator Duckworth. Thank you. Thank you. The Department of 
Transportation administers an important small business set 
aside program for minority and women-owned Disadvantaged 
Business Enterprises, commonly known as the DBE. This Federal 
program serves as a guide for state departments of 
transportation small business programs, and, in fact, many of 
our states' departments of transportation to align directly 
with whatever the Federal DOT's policies are.
    Many businesses are concerned about the future of the 
Disadvantaged Business Enterprise program. And as we're looking 
to put significant investments into the Nation's 
infrastructure, I am concerned that women-owned business 
Disadvantaged Business Enterprises may not have as good an 
opportunity to bid on these contracts, to bring those jobs into 
the local economy, to bring those jobs into those local 
enterprises and local entrepreneurs, local women-owned 
businesses, if the DBE program is not emphasized.
    Will you commit to working with me to reassure Illinois' 
small businesses that DOT will preserve the DBE program and 
ensure that if the President-elect follows through on the 
promise to invest trillions in new public infrastructure 
projects, small businesses, such as women-owned businesses, 
minority-owned businesses, will be included in the initiative?
    Secretary Chao. I've always been a tremendous supporter of 
small businesses. I've been a tremendous supporter of 
communities of color, of women. And when I was Secretary of 
Labor, I was the only Federal cabinet Secretary to have gender 
parity in the executive leadership at the Department of Labor. 
So these are issues that I've worked with all my career, and I 
will continue to work on them with you.
    Senator Duckworth. Thank you. That is very important to me. 
These entrepreneurs are especially vital in areas such as rural 
Illinois because they do hire local people to work on their 
contracts. They are local businesses. They are incredibly 
important for areas, economically depressed areas, such as the 
South Side of Chicago, East St. Louis, and the like. So I look 
forward to working with you on that.
    And I would like to close just by saying that I share many 
of my colleague, Senator Inhofe's concerns about drones. I, in 
fact, have flown not too far from here and was flying at 2,500 
feet when a remotely controlled vehicle flew off the nose of my 
aircraft and missed my propeller by about 2 feet. Let me just 
say it scared the living heck out of me, and it should not have 
been there. And so I will be monitoring the drone rules and 
programs very closely myself.
    But thank you for being here, and I look forward to working 
with you.
    Secretary Chao. Thank you.
    The Chairman. Thank you, Senator Duckworth.
    Senator Capito.

            STATEMENT OF HON. SHELLEY MOORE CAPITO, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Capito. Thank you, Mr. Chairman. I would like to 
thank you for allowing me to join the Committee. And I want to 
thank the Ranking Member as well. I look forward to serving on 
this Committee.
    I am very pleased to be here to see my friend, Secretary 
Chao. My husband, Charlie, sends you his best and 
congratulations as well, particularly because of your past 
service, but also being from neighboring states. It's nice to 
see a neighboring Kentuckian here today. And thank you for your 
visit to my office last week.
    As you recall, we recalled in that visit when you were 
Secretary of Labor, you came and visited me and Senator Byrd in 
West Virginia, and so I would extend another invitation for you 
to visit the great state of West Virginia to talk about 
transportation issues.
    Secretary Chao. Thank you. I look forward to it.
    Senator Capito. Great. You know, it's hard to be original 
in questioning after many folks before us, great Members of 
this Committee, have already asked some of the most important 
questions that I had before me.
    I think you and I talked about the significance, and the 
Chairman mentioned this as well in his statement, of attending 
to the needs of rural America in terms of transportation needs. 
They are different from urban America. When I heard Senator 
Cantwell mention about all the travails of congestion, it kind 
of went through my mind, you know, a little congestion might be 
good for a state like West Virginia because it does indicate 
economic development and vibrancy, and that's what we want.
    The financing part of an infrastructure package that the 
President-elect would be talking about has been mentioned many 
times in terms of including private investment, private 
dollars. As a person who represents an almost all rural state, 
like West Virginia, I'm concerned about, how are we going to be 
able to incent the private dollars to go to the less populated, 
less economically developed areas of our country? Because the 
investments are just as important. And I wonder if you had any 
thoughts on that.
    Secretary Chao. Rural America needs to be more connected in 
all sorts of different ways. And as we look at the national 
infrastructure proposal, I think one of the great challenges 
are the pay-fors, and how we are going to pay for all these 
great ideas, which are so necessary to keep our country and 
maintain the competitiveness of our country.
    And so once again it's a huge issue that demands the best 
thinking from all of us. So that's why we need to work 
together. The Executive Branch needs to work very closely with 
the Congress especially on how to pay for all these projects.
    I might also add it's not only the pay-fors that are 
important as well, but also the number of projects. And so how 
do we find projects that can be funded and carried out----
    Senator Capito. Right.
    Secretary Chao.--in a timely way. And that should be part 
of the equation, too. So thank you for asking.
    Senator Capito. Thank you. We've used successfully in West 
Virginia the public-private partnerships to complete projects 
like U.S. Route 35. We're working on the Coalfields Expressway 
and Corridor H, which comes actually directly from Washington, 
D.C. I know many people who live in and around the Washington, 
D.C., area that have driven on our roads in West Virginia 
wonder how we could possibly need one more road because they're 
all named Senator Robert C. Byrd Highway, Interstate.
    [Laughter.]
    Senator Capito. But we still have a great need here. So we 
do know, I think at the state level. But it's challenging for 
states because a lot of states are having trouble meeting their 
match, much less figuring out how to cobble together a public-
private partnership. So I look forward to working with you and 
the Department to try to find those answers.
    I'm going to shift to high-speed Internet. Senator 
Klobuchar and I and Senator Gardner have worked on a bill, Dig 
Once. And this would mean that if you're digging and creating a 
new highway, you're running the high-speed Internet at the same 
time.
    I would encourage you to look at that bill to see where you 
could help us with that, and present the concept of not only 
speed, but also being able to pinpoint certain areas that need 
that critical infrastructure as well because it's just as 
important.
    Secretary Chao. I look forward to working with you on that.
    Senator Capito. Thank you. One last thing I would like to 
talk about, something I worked on when I was actually on the 
House Transportation Committee, and I worked with then Senator 
Udall, he is still a Senator, and I was a Congressman, 
Congresswoman, at the time, the concern of the 10,000 lives 
that we lost through impaired drunk driving and driving under 
the influence of drugs.
    We were able in the FAST Act to get the driver alcohol 
detection system for safety to try to get some innovation to 
try to work on prevention of--to prevent the massive loss of 
life that we have that people get behind the wheel when they 
shouldn't.
    So I would encourage you and your Department to keep moving 
forward on the research and development in this area. I think 
there is a lot to be done and there are a lot of good ideas out 
there, and I would just like your commitment. I'm sure you 
would be committed to that as well.
    Secretary Chao. We certainly will do that.
    Senator Capito. All right. Thank you so much. I look 
forward to voting in the affirmative for your confirmation.
    Secretary Chao. Thank you.
    Senator Capito. Thank you.
    The Chairman. Thank you, Senator Capito.
    Next up is Senator Hassan.

               STATEMENT OF HON. MAGGIE HASSAN, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Hassan. Well, thank you, Chairman Thune and Ranking 
Member Nelson. I am so pleased to be joining you on this 
Committee because the Committee's work is, of course, so 
focused on expanding economic opportunity and supporting 
innovative businesses and keeping our economy moving forward.
    And, Secretary Chao, it is great to be with you today. My 
husband, Tom, so enjoyed your conversation during orientation 
and sends his best wishes as well.
    Secretary Chao. Thank you.
    Senator Hassan. A major focus of the work, we've all been 
talking about it this morning as we talk about expanding jobs--
expanding economic and creating jobs, is obviously around 
making sure our highways and our roads and bridges are modern 
and safe. And as we talk about really building that kind of 
foundation for a 21st century economy, I know when we visited 
this week in my office, you've been thinking a great deal about 
these issues. I look forward to working with you on them, and I 
am very grateful not only for your past government service, but 
also the way that will inform your work going forward, I just 
think it's a terrific resume you bring.
    Secretary Chao. Thank you.
    Senator Hassan. There are a couple of programs that have 
really--DOT programs that have really helped New Hampshire over 
the last few years, and I just wanted to touch on them briefly. 
One of the things we talked about in our meeting the other day 
was the importance of TIGER Grants and TIFIA loans.
    You'll recall that it was a TIGER Grant that really 
supported our capacity to refurbish our Memorial Bridge, a 
drawbridge over New Hampshire's port, and, yes, New Hampshire 
does have a port. And so those competitive TIGER Grants have 
helped New Hampshire in a number of other ways as well because 
they really help fund projects that aren't suited to the more 
broad categories of funding grants.
    And then the TIFIA loan project has really been critical to 
our completion, our plans to complete, Interstate I-93 in New 
Hampshire, both with lower interest rates and deferred payment 
schedules, and has proved to be I think really critical to a 
number of other rural areas for large surface transportation 
projects.
    So part of my question to you is just, Are you familiar 
with the TIGER and TIFIA programs?
    Secretary Chao. Oh, yes.
    Senator Hassan. And do you have a commitment to continuing 
to support them?
    Secretary Chao. From all of my meetings with Members of 
Congress, there seems to be one area of great agreement, and 
that's the utility of the TIGER Grants. But I can't make a 
commitment at this point.
    I've been very impressed with how many Members like it, and 
I look forward to reviewing it and seeing how much money can 
really be devoted to this, currently $250 million. It's a very 
modest sum in this budget, but I would like to get more briefed 
on this topic. I look forward to working with you.
    Senator Hassan. Great, great. And TIFIA, do you have any 
thoughts about the TIFIA program?
    Secretary Chao. TIFIA also seems to be, again, another very 
important and valuable source of funding. And as we talked 
about the infrastructure funding throughout our whole country, 
we need to be seeking more innovative and more varied options 
of funding, and the TIFIA has certainly proven its worth. As to 
the specific amounts, that again will be a budgetary issue that 
I'll be looking at if I'm confirmed.
    Senator Hassan. Great. We also spoke on Monday about the 
importance of commuter rail in the 21st century economy, 
something I've learned a great deal about as Governor as we've 
tried to focus on bringing commuter rail from Boston up to 
Nashua and Manchester, New Hampshire, not only because it's a 
boon to businesses supported by all our major Chambers of 
Commerce, but also because we're learning that Millennial 
workers really often don't want to own cars and really do like 
to see access to public transportation.
    So a project to bring commuter rail would not only require 
a partnership between Massachusetts and New Hampshire, but also 
Federal support to enhance that state and local effort. So are 
you committed to continuing to ensure Federal support for this 
type of commuter rail project?
    Secretary Chao. Passenger rail is very popular with 
passengers. My father came down on Amtrak, as did my sisters. 
So this is an area that can obviously help with the 
environment, it is a wonderful alternative to air or driving. 
And I have supported it in the past, and I look forward to 
reviewing it and getting an updated briefing on this as we go 
forward.
    Senator Hassan. Well, thank you. And just--I see my time is 
almost up. I just wanted to add my thoughts on the driverless 
cars or automated automobiles now. As we think about that 
technology, I hope we'll think about making it accessible to 
people who, for a variety of reasons, can't drive, and making 
sure that as new technology comes on board, its pricing doesn't 
prohibit the people who might benefit from it the most from 
using it.
    Secretary Chao. Those are very good points, and I 
appreciate your bringing them up.
    Senator Hassan. Thank you very much.
    The Chairman. Thank you, Senator Hassan.
    Senator Gardner.

                STATEMENT OF HON. CORY GARDNER, 
                   U.S. SENATOR FROM COLORADO

    Senator Gardner. Thank you, Mr. Chairman.
    And thank you, Secretary Chao. All the way over here by the 
front row of the audience, I think welcome to the new Members 
who sometimes we get confused with people here to watch the 
hearing as well, maybe even accused of being here to testify. 
So it's great to be with the new Members of the Committee.
    And certainly, Secretary Chao, thank you for your service 
to the country and your willingness to continue to serve this 
Nation.
    Secretary Chao. Thank you.
    Senator Gardner. A difficult job as Secretary of 
Transportation you have ahead of you, because not only do you 
have to know and understand the acronyms of things like TIFIA 
and FAST Act, but you have to know where I-70 and I-76 and US-
50 and 385 all are. So you get acronyms and numbers piled 
together, and everybody expects you to know exactly where that 
congested intersection is that has to be addressed. So thank 
you for the work that you're doing.
    Colorado, of course, has seen some great economic 
opportunities over the past several years. In fact, every time 
I land at Denver International Airport and drive along I-25, I 
do a crane count in Denver to see how many construction cranes 
are in downtown and dotted across the Front Range.
    Since 2010, we've had 10 percent population growth, 
500,000-plus people moving into the state of Colorado. Almost 
an entire new congressional district every decade seems to be 
moving to Colorado. The concentration of that population is 
between Pueblo, Colorado, to the south, and Fort Collins, 
Colorado, to the north, along the Front Range corridor.
    The growth has been a great economic opportunity, positive 
economic opportunity, for Colorado, but lots of challenges for 
infrastructure. Parts of I-25, even though you had this 
dramatic growth, still looks like it did in the 1960s and 
1970s. We passed the FAST Act. I was able to put language in it 
to help ensure that the Department of Transportation considers 
population growth when distributing certain grants.
    So as Secretary of Transportation, how will you work with 
those states that have seen such high population growth to help 
meet their needs either through infrastructure packages, 
transportation financing programs, or grant funding?
    Secretary Chao. The highway funding--the Federal Highway 
Trust Fund is a block grant of Federal dollars going to the 
states, believing that the states know best how to distribute 
that money. And so if the Congress wishes to change the 
formula, that is obviously a discussion that the Administration 
would have with the Congress, and I look forward to working 
with you on that.
    Senator Gardner. Well, thank you. And again I think it's 
one of those areas where a number of states in the West are 
going to have the same kind of needs and considerations.
    The Colorado Department of Transportation, which right now 
is working on handling some heavy snow over the past several 
days, has got a vision referred to as the RoadX Program to 
utilize smart transportation along I-25, that Front Range, and 
I-70 through the mountains, the Eisenhower-Johnson Tunnels. The 
corridors help mobility, reduce congestion.
    This vision is already helping us become a state for high 
tech. We had the first fully autonomous delivery of a 
commercial shipment. It was, of course, Colorado, so it was a 
beer truck from Fort Collins to Colorado Springs, fully 
autonomous, the first time ever in the country, a tremendous 
step, but obviously we have to make sure there is more work 
done for safety to make sure that we have no onerous adoption 
of regulations that would prevent this new technology from 
thriving.
    How do you think the Department of Transportation should 
work with states and others in the safe deployment and 
integration of smart transportation technologies like those in 
Colorado, autonomous vehicles, and other technologies?
    Secretary Chao. Always in collaboration. The Federal 
Government can't do this on its own, and it must take into 
account the perspective of the stakeholders. So we look forward 
to working with you on all these concerns.
    Senator Gardner. And how do we make sure that we have that 
regulatory certainty that we need in order to assure this 
technology thrives?
    Secretary Chao. I think regulations need to be based on 
sound science, real data, to ensure that the best regulations 
are put forward that indeed will be effective and help to 
promote the ultimate goal.
    Senator Gardner. Thank you. And whether its across roads, 
we talked about here, but across all of the agencies within the 
Department of Transportation, Colorado has felt a lot of 
impacts of overly burdensome regulations. I'll just give you a 
few.
    Many of our communities on the Front Range that have grown 
around railroads have major concerns with train horn noise 
within the Federal Railroad Administration, certification 
process delays within the Federal Aviation Administration where 
an airplane from Frontier Airlines is treated just like an 
airline that's a local crop-duster for certification purposes, 
hours of service requirements within the Federal Motor Carriers 
Safety Administration, Davis-Bacon requirements across 
Department of Transportation, excuse me, the National 
Environmental Policy Act permitting requirements across CDOT--
across the Department of Transportation, excuse me; National 
Environmental Policy Act permitting requirements across the 
Department of Transportation.
    Many of these regulations can slow down a project and 
stifle that economic progress, can create uncertainty for 
businesses, the project itself, increase the time it takes to 
construct the project, increase the cost of that project. How 
can you help us, help Congress, work to reduce the regulatory 
burdens facing our state and local governments and businesses?
    Secretary Chao. The issue of regulations is a larger issue 
overall as well. There are some who think that the regulations 
in the past few years have added to dampening the rate of 
growth of our economy and that it has actually decreased the 
competitiveness. And there are others who feel that these 
regulations were necessary.
    So I think, again, it's a balancing act, and it's building 
a consensus on both sides of the spectrum--political spectrum--
to come to regulations that are truly based on real data, on 
sound science, because that is the best way to promulgate 
regulations.
    Having said that, there indeed have been overly burdensome 
regulations that need to be reviewed. And so that is part of 
the new administration coming in, that all of these 
regulations--some of these regulations that you've mentioned 
will be reviewed as well.
    Senator Gardner. Madam Secretary, thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Gardner.
    Senator Lee has returned.
    If you're ready, you're up next, followed--this is what I 
have: Senator Lee, Senator Cortez Masto, Senator Young, Booker, 
Heller, and Udall.

                  STATEMENT OF HON. MIKE LEE, 
                     U.S. SENATOR FROM UTAH

    Senator Lee. Thank you very much.
    Secretary Chao, it's good to have you here. And I'm 
grateful to you for being willing to visit with me at my office 
a few days ago. I enjoyed our visit and appreciate your 
willingness to be considered for this important position.
    As you know, a passion of mine involves federalism, 
involves the concept that the constitutional system created by 
our Founding Fathers works best when we reserve most powers in 
a way that will allow them to be exercised at the state and 
local level.
    We have accomplished great things nationally through the 
Federal Government. There have been some things that we have 
created out of an understanding that in order facilitate the 
free transfer of goods, of services, of people across 
interstate lines, there are appropriate things for the Federal 
Government to get involved in.
    When the Interstate Highway System was created, it was 
created with the understanding that from a national security 
standpoint and in order to facilitate interstate commerce, this 
was an appropriate activity for the Federal Government to enter 
into. At the time it was created, of course, there was an 
understanding that once the Interstate Highway System was 
established, that it could, in time, be handed over to the 
states.
    Of course, that system is now largely complete, and we find 
ourselves sometimes oddly running short in terms of the revenue 
that we receive from the Federal gasoline tax. There are 
proposals that have, as an idea, that have as their central 
idea, that perhaps we should reduce the Federal gasoline tax 
and allow states to take over more authority, both in terms of 
revenue collection and in terms of spending that money, 
deciding where it ought to be spent. I hope that's something 
you would be willing to consider, at least that you wouldn't 
dismiss if you were confirmed to this position.
    Secretary Chao. I'm open to all ideas, and I look forward 
to discussing your idea further with you.
    Senator Lee. Thank you. Let's talk about supersonic air 
travel for a minute. When I was a kid, there were a lot of 
assumptions that a lot of people made, that supersonic air 
travel would become a more common thing, that certainly by the 
time we were in 2017, things like the Concorde would be more 
common.
    And yet notwithstanding technological innovations, 
materials that are lighter weight, that would otherwise allow 
for the design, the development, of commercial aircraft that 
could travel at supersonic speeds, we don't see that today.
    Part of this, some argue, has related to a ban on 
supersonic travel, one that was put in place in the 1970s as a 
result of some studies, notwithstanding the fact that 
supersonic aircraft don't necessarily produce any more noise at 
takeoff and landing than they do midair, and the sonic boom 
that was the concern underlying supersonic travel policies that 
have been in place since the 1970s can be taken care of just 
through the altitude at which a supersonic aircraft passes 
through the sound barrier.
    Is this something that if you were confirmed, you would be 
willing to consider, you would be willing to take a look at?
    Secretary Chao. I'm not very familiar with the topic that 
you mentioned, so I look forward to getting a briefing on it if 
confirmed.
    Senator Lee. Great. Senator Peters discussed with you the 
importance--the important balance between safety and innovation 
in the development of driverless cars. There are a lot of 
people who are very anxious to see how this is going to turn 
out. There are a lot of people in this country who earn their 
living driving cars or driving trucks, and yet at the same 
time, there are now predictions that many, if not most, if not 
nearly all of these jobs will eventually become obsolete with 
driverless technologies.
    This, it seems to me, is going to create a real opportunity 
and a real demand for some type of regulation or at least some 
type of framework in which these manufacturers and designers of 
these vehicles can operate. Can you tell us just how you'll 
work with state and local governments as well industry and tech 
leaders to preserve the safety of our roads without inhibiting 
this type of important innovation?
    Secretary Chao. You bring up a very, very important topic. 
The role of government is to foster the right environment in 
which job creation can occur. As a former Secretary of Labor, 
I'm very concerned about the ability of our economy to create 
good-paying jobs. So I am very much in support of the 
government again creating the environment through which job 
creation, economic growth, can occur.
    We obviously are also facing new technology, emerging 
technologies, which will bring about great dislocations, and so 
how we, as a society, deal with that and not again stifle, 
dampen, the innovation, the creativity, that is so much a 
hallmark of what America is all about, and that's the balance. 
And it's not an issue that can be decided by any one person, 
any one department, but it requires the national attention, 
discussion on all of the pros and cons and concerns of the 
benefits and the concerns that these emerging new technologies 
bring.
    Senator Lee. Thank you. Thank you, Madam Secretary.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Lee.
    Senator Cortez Masto.

           STATEMENT OF HON. CATHERINE CORTEZ MASTO, 
                    U.S. SENATOR FROM NEVADA

    Senator Cortez Masto. Thank you, Mr. Chair, and Ranking 
Member Nelson. I am very excited to be a new Member on the 
Committee, and I look forward to working with all of you and my 
colleagues as well.
    It is true, all the questions have been asked. But I do 
want to first of all thank you. Thank you for taking the time 
to meet with me, Secretary Chao. I look forward to future 
conversations. One thing I have learned from all my colleagues 
in listening to their questions to you is we are all going to 
be competing against one another for funds, and you're going to 
be the person we're going to be going to for the important 
needs in our state.
    And one of the questions I have for you is involving an 
important project that's happening right now in Nevada, and I 
think we talked about it, which is Interstate 11.
    Secretary Chao. Right.
    Senator Cortez Masto. Right? So Las Vegas and Phoenix are 
two of the largest cities in the country that are not connected 
by an interstate, and in the last Congress, the Nevada 
delegation worked to include the I-11 future designations in 
the Surface Transportation bill.
    Now that the route is eligible for Federal funds, Nevada 
and Arizona will be looking for Federal support to bring these 
existing roads between the cities up to interstate standards.
    I wanted just to get a commitment from you on support for 
Interstate 11, and what role do you see for Federal assistance 
to fund projects of regional significance such as Interstate 
11?
    Secretary Chao. Senator, you and I have talked about this a 
great deal. It's obvious that you care about this issue deeply. 
I would like to get better briefed on it. I said to you that I 
would--this would be a priority, that I would look at this, and 
I will do so.
    Senator Cortez Masto. Thank you. I appreciate that. One of 
the things that has come to my attention after talking with not 
only the Director of the Department of Transportation, but our 
regional transportation directors and commissions in the state 
of Nevada, particularly of importance is light rail system.
    In Nevada, if you don't know, I've had the opportunity to 
work with the transportation commissions, and right now they're 
looking to connect our airport, McCarran, to the Strip in 
downtown Las Vegas, and that will move 2 million Clark County 
residents through the corridor, which is ripe for economic 
development, as well as provide transportation for over 40 
million annual visitors to the Las Vegas area. This project 
will need Federal dollars.
    In our meeting, you said that department secretaries have 
to make tough choices when allocating that funding and that 
there is never enough. So how do you evaluate where these 
limited resources will go?
    And, two, it's come to my attention as well that when we're 
talking about evaluating and allocating the funding, it's based 
on a formula that also includes population. But that formula 
includes a population based on a census in 2000, and as you 
know, Nevada, particularly Las Vegas, is one of the fastest 
growing communities. So to me, that is an outdated formula. I 
would like to know your thoughts and commitment in working with 
us in how we address that issue.
    Secretary Chao. Well, the Highway Formula Grant is very 
complicated. In recent years, it's gotten actually a lot 
simpler, but because of the short-term aspect of the highway 
bills in the past, except for the FAST Act, which was a 
tremendous accomplishment, that formula has just repeated 
itself. So it's totally within the purview of Congress that if 
indeed that formula were to be changed, the Congress would be 
able to change it.
    Senator Cortez Masto. And like my colleagues, let me just 
say autonomous vehicles in Nevada, we, like what I'm hearing 
from several of my colleagues, this is an important issue and 
economic driver in developing new technology. In fact, Governor 
Sandoval recently announced dedicating specific resources from 
our state to a center for autonomous vehicles, and our state is 
the first in the Nation to dedicate those resources for this 
kind of technological investment.
    I've heard your conversation, your commitment to working 
with us on this new technology addressing the concerns, but 
what I would like is your commitment to come to Nevada, take a 
look at what's going on, and talk with our Governor and our 
economic development so you can see firsthand. Would you commit 
to coming to Nevada and making a visit and looking at what's 
happening there?
    Secretary Chao. I would be delighted to come to Nevada.
    Senator Cortez Masto. Thank you.
    Secretary Chao. Thank you.
    Senator Cortez Masto. And one final thing just to put on 
your radar, we didn't get a chance to talk about when we were 
meeting, Disadvantaged Business Enterprises are important for 
me. As a former member of the Department of Transportation in 
the state of Nevada, this was an important initiative that our 
Director continues to promote, so I just wanted to make sure 
that you understand that, and I look forward to working with 
you on that issue as well and those programs.
    Secretary Chao. Thank you.
    Senator Cortez Masto. Thank you.
    The Chairman. Thank you, Senator Cortez Masto.
    Next up is Senator Young.

                 STATEMENT OF HON. TODD YOUNG, 
                   U.S. SENATOR FROM INDIANA

    Senator Young. Madam Secretary, thanks so much for your 
presence here today and for your willingness to serve. You have 
an extensive background in public policy and personnel 
management, and I think the experience within the 
transportation sector in particular that will make you an 
effective Secretary here. So I appreciate that.
    My home state of Indiana, which you no doubt are familiar 
with, seeing as we're neighbors, has adopted the moniker 
``Crossroads of America.'' We have celebrated that fact for 
roughly 80 years, and the name stems from the fact that Indiana 
is the intersection of four major interstate highways. Three of 
Indiana's seven priority infrastructure projects involved 
expanding those interstates and upgrading them.
    And so surface transportation needs in my state, as so many 
others, are significant. So I, too, would invite you to visit 
with our state officials, local officials, and familiarize 
yourself, and, of course, the Department, more on those 
essential needs.
    I look forward, for one, to partnering with you and the 
entire Department to ensure that we can identify bottlenecks, 
reduce the regulatory burdens, which you've already spoken to, 
and make sure we stretch every dollar as far as we can to fund 
not just Indiana's needs, but more broadly, this 21st century 
infrastructure plan put forward by the President-elect and the 
administration.
    As you prepare to assume these new responsibilities, I 
would ask you to make sure that you partner and give great 
involvement to our state's Governor and the Governors of other 
states, really empower them to expand financing needs in 
particular.
    And so along those lines, I know that the transportation 
plan is still in development through the administration, but 
would you kindly elaborate on how you plan to utilize new 
financing opportunities like public-private partnerships to 
help invest in 21st century infrastructure, including surface 
transportation?
    Secretary Chao. There are times when public-private 
partnerships have not been welcomed, but so at the very 
minimum, we need to do away with some of these impediments. And 
private investment is encouraged to enter when they see a bold 
vision, and this President has a bold vision. We will be 
talking about it when the Administration comes into being after 
January 20, and it will be very exciting to work on an 
infrastructure for America.
    Senator Young. So the signals we send through the bold 
vision and by presenting a bold plan with more specifics to be 
teased out later, you believe will facilitate more private 
actors wanting to come forward, better terms possibly for the 
contracts? And are there other things we can do beyond putting 
forward a bold plan here in Congress to empower the Department 
to facilitate these sometimes unwelcome public-private 
partnerships?
    Secretary Chao. Public-private partnerships are embraced by 
some and not by others, and for them to be truly effective, I 
think there are revenue streams that need to be assured. And so 
whether groups on either side of the political aisle would 
agree with these revenues streams is something that we have to 
talk about, and so I look forward to working with the Congress 
on these issues.
    Senator Young. With respect to the budget of the Department 
of Transportation, you've proven in your previous capacities 
you know how to identify inefficiencies, identify bottlenecks, 
take private sector practices and bring them to the public 
sector, and so forth, and you'll no doubt be involved in this 
activity over at DOT and I suspect in short order. I would just 
request that your Department report back to this Committee 
within 6 months, 180 days, with opportunities to make DOT more 
efficient and budget conscious. Is that a commitment I can get 
here today?
    Secretary Chao. I can certainly give you a report in 6 
months.
    Senator Young. All right. Thanks so much. I yield back.
    Secretary Chao. Not at all. Thank you.
    The Chairman. Thank you, Senator Young.
    Senator Booker, Senator Heller, Senator Udall.

                STATEMENT OF HON. CORY BOOKER, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Booker. It's such an honor to be sitting before you 
right now. Thank you so much for your willingness to serve not 
once, but twice, in a Presidential administration. I have to 
say that I have a great deal of respect for you, although I 
have some frustration now with Mitch McConnell, being a young 
single Member of the Senate, he has never taken me aside to 
tell me how to marry out of my league.
    [Laughter.]
    Senator Booker. I'm a Jersey boy, and we have serious 
infrastructure challenges. The replacement of the 107-year-old 
Hudson River tunnels and the Portal Bridge is a crisis for the 
entire Northeast Corridor. More people use those tunnels than I 
think the entire population of South Dakota every single day. 
And about--that's not a knock, Chairman, at all, of course--but 
the reality is, is we need to replace these tunnels, and 
unfortunately the urgency is greater because of the recent 
Superstorm Sandy. It's estimated that if these tunnels would go 
down, they would cost about $100 million in lost productivity 
every single day.
    Given the importance of this project to the Nation's 
economy, this region of the country is one of the most 
productive economic regions on the planet Earth, will you 
continue to honor the Department's commitment to partner with 
New York and New Jersey to prioritize investment and expedite 
the completion of the Gateway Program?
    Secretary Chao. I have not had specific conversations about 
this, so I do look forward to getting briefed, but I would 
assume that any project in New York/New Jersey would be very 
important going into the future.
    Senator Booker. I appreciate you saying that. And I know 
the President-elect of the United States knows a little bit 
about commuting between New York and New Jersey, although I 
think he might take a helicopter.
    The FAST Act made important changes to the new starts 
capital investment program along with involvements that I 
championed that really made improvements to the loan program, 
the RRIF program, that will help this kind of critical 
financing.
    I just again want to see if that's something that you 
believe in as a way to fund these major infrastructure 
projects. And is it something that you think you can support 
going forward, given not just the needs of my region, but 
really a program that benefits all around our country?
    Secretary Chao. We need to be looking at all of these 
options because, once again, the tremendous resources that are 
required to build a first-class and maintain a first-class 
infrastructure will require that. So I look forward to working 
with you on it.
    Senator Booker. I appreciate that. And I'm happy to hear 
that the incoming administration has made clear that putting 
together a trillion dollar infrastructure package is a 
priority. The Trump campaign released a plan that called for 
about $137 million in tax breaks to private investors who want 
to finance toll roads, toll bridges, and other projects that 
generate their own revenue streams.
    Private tax breaks, however, will only aid infrastructure 
projects that have their own revenue stream, which would only 
be applicable to large-scale projects with a direct user fee.
    Others have argued, such as Steve Bannon, what we need to 
be doing is making direct investments in our infrastructure as 
a Nation to rebuild roads, bridges, rail systems, ports, and 
other key infrastructure assets that have made America globally 
competitive. Do you and President-elect Trump support an 
infrastructure package that will include direct Federal 
spending?
    Secretary Chao. I believe the answer is yes.
    Senator Booker. Great. Great. Thank you. Can I shift really 
quick to air traffic control staffing? This is a critical, 
safe, efficient running of our airspace. It's just a critical 
aspect, and we need to make sure we continue to have a capable, 
well-trained workforce. This workforce includes certified and 
experienced air traffic controllers.
    And right now, unfortunately, we face a crisis when it 
comes to staffing of our Nation's air traffic controllers. The 
national aerospace system has declined to a 27-year low with 
certified professional controllers.
    How will you ensure that we have the necessary aviation 
workforce to continue operating the safest airspace in the 
world?
    Secretary Chao. As a former Secretary of Labor, I am always 
very concerned about the ability of a workforce to prepare for 
a certain percentage of workers retiring and how best to 
prepare for the future and for succession waves to occur as 
well. So I am very concerned about that, and that it's a whole 
plethora of strategies that can be deployed, and I look forward 
to working with you on discussing some of these strategies and 
also getting up-to-date information from the Department as to 
what their current plans are as well.
    Senator Booker. Thank you very much. And the last thing I 
want to say is a priority for mine is the NextGen installation 
in Newark, New Jersey. Even President-elect Trump has 
criticized Newark Airport saying that our airports are like 
from a Third World country. You land at LaGuardia, you land at 
Kennedy, you land at LAX, you land in Newark, and you come in 
from Dubai and Qatar, and you see these incredible airports. 
You come in from China, you see these incredible airports. And 
you land, and we've become a Third World country.
    I've had a lot of frustration about Newark's busy airport 
and the challenges of delays. NextGen technology would help 
modernize these systems, create efficiencies, improve air 
quality. Under your leadership, can we specifically expect 
rapidly a full implementation of the NextGen technology to 
upgrades that are already on the way, but it needs a champion 
as a Secretary to get this over the line so we can modernize 
our airport and catch up with those global leaders that have 
surpassed us like the President-elect has mentioned?
    Secretary Chao. Absolutely. We need to have a greater 
emphasis on improving the rate of modernization. There are 
questions which had taken place before you arrived about the 
air traffic control system, and the rate of change and 
improvements are certainly not what we would all like and needs 
to be improved.
    Senator Booker. Thank you very much.
    As a big fan of South Dakota, I would like to apologize to 
the Chairman for being over.
    [Laughter.]
    The Chairman. Thank you, Senator Booker.
    And might I add that only in the U.S. Senate would the 
Senator from New Jersey be considered a young single guy, but--
--
    [Laughter.]
    The Chairman. Senator Heller is up next.

                STATEMENT OF HON. DEAN HELLER, 
                    U.S. SENATOR FROM NEVADA

    Senator Heller. Mr. Chairman, thank you. And to the Ranking 
Member, I have to tell you, Mr. Chairman, I'm impressed with 
the size of your Committee. Let it be a lesson to all of us 
about being on time, as I look around here.
    Needless to say, Secretary Chao, to you and your family, 
welcome today. Lynne and I have appreciated our friendships 
over the years, and we both congratulate you on your 
nomination.
    Secretary Chao. Thank you.
    Senator Heller. And in our meeting in my office, we talked 
about the functions of the Federal Government, and one of the 
most important constitutional functions, of course, is the 
creation of infrastructure. Obviously, in order to conduct 
commerce, trade, and general transportation, it's very 
critical.
    And one of the upsides to the state of Nevada is to have my 
colleague and I on the same Committee so that we can ask you 
the same questions twice. But, I do want to emphasize what she 
emphasized, and that is that Nevada is a microcosm of the 
challenges and the opportunities before the Department of 
Transportation in the coming decade.
    Nevada is one of the fastest growing states in the Nation, 
as you're well aware of, adding nearly a million new residents 
over the last 20 years. Add to that 43 million visitors, and 
you can imagine the infrastructure and the growth strains that 
we have in the state of Nevada, and the infrastructure system 
that we need for increased vehicular travel that has increased 
over the last decade by 150 percent.
    So I want to talk again about I-11, as Senator Masto 
mentioned, and that is the fact that we have two cities that 
are 290 miles apart, and these are the two largest cities in 
the country today in the Southwest that do not have a freeway 
between them.
    I was impressed with the Chairman of this Committee and his 
work on the FAST Act and the improvements that that will make 
over the next decade in the ability to move forward, and the 
fact that it officially designated this freeway, I-11, between 
Phoenix and Las Vegas as an officially designated future 
highway. And you may be aware of this, but it has been decades 
since we've actually designated a future highway here in this 
country, and it's good to see the I-11 moving forward.
    I think Nevada has done a great job in this process because 
we've moved ahead. We have a bypass, the first phase is known 
as the Boulder City Bypass, and because of the work of the 
Federal Government, state government, and local government, we 
were able to complete this particular project on time and very 
quickly.
    So I guess the question is always the same, we need the 
resources. And this is a great project, and you've heard a lot 
of great projects today, but the issue is always going to be 
resources, and I guess the commitment that we're asking from 
our delegation is, Will you help us in securing the resources 
that are necessary in order to not only grow this designated 
freeway between Phoenix and Las Vegas, but you can imagine the 
impact that it has on the region, the southwestern portion of 
the country, which has been the fastest growing for decades.
    So I guess that's the commitment we're trying to get 
between the two of us from you, is the help and the support 
from the Department of Transportation to see this come to 
fruition.
    Secretary Chao. A couple of points. One, this emphasizes 
again the need to find additional financing, creative, 
innovative ways to fund many of these infrastructure projects. 
Number two, I look forward to working with both Senators from 
the great state of Nevada on this issue. And I look forward to 
seeing both of you in Nevada.
    Senator Heller. Secretary, thank you. We needed to hear 
that. I want to expand on this I-11 because not only is it 
between Phoenix and Las Vegas, but it will continue to extend 
up into the northern portion of the state. And under the work 
of this Chairman on the FAST Act, we did authorize the 
extension of I-11 from Las Vegas to northern Nevada in that 
bill.
    It's going to be a very complicated project. We're not 
talking just the 290 miles between Phoenix and Las Vegas, but 
an additional 400 miles to get it to the northern end of the 
state. We're very vast out there in the West, but it's going to 
be treacherous, treacherous terrain. There's a lot of Federal 
land in the state of Nevada. We have Native American 
reservations. We can go on and on and on in how difficult this 
would be. I guess the question that I have for you is to ensure 
that as this project moves forward is that we can streamline--
there were a lot of streamlining provisions within the FAST 
Act, and your commitment to seeing this happen so that we can 
get through the initial phases of the planning on that project, 
taking it from Las Vegas to the northern end of the state, can 
we get your commitment that we can try to overcome some of the 
shackles that we find through this difficult project as we move 
forward?
    Secretary Chao. I will work with you on this.
    Senator Heller. And I do appreciate that. What I'm trying 
to hope is that this idea, this project, moving forward would 
actually be a model for the rest of the Nation.
    Secretary Chao. I understand. Thank you.
    Senator Heller. And, Mr. Chairman, I think my time has run 
out.
    The Chairman. OK. Thank you, Senator Heller.
    Senator Heller. Secretary, again welcome and thank you for 
being here.
    Secretary Chao. Thank you.
    The Chairman. Senator Udall and then we're almost to the 
end, Senator Markey.

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you, Mr. Chairman. And I've enjoyed 
being a very active Member on this Committee and very much 
appreciate yours and Senator Nelson's bipartisan approach to 
the Committee work.
    Secretary Chao, welcome. And it's wonderful to see you're 
willing to come back and do this a second time. I want to thank 
you for your service to the country. And I very much enjoyed 
our visit in my office about a variety of different issues, 
some of which I'm going to ask about today. And it's always 
good to see your family here.
    Secretary Chao. Thank you.
    Senator Udall. Those young people right behind you, they 
have real focus. You've taught them quite a lot there. And I 
know you always talk fondly about your dad, so it's great to 
see him here, too.
    First, I would like to talk a little bit about drunk 
driving. In your written testimony, you note that safety will 
continue to be DOT's primary objective. In 2015, drunk driving 
killed more than 10,000 people. That's roughly one-third of all 
traffic fatalities. And these are tragic deaths that are 
preventable, and I know that you know that, and you've worked 
on this before. We know from efforts in my home state of New 
Mexico that we can reduce the tragic toll from drunk driving.
    High visibility enforcement, ignition interlocks, public 
safety campaigns, all of those help save lives, but I'm 
especially excited by an advanced R&D effort to find 
technological solutions to end drunk driving, and I think 
Senator Capito talked about how the two of us had worked 
together on that. This is called the Driver Alcohol Detection 
System for Safety, or DADSS. It's a public-private partnership 
that's making progress toward that goal.
    Let me ask you a couple of questions on these drunk driving 
issues. Will drunk driving be a priority issue for you as DOT 
Secretary?
    Secretary Chao. Yes.
    Senator Udall. And will you support NHTSA, the National 
Highway Transportation Safety Administration, operation efforts 
to combat drunk driving, such as Drive Sober or Get Pulled 
Over, it's a public awareness campaign?
    Secretary Chao. I've worked with NHTSA in the past and I 
look forward to working with them in the future and look 
forward to getting updated on this latest initiative as well. 
You've done great work with DADSS.
    Senator Udall. Great. Thank you. And will you--you've 
already answered that third question, so I'll move on here. I 
really appreciate your responses.
    Everybody has talked here, as has been mentioned several 
times, and I don't want to plow new ground, on rural 
infrastructure. One part that hasn't been mentioned that you 
know I've talked with you about is our Native American 
communities, where many of these Indian pueblos, tribes, are in 
very rural areas, sometimes unemployment 40 and 50 percent. So 
one of the ways to grow jobs is to have good infrastructure.
    I hope that you will work with me in the rural areas and in 
Native American communities to make sure that we get the 
infrastructure that they deserve and that they can grow their 
communities. I know Senator Thune, our Chairman, has a lot of 
tribes that are in the same situation, too. So thank you for 
that.
    And then let me talk a little bit about greenhouse gas 
emissions. The DOT's Transportation and Climate Change 
Clearinghouse states that--and this is a quote within your 
Department, ``within the United States, transportation is the 
largest source of greenhouse gas emissions after electricity 
generation. With scientific recognition that greenhouse gas 
emissions are contributing to a long-term warming trend of the 
Earth, there is an increasing realization that transportation 
is a significant contributor of GHGs, plays an important role 
in climate change policy and program decisions.'' That's your 
Department's statement.
    Will a Department of Transportation, under your leadership, 
work to address greenhouse gas emissions and climate change 
issues?
    Secretary Chao. I'm not very familiar with what the 
Department is doing right now, so I would want to be briefed 
and understand what they are doing on this, and I look forward 
to working with you on it.
    Senator Udall. A related issue also has to do with vehicle 
emissions, and I hope that you will work with me to see that we 
improve the vehicle fleet fuel economy rather than rolling back 
those standards. Once again, I very much appreciate your effort 
here today. Thank you.
    Secretary Chao. Thank you.
    The Chairman. Thank you, Senator Udall.
    Senator Markey is up next, and then Senator Cruz.

               STATEMENT OF HON. EDWARD MARKEY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. Beautiful. Thank you, Mr. Chairman, very 
much.
    Welcome, Madam Secretary, and you have a beautiful family 
behind you. I see your father right over your shoulders.
    Secretary Chao. Thank you.
    Senator Markey. Just such a wonderful day.
    Let me go first to this revolution that's taking place in 
the automotive sector----
    Secretary Chao. Yes.
    Senator Markey.--where automobiles are very rapidly turning 
into computers on wheels, and increasingly it's possible to be 
able to hack into these vehicles as they move down the streets. 
And all of these vehicles have information about us, which 
streets we went down, when we went there, and potentially they 
are compromisable in terms of someone with a computer even 
taking control over that vehicle.
    Can you talk a little bit about how you view that issue and 
what role you think that the Congress and the Department of 
Transportation can take in ensuring that drivers are protected 
against a compromise of their information?
    Secretary Chao. The innovation and creativity of our 
country is unsurpassed in the world. And so we have a 
responsibility to encourage that creativity and that innovation 
in the future. Obviously, with these new emerging technologies, 
there has now surfaced a number of key issues, privacy among 
them, that are very worrisome to a whole host of people. Safety 
is another.
    So as these emerging technologies are coming up, they're 
faced with state-by-state regulations, which also present a new 
challenge as well. Yet there are many benefits. For example, 
for senior citizens or people with disabilities who may not 
want to or cannot drive, autonomous vehicles are a way to give 
them back their freedom.
    So there are pros and cons, and we need to have a national 
dialogue about all of this. And as I said, the regulations at 
the Federal level are in their infancy, and we need to work 
with Members of the Congress and all of you on this Committee 
to make sure that we're not dampening the spirit of creativity, 
and yet we are also assuaging the real deep-seated concerns of 
our public on some of the issues that these new emerging 
technologies bring.
    Senator Markey. Thank you. Let me follow up on a question 
which Senator Udall asked, which is on the greenhouse gas 
issue, which is related to fuel economy standards for the 
vehicles which we drive.
    I am the author in 2007 of the law which required the 
dramatic increase in the fuel economy standards of the vehicles 
which we drive. Senator Stevens, from Alaska, and Senator 
Feinstein were the Senate authors of that. And that calls for 
54.5 miles per gallon, which is by the year 2025, which has 
been reinventing the automotive sector in our country. That is 
going to be reviewed over the next couple of years.
    Can you talk a little bit about how you view that issue and 
whether or not the U.S. should stay on a path to meet those 
goals because it requires less gasoline for people to buy, 
backs out oil we import, and reduces greenhouse gases?
    Secretary Chao. This issue is going to be coming up. It's 
going to be an important one for the Department. And before I 
comment, I would like to do so responsibly, and so I would like 
to get some briefings, up-to-date briefings, on what is 
happening within the Department. And, again, I look forward to 
soliciting your points of view and working with you as we go 
forward.
    Senator Markey. Thank you. Great. Thank you. And on the 
issue of drones, there are going to be millions of drones up in 
the sky, but commercial companies can actually collect data----
    Secretary Chao. Yes.
    Senator Markey.--about individual families all across the 
country as these drones are just hovering over people's 
backyards. I was actually successful in having an Amendment 
pass out of this Committee last year. It got knocked out in the 
Conference Committee, but it just goes to the issue of the 
privacy of Americans and the information being gathered about 
them by commercial companies and creating a privacy standard 
for those families.
    Can you talk about that and what role you believe the 
Department of Transportation and this Congress should be 
playing in ensuring that these ``eyes in the sky'' don't 
compromise the privacy of families across our country?
    Secretary Chao. Well, Senator, you and I talked about this 
at length during our visit in your office as well. And so on 
this issue, as I mentioned, and many others, with emerging 
technologies, we all need to talk and understand the benefits, 
as well as the concerns that are expressed by various 
stakeholders, and I look forward to working with this Committee 
and the Congress on all those issues.
    Senator Markey. And do I have time for one more question?
    The Chairman. Your time is up. If you want a second round--
--
    Senator Markey. I yield back. Thank you. I appreciate it, 
Mr. Chairman.
    The Chairman. OK. Senator Cruz.

                  STATEMENT OF HON. TED CRUZ, 
                    U.S. SENATOR FROM TEXAS

    Senator Cruz. Thank you, Mr. Chairman.
    Madam Secretary, congratulations on the nomination. 
Congratulations to your family, who is here, especially your 
father, who I know is very, very proud of you, and together you 
all represent the quintessential American success story, coming 
as immigrants to achieve the American dream.
    Secretary Chao. Thank you.
    Senator Cruz. I want to talk about several topics quickly, 
because we have limited time. I want to start with a topic you 
and I visited about yesterday, which is the impediment right 
now that overregulation serves to building roads, building 
bridges, building infrastructure, and what we should to do 
reduce those regulations so that we can more quickly rebuild 
the infrastructure of our country. And I just ask your views on 
how overregulation slows down transportation projects.
    Secretary Chao. There's a whole list of projects that are 
outstanding in various departments throughout the Department of 
Transportation, and they've been on the books, so to speak, for 
quite a while. One of the major complaints that many private 
investors voice is how long it takes for projects to be ready 
for bidding.
    So the issue is not only how much to fund our 
infrastructure projects, but also how to increase the pipeline 
of available projects that would be available for all groups, 
private sector included, to be able to participate and fund.
    Senator Cruz. Well, terrific, Madam Secretary, and I look 
forward to this Committee working closely with you to 
streamline that process so that we can have more and more 
shovel-ready projects that actually are creating jobs and 
rebuilding our infrastructure.
    I want to turn to another area where regulations can 
potentially slow things down, and that's commercial space, 
something that is of great importance to my home state of 
Texas. When you last worked at the Department as Deputy 
Secretary, the Office of Commercial Space Transportation was 
located inside the Office of the Secretary and reported 
directly to the Secretary.
    Today, that office is a few layers down inside the FAA, 
which is allowing issues of importance to the commercial space 
launch industry to be lost within the bureaucracy. In fact, 
it's illustrated by the fact that Secretary Foxx's exit memo 
doesn't even mention commercial space.
    Within the Commercial Space Launch Act, which I authored 
and Congress passed and was signed into law, it directs the 
Department to look at moving the Office of Commercial Space 
Transportation back under the Secretary. Would you be 
supportive of that move and an increased focus on creating an 
environment where commercial space launch can thrive?
    Secretary Chao. Thank you very much for bringing this issue 
to my attention. I was not aware of this issue, and I look 
forward to getting briefed on the current status of this issue.
    Senator Cruz. Very good. I look forward to working with you 
on it.
    I want to turn to another issue that you and I discussed 
yesterday, which is airlines, and, in particular, the fact that 
our air traffic control system is right now outmoded with 1950 
style radar, when we have GPS technology and far better 
technology to ensure airline safety and efficiency, which would 
benefit everyone. And I would like to hear your views on 
whether you share my concerns for the need to modernize and 
upgrade our air traffic control system.
    Secretary Chao. The professional career staff at the 
Department of Transportation are terrific. They do a great job. 
The task ahead of them is a huge one. NextGen, we need to do 
more, and do it better and faster, and that's a tall order for 
anyone. So if confirmed, this will be a top priority of mine to 
examine NextGen and how to improve it? And then also, how do we 
keep--how do we maintain our aviation system to be the best, 
safest, and most efficient in the world?
    Senator Cruz. Well, terrific. I like those adjectives of 
``more,'' ``better,'' and ``faster,'' and I look forward to our 
working with you to accomplish those in upgrading our air 
traffic control system.
    The final question I want to focus on is transportation 
funds. And historically, Texas has received less from the 
Federal Highway Trust Fund than the state has contributed in 
gas tax receipts, and a major reason for that in equity is that 
the FAST Act didn't update apportionment formulas, so that 
Texas is underrepresented.
    Will you commit to this Committee to looking at this issue 
and examining it carefully, and in particular examining 
updating the apportionment formulas so they accurately reflect 
the population in each state, and they're using current census 
data and not outmoded data?
    Secretary Chao. This has been brought up several times 
during this hearing, and I will certainly do that.
    Senator Cruz. Very good. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Cruz.
    Senator Nelson, anything else? We'll go to the order.
    Oh, do we have Senator Markey coming back or not?
    Senator Nelson. Senator Cruz, before you leave, I just want 
to say on matters of the commercial office, I had the pleasure 
of authoring the first commercial space transportation bill 
back in 1986 when you and I were young pups.
    [Laughter.]
    Senator Cruz. I was perhaps the younger pup.
    [Laughter.]
    The Chairman. Easy.
    [Laughter.]
    Senator Nelson. Madam Secretary, will you commit to go to 
the state of every Senator that is a Member of this Committee?
    [Laughter.]
    Secretary Chao. I will do so.
    Senator Nelson. I want to acknowledge the dedication of the 
Colgan families and the contributions to aviation safety, which 
has resulted from their hard work since that tragic Flight 
3407, claimed the lives of their loved ones in 2009. 
Representatives of the Colgan families are here with us today. 
And we welcome them and we commend them for their continuing 
efforts.
    Just one cleanup question, Mr. Chairman. Many of our 
Members have raised the importance of direct Federal funding to 
support infrastructure. Federal funding is critical for 
projects in our states. And you have heard a number of the 
Senators from various states specifically enumerate their 
projects, infrastructure projects.
    Now, here's a commitment that you can actually commit to. 
Do you commit to provide this Committee with details of your 
plan for infrastructure funding, particularly your 
recommendations on the Federal funding, and to do that within a 
short period of time, say, 30 days?
    Secretary Chao. I will certainly try to give this Committee 
a continuing report on what the infrastructure proposal would 
be. I will try for 30 days, but I can't promise 30 days.
    Senator Nelson. OK. And when you formulate it, will you 
commit to share it with this Committee?
    Secretary Chao. I can assure this Committee that there will 
be continual and constant dialogue on what the proposal will be 
for the very simple reason that we cannot do this alone. And 
any infrastructure proposal would require the participation and 
the discussion of the United States Congress.
    Senator Nelson. OK. In order to get these infrastructure 
projects done with Federal funding, we need to know what the 
Administration is proposing.
    Secretary Chao. Absolutely.
    Senator Nelson. Now, except for you being shackled by the 
White House, that you can't release any of the proposed 
proposals for Federal funding, I would assume that you could 
commit to share that information with us.
    Secretary Chao. I will certainly be in discussion with the 
Congress, and not only myself, but other Members of the 
Administration that are involved in the infrastructure project, 
the White House, on all of this. As I mentioned, it will be a 
heavy lift, and it will require the Administration to work with 
the Congress on making all of this a reality.
    So currently the Administration--I shouldn't say 
``currently'' because the Administration is not in office yet. 
When the Administration gets into office, these issues will be 
discussed. There's a National Infrastructure Task Force, and 
when it gets underway, the pay-fors and other aspects of the 
infrastructure project will be tackled at that time, and I look 
forward to that.
    Senator Nelson. OK. The only way we are going to get an 
infrastructure bill done is to have it done in a bipartisan 
way.
    Secretary Chao. Totally agree.
    Senator Nelson. The Chairman and I are an example of that 
bipartisan cooperation. And we are going to need to know the 
information of what the administration, that you will be 
representing them on transportation, will in fact commit to. 
What we need is the information in the Committee so we can work 
together.
    Secretary Chao. I totally agree with you on that. And at 
the appropriate time, I'm not saying at any later time, but as 
the infrastructure proposal is being put together, we will 
certainly be in great discussion with the Congress because, 
once again, we cannot do it on our own. We need to have the 
input and the agreement of the Congress as we go forward.
    Senator Nelson. Thank you.
    The Chairman. Thank you, Senator Nelson.
    I just have one quick cleanup thing. Secretary Chao, you 
mentioned in response to my question on the FAST Act earlier, 
the creation of a task force. I'm interested in your commitment 
to brief me and my staff about this task force, and would also 
ask that a rural perspective be included on that. Some of the 
things that we're hearing about projects to date don't reflect 
that point of view.
    Secretary Chao. We will certainly do so. I might put that 
in a more positive way in that the infrastructure proposal is 
very exciting, and this is an opportunity for bipartisan 
agreement and for us to all work together to build a better 
America. So that's how I view it, as something very positive, 
that it actually gives our country, on a bipartisan basis, the 
opportunity to work together.
    The Chairman. Sounds good to us. We do the bipartisan thing 
pretty well. The urban-rural thing, though, is my version of 
bipartisanship, so I just want to make sure that we have rural 
representation in those conversations.
    Secretary Chao. Yes, of course.
    The Chairman. Final question, this will probably be the 
hardest one of the day for you, Louisville or Kentucky?
    [Laughter.]
    Secretary Chao. I'm taking a pass on that one.
    [Laughter.]
    The Chairman. We'll take that one for the record.
    [Laughter.]
    The Chairman. Well, I appreciate everybody's participation 
today. And given our hope to confirm Secretary Chao on 
Inauguration Day, the hearing record is going to remain open 
until tomorrow. So during that time, I would ask Senators to 
submit any questions for the record, and upon receipt, would 
request submission of written answers to the Committee as soon 
as possible.
    Secretary Chao, thank you for your patience, your 
indulgence. A very long day for you, and your response to our 
questions, and your willingness to serve our country. We look 
forward to working with you in hopefully what will be busy days 
and weeks and months ahead. Thank you.
    Secretary Chao. Thank you very much.
    The Chairman. With that, the hearing is adjourned.
    [Whereupon, at 1:21 p.m., the hearing was adjourned.]

                            A P P E N D I X

     Response to Written Questions Submitted by Hon. John Thune to 
                          Hon. Elaine L. Chao
    Question 1. In your response to a pre-hearing question from Senator 
Peters regarding fuel economy standards and the role of the National 
Highway Transportation Safety Administration (NHTSA), you mentioned 
your desire to work on harmonization and a reduction in overly 
burdensome and duplicative regulations. Recent actions by the 
Environmental Protection Agency (EPA) raise concerns about its rush to 
establish Greenhouse Gas Standards for new vehicles in model years 
2022-2025.
    This effort by EPA could cause challenges for NHTSA in setting 
maximum achievable fuel economy standards. If confirmed, will you 
commit to a thorough review of this important rule to avoid unnecessary 
harm to consumers and jobs?
    Answer. If confirmed, a top priority will be to receive a full 
briefing from NHTSA regarding the CAFE program and how it relates to 
EPA's greenhouse gas standards. Improving safety and fuel economy for 
motor vehicles are both important goals, and harmonization is critical 
for manufacturers, suppliers, and consumers. I will ask that USDOT work 
with the leadership of all related Federal agencies to ensure that 
those twin objectives are met in a thoughtful and consistent manner.

    Question 2. As we discussed at your nomination hearing, reliable 
and affordable commercial air service in rural states is a crucial 
economic driver spurring economic development and job growth.
    As part of the Federal Aviation Administration (FAA) extension 
enacted last year, Congress mandated the creation of a Working Group on 
Improving Air Service to Small Communities, which is tasked with 
providing recommendations to improve air service to small communities. 
Two South Dakotans, Pierre Mayor Laurie Gill and South Dakota 
Department of Transportation Program Manager Jack Dokken, have been 
selected to participate in the working group. Their first meeting is 
scheduled in the coming week.
    Once their work is complete, if confirmed, will you commit to fully 
and fairly considering any recommendations the working group makes?
    Answer. As I mentioned during my confirmation hearing, the 
Department of Transportation must make transportation safe, efficient, 
and accessible to both rural and urban America. If confirmed, I will 
fully and fairly consider all recommendations submitted to the 
Department by the Working Group on Improving Air Service to Small 
Communities.

    Question 3. The safe, efficient and quick movement of goods through 
U.S. ports is an important aspect of any company's supply chain. I have 
continuously heard about congestion issues affecting all port 
stakeholders and, because of these concerns, I introduced the Port 
Performance Act. This legislation was incorporated into the Fixing 
America's Surface Transportation Act (FAST Act), and it created the 
Port Performance Freight Statistics Program as a means to measure port 
capacity and throughput in an effort to create national metrics. I 
believe metrics will not only help identify key issues affecting port 
congestion, but can help identify solutions to address the issue. While 
each port is different, the impact of congestion on stakeholders is the 
same. Disruption and delays have a negative impact on all stakeholders.
    Will you work with the Committee to continue to refine the Port 
Performance Freight Metrics to ensure our ports are prepared for the 
21st Century global supply chain?
    Answer. Our nation's ports are a tremendously valuable asset and a 
lynchpin of our economy. Significant delays in the movement of consumer 
goods can take a major toll on the U.S. economy. If confirmed I will 
commit to reviewing the progress of the Port Performance Freight 
Statistics Program and work with the Committee to refine and improve 
the Port Performance Freight Metrics, as necessary.

    Question 4. Section 1105 of the FAST Act established a program to 
fund nationally significant highway and freight projects, which 
prompted the Department of Transportation (DOT) to create the Fostering 
Advancements in Shipping and Transportation for the Long-term 
Achievement of National Efficiencies (FASTLANE) program, which 
announced its first awards in October of 2016. The inaugural round 
awarded $759.2 million to 18 projects, leveraging $3.62 billion in 
infrastructure investment. Section 1105 also mandated a Government 
Accountability Office (GAO) study on the transparency of the inaugural 
FASTLANE selection and award process. In November of 2016, the 
Department announced a second round of FASTLANE before the GAO 
assessment of the program was complete. Additionally, the short 
turnaround time of the program did not allow applicants sufficient time 
to consult with DOT and receive feedback on their applications.
    As the Department moves forward with the FASTLANE program, will you 
continue to work with us to improve the transparency of the program and 
its accessibility for rural communities?
    Answer. Giving consideration to the needs of rural areas and making 
sure that certain communities do not feel left behind or overlooked 
will be a priority of this administration. If confirmed I will commit 
to reviewing the FASTLANE program and the GAO review to work with the 
Committee to improve transparency and identify ways to address the 
unique needs of rural and urban America.

    Question 5. The FAST Act seeks to ensure that DOT fully implements 
the Office of Inspector General recommendations to improve NHTSA's 
Office of Defects Investigation. On September 30, 2016, Secretary Foxx 
certified that all the recommendations have been implemented. Still, 
the Inspector General has not yet closed all recommendations.
    On November 18, 2016, I wrote to Secretary Foxx asking him to 
ensure the closure and implementation of these recommendations. Given 
the importance of these recommendations to vehicle safety, will you 
commit to reviewing the Secretary's certification if confirmed?
    Answer. The Inspector General of the Department of Transportation 
plays an vital and independent role, and, if confirmed, I will work 
with the IG's office to ensure that all recommendations are carefully 
reviewed and implemented in the best possible manner. I hope to receive 
a full briefing from NHTSA regarding the Office of Defects 
Investigations, and I will monitor any proposed changes regarding the 
timeliness and size of the ODI's workload, staff and budget.

    Question 6. The FAST Act required the DOT to develop a 
comprehensive, multimodal freight map that identifies corridors for the 
movement of goods from origin to destination. In response to the 
interim National Multimodal Freight Network, the South Dakota 
Department of Transportation (SD DOT) has suggested additional 
designations for the network. If incorporated, these designations would 
capture the flow of freight as it moves through the state from the 
railroads and roads that connect agricultural facilities to the larger 
freight network. The suggestions from SD DOT also include intermodal 
facilities as well as regional connectivity to markets and freight 
through traffic.
    As the Department moves towards a final National Multimodal Freight 
Network, I ask for your commitment to consider all the comments from 
state Departments of Transportation on ways that the Freight Network 
can better represent the flow of goods.
    Answer. An understand and consideration of recommendations for both 
rural and urban freight networks are critical to the development of a 
truly successful national freight network. If I am confirmed, I will 
commit to consider all comments and recommendation from state 
Departments of Transportation so that a truly National Freight 
Strategic Plan can be developed to more efficiently identify and 
correct inefficiencies in our nations freight network.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Roger F. Wicker to 
                          Hon. Elaine L. Chao
    Question 1. As a country, increasing the pipeline of mariners is 
extremely important. The State Maritime Academies produce over 70 
percent of new licensed mariners each year. They are consistently 
highly ranked as best values for education. One key element in that 
education is federally owned training ships which are maintained by the 
academies. These ships are aging. The oldest, the Empire State at SUNY 
Maritime, is 55 years old. The Department of Transportation and MARAD 
have been supportive of a new class of training ships for the 
academies--the National Security Multi-mission Vessel. Congress has 
authorized the program. Would you please provide a response for the 
record of where the Department will stand with regard to moving forward 
on this important program?
    Answer. Having experience at the USDOT as both the head of MARAD, 
as well as the Deputy Secretary, has given me a strong background in 
these areas. MARAD's own King's Point is a key component of a robust 
merchant mariner workforce. King's Point, along with the other six 
other State maritime academies will be responsible for ensuring a 
sufficient number of mariners are always in the pipeline to meet our 
needs. If confirmed, I will review the National Security Multi-mission 
Vessel program and work with Congress to ensure we find solutions to 
the aging fleet issue.

    Question 2. Mississippi has several significant tire manufacturing 
facilities--Cooper in Tupelo, Yokohama in West Point and a new 
Continental facility in Hinds County. Given this, I am keenly 
interested in implementation of tire-related provisions within the FAST 
Act (Public Law No: 114-94), specifically Sections 24332-24335. I look 
forward to working with you and NHTSA to ensure prompt implementation 
of these provisions. Knowing the agency is the midst of a transition, 
would you provide an update on the agency's implementation plan at your 
earliest convenience?
    Answer. If I am confirmed, I will receive a briefing on and review 
Sections 24332-24335, and provide you an update at my earliest 
opportunity.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Jerry Moran to 
                          Hon. Elaine L. Chao
    Question 1. As you know, the quality of life in America's small 
communities and rural areas and the health of the Nation's rural 
economy is heavily dependent on the quality of the Nation's 
transportation system, particularly its roads and highways. While new 
capacity is important, it is equally important to maintain our Nation's 
4.12 million miles of existing roads, streets and highways.
    Pavement preservation focusing on preventing pavement deterioration 
early in the pavement's wear cycle can greatly extend the time before 
costly repairs and rehabilitations to the road are needed, making it a 
cost effective tool for states and localities to maximize their 
transportation dollars.
    Will you work with my office on policies that continue to promote 
and accelerate the use of pavement preservation to maintain our 
Nation's roads?
    Answer. Maintaining, modernizing and expanding our Nation's roads 
are fundamental to the efficient and effective movement of goods and 
people. The preservation of our roads is a key aspect of this critical 
process. If confirmed I will commit to review the Department's current 
policies for pavement preservation and I look forward to working with 
your office to identify and implement any necessary changes.

    Question 2. One area of growing concern is the commercial shipment 
of undeclared hazardous materials on aircraft, especially commercial 
aircraft. According to DOT statistics, there were 1,129 incident 
reports filed to the FAA in 2015, and 564 of those incidents involved 
undeclared dangerous goods.
    Under your leadership, how will DOT work to combat this growing 
safety risk?
    Answer. Regulating the shipment of hazardous materials on 
commercial aircraft is critical to aviation safety. If confirmed, I 
will work to strengthen known shipper and chain of control regulations 
to reduce incidents of undeclared shipment of hazardous goods. Since 
ignorance of existing rules is the cause of a significant number of 
violations, I will ensure education is part of our compliance and 
enforcement efforts.

    Question 3. The Department's policy has been that highway right-of-
way is acquired with public funds for public purposes. Some have argued 
for commercialization of the right-of way, though in 2012 the Senate 
voted 86-12 against commercialization of rest areas. Some states have 
considered proposal to sell large-screen commercial advertising on the 
right-of-way. For you reference, I am including a May 17, 2016, letter 
from Rep. Ted Poe (R-TX) to DOT Secretary Foxx on the subject. Do you 
support current policy that right-of-way purchased with public funds 
should be limited to public purposes?
    Answer. I understand this issue is addressed in existing Federal 
laws, and if I am confirmed, the Department of Transportation will 
adhere to the law, unless and until it is changed.

    Question 4. Do you think the safety rules for general aviation of 
Part 91 and on-demand aircraft charters of Part 135 should apply to all 
flights, whether the flight is arranged for by a pilot or charter 
broker on the Internet, or over the phone?
    Will you work to refine the Enhanced Consumer Protections for 
Charter Air Transportation NPRM from 2013 to ensure that safety is the 
paramount consideration, and that all charter brokers, indirect air 
carriers, and direct air carriers meet the appropriate safety, 
licensing and fitness determination standards?
    Answer. As I mentioned at the confirmation hearing, safety will be 
DOT's number one priority. If I am confirmed, during my first 100 days, 
I plan to order a review of all outstanding NPRMs, with an emphasis on 
safety-critical proposed rules.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Dan Sullivan to 
                          Hon. Elaine L. Chao
    Question. The public transportation needs of Alaska, like 
everywhere else, far exceed resources. Federal Transit Administration 
urbanized area formula funds for Anchorage for this year and last year 
are held up, creating strains that increase by the day. The Alaska 
Railroad has asked FTA for an administrative solution that will allow 
these funds to flow again. Under this solution, the funds would flow to 
Anchorage's two FTA recipients, the Alaska Railroad and the 
Municipality of Anchorage, the way they always have, and this would 
change only if the Alaska Railroad and the Municipality of Anchorage 
agree to a change. Will you please review this suggested solution as a 
way to get FTA formula funds flowing again for public transportation in 
Alaska?
    Answer. If confirmed, I will receive a briefing on this and other 
FTA issues and hope to gain an understanding of the solution you have 
suggested. I look forward to following up with you and the Committee 
upon completion of my review.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Dean Heller to 
                          Hon. Elaine L. Chao
    Senator Markey and I successfully included our legislation, the 
Safety Through Informed Consumers Act (STICRS) Act, in the FAST Act 
(Sections 24321 & 24322 of PL 114-94.) These provisions require the 
National Highway Traffic Safety Administration (NHTSA) to promulgate a 
rule by December 15, 2016 to ensure that crash avoidance technology 
ratings are incorporated into NHTSA's 5-star rating system and placed 
on the window sticker of every new car.
    In December 2015, the Department issued a notice requesting 
comments to planned changes to the National Highway Traffic Safety 
Administration's (NHTSA) 5-Star Safety Ratings for new vehicles. NHTSA 
is then expected to initiate a rulemaking to update the vehicle label 
to include the crash avoidance technology information as part of its 
new 5-Star Safety Ratings system.
    It is clear that NHTSA is not going to complete this work before 
the inauguration. It is my belief that this update will help consumers 
who are shopping for an automobile become aware of safety technologies 
that can prevent accidents. Additionally, it will incentivize 
additional innovation within the automotive industry.
    Question 1. Throughout your confirmation hearing, you emphasized 
the importance of implementing the many important policy reforms 
implemented by the FAST Act. Once confirmed, will you commit to 
completing this rulemaking expeditiously, given that NHTSA has already 
missed the statutory deadline?
    Answer. If I am confirmed, I will make review of this issue, and 
the reasons for the rulemaking delay, one of my top priorities. After 
my review, I will work with you and the Committee to ensure the matter 
is resolved.

    Question 2. As I mentioned in the confirmation hearing, Nevada's 
economy relies heavily on tourism. Travel spending adds nearly 60 
billion dollars into the Nevada economy annually, accounting for about 
13 percent of the state's annual GDP. The travel industry has been a 
driving force behind our state's economic recovery, and policies that 
improve access to efficient, safe, and cheap travel are among my top 
priorities in the United States Senate.
    Earlier this month, the Las Vegas Convention and Visitors Authority 
reported Southern Nevada drew 42.9 million tourists to town in 2016, 
600,000 more visitors than the region tallied in 2015. McCarran 
International Airport reports that international travel is up three 
percent. The remarkable growth of international travel throughout our 
country has been fueled by Open Skies agreements that have fostered 
competition and expanded air service to the benefit of American 
consumers.
    For more than 25 years, our Nation has been committed to Open Skies 
and we have negotiated over 100 Open Skies agreements with other 
nations, including most of our major aviation partners. Our Open Skies 
agreements are resulting in new international service to smaller 
gateway cities, including critical tourist hubs in my home state, and 
have allowed foreign carriers to develop relationships with U.S. 
carriers to deliver passengers to smaller destinations all over the 
country.
    As Secretary, do you plan to continue the policy of open skies?
    Answer. There is no doubt that travel and tourism are good things, 
and we benefit from having tourists come to our country, and from 
Americans having access to travel destinations abroad. We live in a 
world that requires connectivity, and aviation agreements can help 
provide that. At the same time, if I am confirmed, I will work to 
ensure that our Open Skies agreements will produce genuine benefits for 
the American people.

    Question 3. Liberalization of air services has allowed numerous new 
routes across the Atlantic, the Pacific, into Canada and Mexico and 
other parts of the world. Will the Trump Administration and you as 
Secretary, continue to liberalize air service markets around the world?
    Answer. I look forward to being briefed on Open Skies agreements 
and pursuing policies that will facilitate greater travel and tourism 
and genuine benefits for the American people.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                          Hon. Elaine L. Chao
    Question 1. Infrastructure Funding--Many members of the Committee 
expressed an interest in increased Federal funding for infrastructure. 
I was pleased to hear your support for Federal funding as part of any 
infrastructure plan that the Administration puts forward. I was also 
pleased to hear your commitment to work with Congress and share the 
details of any proposal.
    If confirmed, will you commit to share the details of an 
infrastructure proposal within the first 30 days in your role as 
Secretary? Please also provide additional details on the infrastructure 
task force.
    Answer. As I stated during my testimony, the incoming 
Administration is still reviewing and considering all of the options 
available for our infrastructure plan. As soon as that proposal has 
taken shape, we are looking forward to sharing it with Congress and 
understanding the various perspectives and feedbacks of members, 
especially yours.

    Question 2. Some critical infrastructure projects don't generate 
revenue. Many cities in Florida rely on Federal support to build much 
needed transit projects. How will the tax credit proposal benefit major 
transit expansion projects like those in my state?
    Answer. Tax credit proposals are but one option that exists for an 
infrastructure plan. For a plan as ambitious as the one the President 
Elect has articulated, all financing options must be evaluated and 
considered. As the details of the plan have not been developed, it 
would premature for me to speculate on the outcome or effects of any 
plan. If confirmed, I will work to help produce an infrastructure plan 
that makes Federal transportation safe, accessible and efficient.

    Question 3. NextGen--Some Air Traffic Control (ATC) privatization 
proponents suggest that NextGen is coming up short. However, the FAA 
recently made clear in a letter to Chairman Thune (available at https:/
/www.faa.gov/news/updates/media/Senator_Thune-FAA_response.pdf) that 
NextGen is already delivering real benefits for the aviation industry, 
translating into nearly $3 billion in savings in passenger time and 
occupant safety and reduced fuel and aircraft operating costs. In my 
view, ATC privatization would only disrupt and delay NextGen progress 
that is already being made.
    If confirmed, how will you further FAA's efforts to continue 
modernizing our air traffic system through NextGen?
    Answer. NextGen promises to deliver a safer and more efficient 
national airspace system. I understand and appreciate that NextGen is 
the most complex modernization project that FAA has ever undertaken. 
That being said, it clearly can be managed better. Over the last 
decade, the DOT Inspector General has issued dozens of reports 
detailing NextGen delays and cost overruns. The U.S. Government 
Accountability Office (GAO) issued a recent report that included a 
survey of aviation stakeholders who expressed skepticism that the FAA 
can successfully implement NextGen in a timely and cost efficient 
manner.
    We owe it to American taxpayers, the traveling public, and all 
users of the NAS to provide the safest, most efficient system possible. 
We also owe it to taxpayers to ensure that Federal contracts and 
implemented quickly and efficiently. If confirmed, one of my top 
priorities will be to ensure that passengers, shippers, and other users 
finally begin to realize the many operational and safety benefits that 
NextGen will provide as quickly and as cost-effectively as possible.

    Question 4. Norwegian Air International Matter--The U.S. Department 
of Transportation (DOT) recently approved Norwegian Air International's 
(NAI) application for a foreign air carrier permit to conduct scheduled 
flights between the United States and countries within the European 
Union. Although many communities, including in my State of Florida, may 
benefit from air service by NAI, labor groups are concerned that this 
decision will negatively impact the hardworking men and women employed 
by the U.S. domestic aviation industry.
    If confirmed, what will you do to ensure that the consumer and 
economic benefits of DOT's decision are truly realized and high labor 
standards remain a top priority?
    Answer. I will take seriously the statutory mandate to strengthen 
the competitive position of our Nation's air carriers to ensure at 
least equality with foreign air carriers, including the attainment of 
the opportunity for our carriers to maintain and increase their 
profitability in global markets. I will oppose any foreign air carrier 
license applications that are inconsistent with our air service 
agreements or would undermine the economic viability and global 
competitiveness of our Nation's air carriers.

    Question 5. NHTSA Recalls--The National Highway Traffic Safety 
Administration (NHTSA) has faced the challenging task of coordinating 
the Takata airbag recalls, but the agency has taken a proactive 
approach that prioritizes safety. Further, the Takata airbag recalls do 
not currently cover desiccated ammonium-nitrate-based inflators, or 
inflators with a chemical drying agent that absorbs moisture. There are 
many millions of these inflators on the roads today. I am concerned 
that these inflators may pose a risk to safety if the ammonium nitrate 
becomes unstable.

  <bullet> If confirmed, will you continue to prioritize the driving 
        public's safety and continue to be aggressive in your handling 
        of the Takata airbag recalls?

  <bullet> Will you ensure that NHTSA continues and accelerates its 
        work to determine the safety of desiccated Takata inflators?

  <bullet> Based on the auto safety crises we have seen over the past 
        several years, do you think NHTSA needs more resources to 
        effectively carry out its statutory safety mission?

  <bullet> Do you agree that all motor vehicle recalls are safety 
        recalls?

    Answer. If confirmed, I intend to receive detailed briefings from 
NHTSA staff regarding the Takata airbag recall. I can assure the 
Committee that safety will be my top priority, and as Secretary, I will 
ensure that all recalls are completed as swiftly and effectively as 
possible. All motor vehicle recalls are important, and I will work with 
the NHTSA staff and the Congress to make certain our resources are used 
wisely.

    Question 6. Drunk Driving--The DADSS research program is a public-
private initiative that can end drunk driving. The technology would be 
able to quickly and unobtrusively determine if a driver is at or above 
the illegal limit of .08 BAC. The Insurance Institute for Highway 
Safety estimates that the technology could save 7,000 lives each year.
    If confirmed, can you commit that you would review all avenues to 
hasten the technology development of the DADSS program?
    Answer. If confirmed, I will receive a full briefing from NHTSA 
regarding the timing, technology, and funding of the DADSS program. 
Impaired and drunk driving is a grave public safety concern and one I 
pledge to focus on if confirmed.

    Question 7. Self-Driving Vehicles--Florida is one of the leading 
states in the Nation in promoting the development and deployment of 
self-driving vehicles. Other states are also playing an active role in 
addressing promising technology that could revolutionize 
transportation. Recent NHTSA guidelines recognize the need to avoid a 
``patchwork'' of state laws, while they also conclude that states 
should continue to take the lead on matters affecting insurance and 
liability, as well as other traditional state vehicle responsibilities, 
such as licensing and registration. What are your thoughts on how DOT 
and NHTSA should approach state insurance and liability issues with 
regard to autonomous vehicles?
    Answer. If confirmed as Secretary of Transportation, I will request 
that NHTSA provide a full demonstration and briefing regarding State 
and Federal laws and regulations related to autonomous vehicles. 
States' retain the right to regulate on many issues related to motor 
vehicles, such as driver licensing requirements, but a ``patchwork'' of 
laws could present challenges for the Department as well as the 
automobile and insurance industries. I will review the agency's actions 
and proposals.

    Question 8. Passenger Rail Service--The FAST Act mandated that the 
FRA convene a working group to evaluate the restoration of intercity 
passenger rail service between New Orleans and Orlando--a corridor that 
was significantly impacted by hurricane Katrina. Many of these 
communities support passenger rail service to help drive economic 
development. Currently, additional funding is needed to help return 
this critical service. The working group is developing a report on 
recommended capital and operating solutions to restore improved 
passenger rail service along the corridor.
    If confirmed, how will you be supportive of restoring passenger 
rail service along the Gulf Coast?
    Answer. Rail service to the Gulf States is an important issue 
facing USDOT. The Gulf states have seen many challenges over the last 
several years since Katrina. At this time, it would be premature to 
speculate on this matter until I have been completely briefed on the 
Gulf Coast Passenger Rail Working Group's report. If confirmed, I look 
forward to reviewing the report and working with you to determine the 
best course forward.

    Question 9. Federal Lands--The National Park Service has a nearly 
$6 billion backlog of transportation projects. Nearly a third of that 
is for megaprojects, which are beyond the funding capacity of the 
National Park Service. One such project in my state, the bridging of 
the Tamiami Trail, is critical to the restoration of the Everglades. 
Congress created the Nationally Significant Federal Lands and Tribal 
Projects program to address these types of projects. Do you support the 
need for additional funding to advance these critical projects?
    Answer. I have not yet had the opportunity to review DOT's 
transportation infrastructure project backlog. If confirmed, I will 
give my full attention to evaluating all infrastructure projects and 
proposals and will consider the appropriate, necessary steps to 
alleviate the backlog of worthy projects Commercial Space 
Transportation.
    The Secretary of Transportation is tasked with overseeing and 
promoting commercial space transportation, which supports an industry 
worth more than $300 billion. In practice, nearly all of these 
responsibilities are currently delegated to a small division within the 
Federal Aviation Administration called the Office of Commercial Space 
Transportation.

    If confirmed, what will you do to make sure the commercial space 
industry in the U.S. continues to grow and prosper?
    Answer. As I mentioned during my confirmation hearing, I strongly 
support and hope the Department will be a catalyst for U.S. innovation 
leadership. We must provide an environment for the commercial space 
industry to grow and, if confirmed, I will make that a priority.

    Question 10. Scientific and Professional Staff Integrity--If 
confirmed, will you work to ensure that data produced and obtained by 
the Department of Transportation are made available to the public in a 
timely manner, consistent with relevant privacy and confidential 
business information laws?
    Do you agree that only scientists and technical experts should edit 
scientific and technical content?
    Answer. If confirmed, I will support transparency and public access 
to information consistent with the law regarding privacy, 
confidentiality and national security.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                          Hon. Elaine L. Chao
    Question 1. Marinating Federal Commitments--Secretary Chao, for 
Washington state, and I imagine many states, mass transit is an 
essential part of the transportation infrastructure. In 2015, Sound 
Transit moved 34 million people in the Puget Sound region. The 
Washington State Ferry system is the largest in the country and the 
third largest transit mode in the state. If mass transit were 
eliminated in Washington state, an additional four lanes would need to 
be added to I-5 in order to handle the increased congestion.
    This robust mass transit system in Washington state is made 
possible by a strong commitment from the Federal Government. Voters in 
Washington recently approved the Sound Transit 3 initiative, a $54 
billion transit project that is partially funded through the TIFIA 
program, as well as the Small Starts and New Starts program. In 
previous administrations, the precedent has been to continue to honor 
grant agreements for projects that are currently in the works.

  <bullet> As Secretary, do you expect to advance and fund projects 
        that are already in the pipeline like Sound Transit's 
        expansions to Lynnwood and Federal Way?

  <bullet> Will you commit to funding for all Capital Investment grant 
        recipients in Washington state, including Swift II Bus Rapid 
        Transit, Madison Street Corridor Bus Rapid Transit, Seattle 
        Streetcar Center City Connector, Spokane Central City Line and 
        Tacoma Link Expansion?

  <bullet> Will you fully honor the Master Credit Agreement so that the 
        people of my region can continue to enjoy the benefit of 
        affordable loan rates for transit?

    Answer. Projects that are ``in the pipeline'' for programs such as 
Construction Investment Grants, TIFIA, RRIF or other USDOT programs do 
not yet have Federal funding commitments or grant obligations. 
Accordingly, my expectation is that projects that are in the pipeline 
for future grant agreements or funding obligations must satisfy 
applicable USDOT criteria to obtain those funding agreements or 
obligations. If confirmed, I would expect to receive appropriate 
briefings regarding the project readiness, project justification, and 
applicable local financial commitment for projects that are in the 
pipeline, as well as status updates regarding projects for which 
funding commitments already exist.

    Question 2. Crude by Rail--An extremely important issue that 
affects my constituents, as well as the rest of the nation, is the 
regulation of crude oil transported by rail. We already know the heavy 
cost a derailment can have on the people in the affected communities 
and on the economy. The recent derailment in Mosier, Oregon cost $9 
million to clean up after more than 40,000 gallons of oil leaked from 
punctured tank cars and caught fire. An explosion in Lac Megantic, 
Canada killed 47 people. 26 cities and towns in Washington state have 
passed resolutions expressing deep concerns about the safety and 
environmental threat posed by shipping crude oil by rail.
    Over the last several years, I have worked with the Obama 
administration to provide additional data and resources to first 
responders who are called to respond to dangerous emergency situations, 
clean up these oil spills and study the volatility of different crude 
oils. However, more still needs to be done by the Federal Government to 
properly regulate crude-by-rail, particularly volatility.
    As a result of my efforts, there is a volatility study being 
conducted by the Department of Energy and the Pipeline and Hazardous 
Material Safety Administration investigating the properties of crude 
oil that affect combustion, including volatility. This study will be 
completed this year.

  <bullet> After its completion, will you issue a national standard for 
        volatility?

  <bullet> How will you work with the private sector to get them to 
        cooperate developing safer volatility standards?

  <bullet> Do you plan to eliminate any regulations pertaining to the 
        safe transport of crude oil by rail?

  <bullet> Does the administration plan to suspend any ongoing 
        rulemaking relating to transporting crude oil by rail?

    Answer. The Pipeline and Hazardous Materials Safety Administration 
(PHMSA), along with other government and industry stakeholders, has 
taken significant action to increase the margin of safety for 
transporting hazardous materials. These actions culminated in the new 
tank car rule which will phase out older cars from being operated on 
our Nation's rails.
    If confirmed I will work with all stakeholders to ensure the future 
safety of commodities being transported. As far as uncompleted studies 
and initiatives go, I have not yet been briefed on these particulars 
but can say that I will look for ways to continually strengthen and 
renew our energy transportation infrastructure.

    Question 3. Davis-Bacon and Project Labor Agreements--President-
elect Trump ran for office pledging to defend the American worker. 
Federal prevailing wage law guarantees that workers on public works 
construction projects receive fair wages to support their families. One 
of my hopes for this Congress is that we can make progress on a 
bipartisan infrastructure bill. For me, and for the hardworking people 
of Washington State, it's essential that such a package contain 
protections ensuring a family wage.
    The Administration must take important step towards fulfilling its 
pledge to the American worker by supporting the prevailing wage.
    Will you support Davis-Bacon Act wage determinations in a Federal 
infrastructure package?
    Answer. The Davis-Bacon Act is current law, and it will continue to 
be so until Congress elects to change that. It is one of the duties of 
the Secretary of Transportation to ensure that the procurement and 
awarding of projects that receive Federal funding is done in compliance 
with the law.

    Will you pledge not to waive Davis-Bacon requirements for Federal 
contracts at the Department of Transportation?
    Answer. There is precedent for waiving Davis Bacon requirements in 
certain circumstances as a means to expedite recovery efforts and bring 
aid to communities after a disaster; however, these have been rare 
occurrences. It would be inappropriate for me to make a blanket promise 
along these lines without knowing more about the circumstances 
surrounding such a hypothetical decision.

    Question 4. Project Labor Agreements--Project Labor Agreements 
(PLA) are an effective tool in producing on-time and under-cost 
construction projects. As you know, the previous Administration issued 
an Executive Order (13502) encouraging the use of PLA for Federal 
construction projects. Do you support the Executive Order to use PLA in 
Federal construction projects?
    Answer. I believe that taxpayer funded construction projects should 
be awarded based upon merit, and the bidder's ability to perform the 
work capably, safely, on time and within budget. If the firm that wins 
the bid based on those criteria elects to use a PLA, I support their 
right to do so.
    President-elect Trump ran for office pledging to defend the 
American worker. Federal prevailing wage law guarantees that workers on 
public works construction projects receive a fair wage to support their 
families.

    Can you confirm that your agency will pay a prevailing wage as 
required by Federal law?
    Answer. As I stated above, the Davis Bacon Act is current law, and 
it will continue to be so until Congress elects to change that. It is 
one of the duties of the Secretary of Transportation to ensure that the 
procurement and awarding of projects that receive Federal funding is 
done in compliance with the law.

    Question 5. Unsecured Loads--Secretary Chao, an issue that I am 
interested in is the collection of data and the safety issues 
associated with unsecured loads, that is, goods being carried by 
vehicles that are improperly tied down to the roof, trunk, or truck 
bed.
    The GAO looked into this issue in November 2012 and found that 
while unsecured loads are a safety risk, improvements must be made to 
data collection so that National Highway Transportation and Safety 
Administration can better understand the scope of this problem. I 
worked with my colleagues on language in the Fixing American's 
Transportation Act (FAST) Act that encouraged the Department of 
Transportation to work with states on safety awareness campaigns for 
unsecured loads that applied for grants through the State Highway 
Safety Program.

  <bullet> What policies will you implement to improve data collection 
        on unsecured loads at NHTSA?

  <bullet> How do you plan to work with states to reduce the risk of 
        unsecured loads?

    Answer. If confirmed, I will ask NHTSA for the latest status of its 
efforts to obtain data regarding unsecured loans, and what strategies 
they have identified to improve data collection.

    Question 6. NextGen Implementation--As you know, the foundational 
infrastructure for NextGen is in place, yet the system has not been 
fully implemented. The FAA has made progress, but not as much as 
stakeholders, and members of this panel, would like to see.
    The benefits of NextGen are clear. For example, at Seattle-Tacoma 
International Airport the Greener Skies program, which depends on 
NextGen's GPS based technology to allow Required Navigation Performance 
approaches, is resulting in significant fuel savings, reducing 
pollution and saving time for passengers, all while maintaining the 
highest level of safety.
    The FAA is working on similar redesigns of the most crowded 
airspace over other cities and regions across the country, bringing the 
benefits of these ``metroplex'' redesigns to other communities and 
making the National Airspace system as a whole more efficient.
    Given these benefits to the environment, airline passengers, 
airlines, airports and surrounding communities, it is clear that we 
need to continue the work to get NextGen fully implemented.

  <bullet> Do you agree that full implementation of NextGen program, 
        including the metroplex projects which will result in more 
        efficient approach and departure procedures in our busiest 
        airspace, should be a priority?

  <bullet> Do you anticipate investment in NextGen implementation being 
        a part of the Trump Administration infrastructure investment 
        plan?

    Answer. A major component of our Nation's aviation infrastructure 
is our antiquated air traffic control (ATC) system, which is primarily 
based on World War II-era radar surveillance technology. Our nation's 
passengers, shippers and aircraft operators--as well as our world-class 
air traffic controller workforce--deserve much better. For these 
reasons, further investment in the core NextGen programs will be a 
priority.

    Question 7. Certification Reform--In the years ahead, the FAA will 
be tasked with an unprecedented amount of certification work as new 
aircraft and manufacturing techniques will be entering the market at 
the same time. The FAA Reauthorization bill which passed this committee 
last year included language that would improve and add efficiency to 
the FAA's Organization Delegation Authority (ODA) program, under which 
specially trained employees of specific manufacturers follow stringent 
FAA guidelines certify non-safety critical components on behalf of the 
FAA. Programs such as ODA will have a critical role to play in meeting 
this new demand, and ensuring that American manufacturers remain 
competitive across the globe. Can we work together to streamline FAA 
certification processes if you are confirmed?
    Answer. FAA has long been considered a global leader in aviation 
certification and safety. Many in the industry would say it has fallen 
behind the Europeans in terms of certification efficiency and 
effectiveness.

    If confirmed, will you work to help the FAA regain its global 
standing?
    Answer. Yes. If confirmed, I look forward to working with you to 
streamline FAA certification processes. It's an important ingredient to 
fostering innovation and growth in the aerospace industry.

    Question 8. Contract Towers--The Federal Aviation Administration's 
(FAA) Contract Tower Program provides a key level of safety at or below 
the cost of Federal control towers at 253 airports across the country.
    The Contract Tower Program has been endorsed by a multitude of 
users and stakeholders, including pilot groups, airport managers, and 
the National Transportation Safety Board. In 2012, a Department of 
Transportation Inspector General audit concluded that the Contract 
Tower Program provide safe Air Traffic Control services at a lower cost 
than similar FAA-operated towers.
    In 2013, the FAA attempted to close &#x200E;173 contract towers in 
order to reach savings goals under sequestration, but reversed course 
under intense pressure from industry groups and Congress.

  <bullet> Do you agree that contract towers bring critical benefits to 
        the communities they serve?

  <bullet> If confirmed, will you work to safeguard the safety of our 
        National Airspace System by protecting the Contract Tower 
        Program?

    Answer. The FAA's Contract Tower Program has been a huge success. 
It's been widely acknowledged by Congress, the National Transportation 
Safety Board (NTSB), U.S. Government Accountability Office (GAO), the 
airport community and FAA's air traffic controller workforce that the 
program has enhanced safety, reduced FAA operating costs, and provided 
tower service to communities that might not have received it otherwise.

    Question 9. Advanced Materials--As you may know, Washington State 
is a leader in advanced manufacturing in composite structures, and we 
are very proud of the work being done at the FAA Center of Excellence 
for Advanced Materials in Transport Aircraft Structures at the 
University of Washington. I have long been an advocate for additional 
research into innovative technologies that can help us improve 
efficiency and resilience in our transportation sector and help us make 
more cost-effective investments in our infrastructure. A great deal of 
attention has been focused on the use of composites in aviation, but I 
believe there are other opportunities as well.
    Are there ways to encourage additional research from across the 
Federal Government to help further a discussion about how to use 
innovative materials to build better infrastructure?
    Answer. If confirmed, I will work with Congress, NASA, and the 
industry to make sure that DOT facilitates research and innovation.

    Question 10. Customer Service Representative Assault--Incidents of 
air rage have received widespread media attention in recent years, as 
the frustrations of air travel have boiled over into violent or abusive 
behavior by passengers toward airline personnel or fellow passengers. 
Unfortunately, this violent or abusive behavior has increasingly been 
directed toward airline customer service representatives at airports, 
including gate and ticket agents. The Aviation and Transportation 
Security Act of 2001 included a provision that set Federal penalties 
for interfering with or assaulting airport and airline personnel who 
perform security duties. This is similar to a Federal statute that set 
Federal penalties for assaulting or interfering with cabin crew 
members. Unfortunately, while this provision was intended to cover gate 
agents, ramp workers, and other airline workers who control access to 
an aircraft, it has been interpreted by DOT and DOJ as only applying to 
TSA agents and law enforcement officers at airports. This 
interpretation has left gate and ticket agents who perform security 
functions without adequate Federal protections against assaults.

  <bullet> Will the DOT under your leadership modify this 
        interpretation and provide Federal protections to all airline 
        and airport personnel who perform security functions, including 
        gate and ticket agents?

  <bullet> Will the DOT under your leadership develop a comprehensive 
        plan for combating and responding to violent assaults on 
        airline customer service representatives?

    Answer. Ensuring that we have the safest air transportation system 
in the world will be my top priority. This includes the health and 
safety of passengers, airline cabin crews and other airline employees. 
If confirmed, I will review the current process for preventing and 
responding to violent assaults on airline employees, and work with the 
Transportation Security Administration (TSA) and state and local law 
enforcement officers to provide further protections.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Amy Klobuchar to 
                          Hon. Elaine L. Chao
    Question 1. Data recently released by the National Highway Traffic 
Safety Administration (NHTSA) show that after five decades of declines, 
there was a seven percent increase in traffic fatalities from 2014 to 
2015. We know that distractions behind the wheel played a part in this 
rise. I included a provision in the FAST Act to help more states 
qualify for Federal grants to fight distracted driving.
    Secretary Chao, do you agree that the Department of Transportation 
has an important role in educating drivers about the dangers of 
distracted driving?
    Answer. I believe that safety should be the top priority for the 
Department of Transportation. Increased fatalities on our Nation's 
roads are of great concern to me, and I will receive a full briefing 
from NHTSA regarding the most recent fatality numbers and causes, if 
confirmed. I will focus the agency to develop strategies regarding all 
causes of highway deaths and injuries, including distractions.

    Question 2. I was glad to hear you are committed to ensuring 
infrastructure investments benefit both urban and rural areas. I also 
want to ensure that both urban and rural areas are benefiting from 
safety improvements on our roads. Today, more than 50 percent of 
roadway fatalities occur in rural areas, even though those areas only 
account for 20 percent of the U.S. population.
    If confirmed, will you work with states and local governments to 
address safety on rural roads?
    Answer. If confirmed, I will work with the Congress to ensure that 
NHTSA and FHWA have developed strategies to protect drivers on all 
roads, even those in rural areas.

    Question 3. In the last Congress, I introduced the Stop Trafficking 
on Planes Act to require training for flight attendants to recognize 
and report suspected human trafficking. A provision based on my bill 
became law as part of the FAA Extension, Safety, and Security Act of 
2016. But human trafficking doesn't just happen on airplanes. Truck 
drivers, like flight attendants, are also on the front lines of the 
battle against human trafficking and one of the best times to identify 
human trafficking is during travel. Many truckers want to be helpful in 
the fight against human trafficking and groups like Truckers Against 
Trafficking are training truckers to identify and report human 
trafficking.
    Secretary Chao, will you work with me to find ways the Department 
of Transportation can support private sector initiatives to fight human 
trafficking across all modes of transportation?
    Answer. I look forward to working with you and other members of 
Congress, the private sector, as well as federal, state, and local law 
enforcement, on developing a comprehensive strategy for combating human 
trafficking. As you noted in your question, the ability to recognize 
and respond to potential human trafficking victims is critical for 
airline workers who interact with passengers, as well as truck drivers.

    Question 4. One of the very few industries to enjoy an exemption 
from antitrust law is the freight railroad industry. In part due to 
this exemption some rail shippers suffer from unfairly high prices. 
``Captive shippers'' that only have access to one rail line are 
particularly vulnerable. Last Congress I worked with Chairman Thune on 
a bill that was signed into law to make the Surface Transportation 
Board more effective. Still, I think there is more work to be done to 
promote fair rail competition.
    Secretary Chao, will you work with me to ensure that shippers are 
treated fairly?
    Answer. A vibrant, economic and efficient freight rail network is 
critical to the success of U.S. manufacturers, and our Nation's 
economy. As you know, the Surface Transportation Board performs a 
critical role in adjudicating service and rate disputes between 
shippers and freight railroads. If confirmed, I look forward to working 
with you to safeguard the fair treatment of all shippers.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Richard Blumenthal to 
                          Hon. Elaine L. Chao
    Question 1. The President-elect has discussed a one-trillion dollar 
infrastructure program to rebuild the country's roads and 
transportation network. Details, however, are faint, with little more 
offered so far but proposals for corporate tax breaks and giveaways 
that somehow foster private-sector investment. Even these proposals, 
however, would only focus on revenue-generating projects--not 
necessarily ones that really need attention. Tax breaks are an 
insufficient way to rebuild roads, highways, and rail. Do you agree 
that tax breaks are an insufficient way to rebuild our transportation 
network?
    Can you provide more details on the President-elect's plan? I 
understand a task force has been formed to look at this issue. When 
will it release more details? Where will passenger rail fit among the 
administration's priorities?
    Answer. As I said during my confirmation hearing, the Department of 
Transportation cannot rebuild America's infrastructure on its own. We 
must work collaboratively across the many agencies that will have a 
role in this plan. It would be inappropriate for me to speculate on 
specifics of President-elect Trump's plan before they have been 
determined.

    Question 2. The Department of Transportation is involved in the 
life of nearly every American, as we all depend on safe roads, rails, 
pipelines and air--and the safe movement of goods. Do you agree the 
Department of Transportation must be strong and proactive in putting 
forward rules and regulations to protect us all?
    In your response to the questionnaire from the Commerce Committee, 
you stress the need for ``decreasing the regulatory burdens when 
appropriate.'' Can you provide an example of such a ``burden''? What 
specific rules would you ``decrease''? What rules do you plan to 
defend? Do you agree that regulations can be a force for good?
    Answer. It would be inappropriate for me to speculate on the merit 
of specific regulations before I am confirmed and have been briefed by 
those administering and enforcing them. I believe regulations should be 
based on sound science and data and should produce demonstrable benefit 
to the American people. If confirmed, I will strive to ensure that 
DOT's regulations bring tangible benefits. In transportation, that 
means regulations that are data driven and periodically reviewed for 
efficacy.

    Question 3. In the past few years, we have had to witness an 
unfortunate phenomenon throughout DOT: regulatory capture, or as others 
call it, coziness between the regulator and the regulated. DOT isn't 
the only place this distressing situation occurs, but it has been one 
of the more blatant. At the Federal Highway Administration, the agency 
turned a blind eye to safety concerns regarding guardrails, listening 
instead to a major manufacturer's false assurances of its product's 
safety. At NHTSA, the agency held off aggressive recall efforts despite 
growing and glaring concerns regarding ignition defects and airbags. 
These are just two examples, but they happen elsewhere in other modes. 
Do you agree that regulators should focus on the public well-being, not 
private corporations' profits? How will you guard against the problem 
of regulatory capture?
    Answer. If I am confirmed, USDOT will focus on the public interest. 
I will expect USDOT to consider and evaluate the interests of all 
stakeholders, including individuals, as well as state and local 
stakeholders, and the private sector. It is my view that public safety 
should always be the Department's paramount concern.

    Question 4. Perhaps the biggest aviation issue that Congress will 
address this year is whether to spin off our air-traffic control 
services and transfer their control from the FAA to a private entity 
that would have outsized influence from airlines. I have many concerns 
about privatizing our country's air traffic control system, especially 
the negative impact it could have on consumers. During your testimony, 
you mentioned that you have yet to form a conclusion on this. What is 
your time-frame for developing a position on this issue? To what extent 
will you value consumer protection in your analysis?
    Answer. If I am confirmed, reviewing the ATC reform proposal 
included in the AIRR Act, as well as the governance and financing 
proposals adopted by other nations, will be an immediate priority since 
the current authorization expires on September 30, 2017. I assure you 
that consumer protection will be an important consideration in my 
review.

    Question 5. We've seen many disasters on our rail network in recent 
years. A significant number of these disasters have happened on Metro-
North Railroad, affecting my constituents. What lessons have you 
learned from these disasters? What's the first thing you'll do to 
improve rail safety? Do you believe this is an example where the 
Federal Government should require action?
    Answer. Maintaining the safety of our Nation's transportation 
network must be one of the top priorities of the Department of 
Transportation. The 2013 Metro-North Railroad accident that lead to the 
death of four riders was a terrible tragedy. If I am confirmed, one of 
my first priorities will be to receive a complete review of the 
circumstances surrounding the Metro-North accident as well as the 
current state of rail safety in America. Upon completion of this 
review, I look forward to following up with you to address any needed 
action from the Department.

    Question 6. There's one function that's uniquely housed within the 
Secretary's office--the Office of Aviation Enforcement and Proceedings, 
including its Aviation Consumer Protection Division, which focuses on 
consumer issues. Under current law, consumers and states lack a private 
right of action regarding unfair, deceptive, and anti-competitive 
practices against airlines. Consumers' only recourse is to file a 
complaint with DOT, hope DOT pursues the matter through administrative 
remedies and civil fines. These remedies--like cease and desist 
orders--can be weak, and fines (which are negotiated) can be weak as 
well. For example, in 2015 DOT levied $2.7 million in fines against an 
industry with nearly $169 billion in annual revenue. And that's just 
for unfair consumer practices. The situation is worse for persons with 
disabilities trying to assert their rights to be accommodated when 
flying. Only DOT can assert their claims and receive damages. In 2014, 
passengers filed 772 disability-related complaints with DOT about 
airlines. But the U.S. Department of Transportation does little with 
these individual complaints, taking real action only when there are ``a 
number of complaints'' against one airline, as DOT wrote one disabled 
passenger. Even then enforcement is rare. For example, in 2015, there 
were no enforcement orders against any airlines. In 2014, there was 
just one.
    Would you agree the current framework is a giveaway to the airlines 
with a long-running, unintended effect that protects airlines from 
regulation and vigorous oversight? Wouldn't allowing a private right of 
action--in addition to continuing to allow DOT enforcement efforts--
make real, structural changes to how airlines operate and interact with 
the public?
    Answer. If confirmed, I will review recent DOT enforcement actions 
against airlines to ensure that passenger complaints are considered in 
a fair, expeditious manner, and that existing passenger protection 
rules, including those designed to protect the rights of persons with 
disabilities, are vigorously enforced. I will take seriously the 
statutory mandate to prevent unfair, deceptive, and anticompetitive 
practices in air transportation.

    Question 7. Nearly 4,000 people are killed in truck accidents each 
year, and 97 percent of those are drivers or passengers in a passenger 
car. What will be your approach toward ending the scourge of deaths 
from trucks on our highways?
    Answer. As I noted in my confirmation hearing, safety will be the 
number one priority for the Department under my leadership. Technology 
can leverage safety achievements and incentives for encouraging fleet 
owners to invest in safety technologies on their commercial vehicles, 
and is important to saving lives on our highways. The use of Electronic 
Logs, for example, have been a high priority for the FMCSA.
    It is also my understanding that DOT believes half of all CMV 
accidents are actually caused by automobiles. If confirmed, I will ask 
the NHTSA and FMCSA Administrators to work closely together to develop 
and implement a safety plan that will reverse the increasing accident 
numbers from recent years.

    Surveys of trucks drivers show many are fatigued and many often 
fall asleep at the wheel--endangering us all. They need rest. How will 
you address fatigue?
    Answer. Congress recently enacted language in the FY 2016 
appropriations legislation, that required FMCSA to complete a study 
about provisions of the 34-hour restart. If confirmed, I will submit 
the information to those specified in the enacted legislation.
    Additionally, The FMCSA Electronic Logging Devices (ELDs) and 
Hours-of-Service (HOS) Supporting Documents Rulemaking fulfills a 
statutory requirement of the Moving Ahead for Progress in the 21st 
Century Act (MAP-21), enacted by Congress in July 2012. The final rule 
was published on December 15, 2015, and establishes: Requirements for 
the mandatory use of ELDs by drivers currently required to prepare HOS 
records of duty status (RODS); Minimum technical specifications for 
ELDs, including a requirement to certify and register ELD systems with 
FMCSA; Requirements for HOS supporting documents; and Measures to 
address concerns about harassment resulting from the mandatory use of 
ELDs. The compliance date for the ELD Final Rule is December 18, 2017. 
As stated above, this rule is designed to positively affect the fatigue 
issues that have historically existed in the motor carrier industry.
    After FMCSA published the final ELD Rule, the Owner-Operator 
Independent Drivers Association (OOIDA), and two individual owner-
operator truck drivers, filed a challenge to the rule in the United 
States Court of Appeals for the Seventh Circuit. The American Trucking 
Associations, Inc., and, in a joint filing, the Trucking Alliance for 
Driver Safety and Security and the Advocates for Highway and Auto 
Safety, filed amicus briefs in support of the final rule. On October 
31, 2016, the court denied the petition for review and held that the 
ELD rule is not arbitrary or capricious, nor does it violate the Fourth 
Amendment.

    There have been many efforts over the past year to increase the 
size and weight of trucks on our highways, something Americans clearly 
don't want. Bigger trucks are terrifying--and unsafe, as they take 
longer to stop and can sway. They also cause more wear and tear on our 
already worn-out roads. Will you fight to ensure that trucks are not 
allowed to get longer and heavier?
    Answer. I recognize there is a lack of consensus on truck size and 
weight. The FAST Act requires the U.S. DOT to submit to the Committee 
on Commerce, Science, and Transportation of the Senate, and the 
Committee on Transportation and Infrastructure of the House of 
Representatives a report describing the safety and enforcement impacts 
of sections 5520, 5521, 5522, 5523, 5524, and 7208 of the FAST Act. If 
confirmed, I will ensure that FHWA will require safety and enforcement 
information for this report as part of the State enforcement plan 
required under 23 CFR 657.

    Question 8. Ten years ago, national safety advocates first urged 
DOT to mandate the installation of speed-limiting devices on large 
truck to prevent them from traveling at dangerous speeds on U.S. roads 
and highways. Trucking industry representatives joined this call, 
recognizing the dramatic savings in lives and dollars that would come 
from such a mandate. In August, after years of analysis, DOT put 
forward a proposed rule that would carry out this vision, mandating 
speed limiters on any vehicle heavier than 26,000 pounds, including 
commercial trucks, intercity passenger buses, and school buses. The 
faster large vehicles travel, the deadlier they can become. Large 
vehicles already take longer to stop than smaller passenger vehicles. 
And just a small increase in speed leads to an exponentially large 
increase in kinetic energy, which can cause far greater damage and 
destruction in a crash--especially to those traveling nearby in much 
smaller, lighter passenger vehicles. Crashes involving large vehicles 
kill around 4,000 people each year and injure more than 100,000. 
Speeding has been identified as a possible factor in as many as 23 
percent of these crashes. A vehicle with a functioning speed limiter is 
only half as likely to be involved in a crash as a vehicle without an 
operating device. DOT put forward a proposed rule in August will save 
hundreds of lives and prevent thousands of injuries. A strong, sensible 
rule will save millions of dollars and will respond to strong public 
sentiment that wants speeding trucks to simply slow down. It will 
ensure that no trucking company creates an uneven playing field, 
tolerating speeding while competitors comply with the law. It will 
ensure that large vehicles are going no faster than their tires and 
other parts were designed to handle. Do I have your commitment to 
completing this rule?
    Answer. As I stated above, I am aware that despite efforts of the 
current administration, trucking crashes have increased in recent 
years. If confirmed, I will ask the FMCSA and NHTSA Administrators to 
work together closely to identify the root cause of accidents, and why 
the current regulatory posture of the agency has not effectively 
reduced these number and to see what initiatives will be effective at 
reducing the number of crashes, deaths and injuries.

    Question 9. Last month, Congress passed the Water Infrastructure 
Improvements for the Nation (WIIN) Act, a $10 billion bill that makes 
major investments in the country's water infrastructure. The bill 
largely focused on the Army Corps of Engineers--outside the purview of 
DOT. But DOT has tremendous oversight of our country's maritime 
economy, freight, and ports and the WIIN Act shows that bipartisan 
action and investment is possible. What is your plan to improve the 
economic viability of our country's ports, especially the three ports 
that we have in Connecticut?
    Answer. I recognize the important role our country's ports and 
harbors play in our economy. This infrastructure is critically 
important and we must ensure our Nation's multi model freight network 
incorporates every mode of transportation. If confirmed, I plan to make 
sure that our ports connect our farmers, manufacturers, and consumers 
to the world marketplace, and I will work with all of our modes of 
transportation to ensure we have a safe, secure and efficient system.
    I also look forward to being briefed on the revised National 
Maritime Transportation Strategy which has been under development for 
some time within the DOT.

    Question 10. In 2012, Congress passed the Motorcoach Enhanced 
Safety Act of 2012 as part of MAP-21, a major surface transportation 
reauthorization bill. The law requires a number of efforts to improve 
motorcoach safety. These efforts were mandated in the aftermath of 
several horrific incidents. One provision requires improvements in the 
roof strength and crush resistance of large, intercity buses--aka 
motorcoaches. Another requires improvements to prevent passengers from 
being ejected through windows. These mandates were all due by October 
2014, but they still remain unmet. Will you ensure that the basic 
motorcoach safety regulations required by MAP-21 that are still 
outstanding are issued promptly without any further delay?
    Answer. If confirmed, I will require an immediate update from NHTSA 
and FMCSA on the MAP-21 requirements.

    Question 11. The use of smart phones has proliferated in recent 
years and led to an alarming increase in incidents of distracted 
driving. What steps will you take to prevent distracted driving and the 
dangers it can cause on our roads?
    Answer. If confirmed, I will request an update on the status of DOT 
actions to date in regard to distracted driving and what strategies are 
being recommended to augment state and local initiatives to deal with 
this significant safety problem.

    Question 12. Thousands of pedestrians are killed every year and 
tens of thousands of pedestrians are injured. What steps will you take 
to end pedestrian deaths and injuries? Will you support safety 
standards for the hood and bumper areas of motor vehicles in order to 
reduce the severity of injuries suffered by pedestrians and bicyclists 
that frequently result in death and lifelong disabilities?
    Answer. If confirmed, I will obtain appropriate briefings regarding 
structural changes to motor vehicles that could reduce the severity of 
injuries to pedestrians and bicyclists.

    Question 13. The North American Free Trade Agreement (NAFTA) opened 
opportunities for trucking companies domiciled in Mexico to operate 
within the United States. The Department of Transportation undertook a 
pilot program allowing certain Mexico-domiciled carriers to operate in 
the U.S. and concluded such carriers could operate safely in this 
country. The DOT Inspector General, however, found that the pilot 
program was flawed and produced unreliable results. How will you 
address the concerns raised by the Inspector General? Will you oppose 
allowing Mexico-domiciled trucks to operate in the U.S.?
    Answer. If confirmed, I will expect to receive briefings on the 
requirements of current law and treaties applicable to this issue, and 
the status of any discussions the Department has had with its 
counterparts in Mexico.

    Question 14. Many states--including Connecticut--provide workers 
with mandatory meal and rest breaks. These laws have existed for nearly 
a century in some states and are critical for all kinds of workers, 
protecting them from workplace fatigue and related accidents, injury 
and death. These laws also apply to commercial truck drivers, with some 
exemptions. Federal courts have ruled these laws are not pre-empted by 
Federal law. Some seek to pre-empt these meal and rest break laws so as 
to maximize the workday of truck drivers. If this happens, there would 
be fewer opportunities and incentives for truck drivers to rest. Are 
you concerned about these efforts? Will you defend these important 
safety laws?
    Answer. Safety will be the number one priority for the Department. 
There have been several judicial rulings in recent years concerning 
mandatory rest breaks for truck drivers. The U.S. Supreme Court 
declined to review a 9th Circuit Court of Appeals 2014 ruling 
concerning this matter. I am concerned to what extent state laws could 
affect the Department's jurisdiction and role in regulating trucking 
but I have not been briefed on this issue and will be glad to look into 
it if confirmed.

    Question 15. About 10,000 people die each year because of alcohol-
impaired driving. This annual figure has remained steady for two 
decades. As we consider ways to eliminate preventable deaths, we must 
examine changes to the laws around alcohol impaired driving. Do you 
support efforts to highlight the message that driving under the 
influence of alcohol at any level is impairing?
    Answer. Yes. USDOT has an important role in educating the public 
regarding driving under the influence of alcohol and other substances 
that can impair drivers.

    Question 16. Do you agree that all NHTSA recalls are safety 
recalls, address an unreasonable risk to safety, and should be promptly 
repaired?
    Answer. USDOT and NHTSA should seek to ensure that all safety 
recalls are promptly repaired, particularly if the reason for the 
recall poses an unreasonable risk to safety.

    Question 17. One pressing safety issue for children involved in 
crashes is that even when properly secured in a child restraint, 
failure of a front seatback in a crash may put back seat passengers--
especially infants and children--at serious risk of injury or even 
death. According to a child rear impact study commissioned by the 
Center for Auto Safety, approximately 50 children placed behind 
occupied seats die annually in rear impact incidents.
    If confirmed, will you upgrade the safety standard for seatback 
performance to better protect back seat passengers?
    Answer. If confirmed, I will seek appropriate briefings regarding 
this issue and will fully consider upgraded standards for seatback 
performance.

    Question 18. Nearly 1 in 5 vehicles on our Nation's roads have 
unrepaired safety defects. In 2015, nearly 900 million vehicle recalls 
involving 51 million vehicles were issued, eclipsing the previous 
record set in 2014. Accordingly, millions of vehicles on our Nation's 
roads and highways have critical safety defects that have not been 
repaired.
    If confirmed, what specific actions will you direct NHTSA to take 
to increase the recall completion rate and reduce the number of cars 
with open safety recalls from our Nation's roads?
    Answer. If I am confirmed, USDOT will have no more important 
mission than safety and security. I will obtain full briefings 
regarding ways for NHTSA to increase the recall completion rate.

    Question 19. While new car dealers are required to repair safety 
recalls before selling vehicles with open recalls, there is no 
requirement that used car dealers fix any outstanding safety defects 
before selling a used car. Do you agree that used car dealers should 
not be allowed to sell used vehicles with unrepaired safety defects?
    Answer. If confirmed, I will seek appropriate briefings regarding 
this issue and will fully consider the issue of requiring used car 
dealers to repair open safety recalls before selling used vehicles.

    Question 20. The Department of Justice recently charged six VW 
executives in its emissions-cheating scandal, and announced that the 
company has pled guilty to three criminal felony counts and agreed to 
pay a total of $4.3 billion in criminal and civil penalties. In 
contrast, GM was not charged and was only ordered to pay a mere $900 
million in penalties for an ignition switch defect that has been tied 
to at least 124 deaths. Neither GM nor any of its executives faced any 
criminal charges despite accusations of misleading safety regulators 
and delaying potentially lifesaving decisions. Families who lost loved 
ones as a result of the GM ignition switch defect deserve an explicit 
acknowledgment of criminal wrongdoing, individual criminal 
accountability, as well as a larger monetary penalty. Do you agree that 
automakers and their executives that conceal a dangerous product for 
over a decade and that kills 124 people should face criminal penalties?
    Answer. If I am confirmed, I would expect USDOT to work with other 
appropriate Federal agencies to pursue all appropriate remedies against 
persons who harm the public with unreasonably dangerous products.

    Question 21. I am concerned about the unnecessary use of hazardous 
flame retardant chemicals, which have been linked to serious health 
effects and environmental harms. Children are especially vulnerable to 
the toxic effects of these chemicals since their brains and bodies are 
still developing. Most children's car seats contain these dangerous 
chemicals in order to comply with for flammability standards for 
vehicles and children's car seats set by NHTSA. NHTSA recently 
initiated a two-year research program on flammability standards, 
including those for children's car seats.
    If confirmed, will you support this research and work to update the 
Federal Motor Vehicle Safety Standards to eliminate the unnecessary 
exposure to toxic flame retardant chemicals from children's car seats?
    Answer. If confirmed, I will seek appropriate briefings regarding 
this issue and will fully consider the issues surrounding the use of 
flame-retardant chemicals, including any ongoing research.

    Question 22. In September 2016, NHTSA issued the Federal Automated 
Vehicle Policy, updating its previously issued 2013 guidance on 
autonomous vehicles (AV). These guidelines are not mandatory. In May of 
2016, a Tesla Model S equipped with Tesla Autopilot crashed, raising 
questions as to the performance of the vehicle's technology and whether 
it caused or contributed to the crash.
    It's been reported that several auto manufacturers including Tesla, 
Ford, BMW, and Volvo are promising to have fully autonomous cars on the 
roads within five years. The next Secretary of Transportation will play 
a critical role as we enter a new period of advanced automated 
technologies in transportation.
    Do you have any concerns that voluntary guidelines may be 
insufficient to protect the American public from unreasonable risk of 
crashes involving AVs during the testing and deployment of this 
technology?
    Should DOT require manufacturers of AVs to perform a minimum level 
of due diligence testing and analysis to ensure that AVs work safely 
and properly before they are tested on public roads or sold to 
consumers?
    If confirmed, will you commit to instituting an effective 
regulatory framework for automated vehicle technology, including 
automatic emergency braking systems currently being sold without any 
performance guarantee for consumers that provides a level playing field 
for developers and manufacturers and insures public safety?
    Answer. If confirmed, I will seek appropriate briefings regarding 
this emerging technology, including the issues of voluntary guidelines 
for AV manufacturers, testing and analysis of AV technology and 
applications, and will fully consider an appropriate regulatory 
framework for AV technology.

    Question 23. It has been reported that Takata, the airbag supplier 
responsible for the unprecedented recall affecting 42 million vehicles 
in the United States, is actively soliciting new investors and 
contemplating bankruptcy or similarly major restructuring in order to 
keep factories running and manufacturing replacement airbag. Do you 
agree that any restructuring of Takata should occur on terms that 
accelerate the availability of replacement parts, end the dangerous use 
of ammonium nitrate as an airbag propellant, and help the overall 
recall effort?
    Answer. If confirmed, I will seek appropriate briefings regarding 
this issue and will fully consider an appropriate USDOT position with 
respect to any Takata restructuring.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Richard Blumenthal 
             and Hon. Edward Markey to Hon. Elaine L. Chao
    Question 1. The Jones Act prohibits any foreign-built or foreign-
flagged vessel from engaging in trade between two U.S. ports. Only U.S. 
ships can go from U.S. port to other U.S. ports. This law, which has 
been around for decades, is a critical measure that protects the U.S. 
domestic maritime industry.
    As the head of the department charged with carrying out this 
important law and making sure it has teeth, what can you say about the 
importance of the Jones Act and the need to have a strong U.S.-flagged 
fleet? Will you commit to supporting an American maritime industry that 
provides American economic, military, and homeland security?
    Answer. The Jones Act is designed to provide our country with a 
strong U.S. Flag fleet that engages in trade between our U.S. Ports and 
is available to meet national security requirements. I support the U.S. 
Jones Act and the American maritime industry it serves. If confirmed, I 
will look for ways to help increase opportunities to increase the 
number American merchant mariners and ships needed to serve our 
country's economic needs and to meet our defense sealift requirements.

    Question 2. The Department's current occupant crash protection 
standards require vehicles to include warning labels informing 
consumers stating: ``The BACK SEAT is the SAFEST place for children.'' 
However, we understand that the seat back failure risk can be mitigated 
by placing children behind unoccupied front seats, such as the empty 
middle seat, for which there is no front seat, or behind the lighter 
front seat occupant. Consumers are currently not advised that the 
middle seat may be the safest. In the meantime, ensuring consumers have 
this critical information could be a good and commonsense first step.
    If confirmed, will you ensure consumers have the most accurate and 
up-to-date information regarding the safest seat and position for 
children?
    Answer. Yes. If I am confirmed USDOT under my leadership will work 
to develop and disseminate the appropriate information.

    Question 3. Major airlines have taken actions to prohibit third-
party travel websites from accessing published fare, schedule, and seat 
availability data. We believe consumers should be able to make apples-
to-apples comparisons among fares and flights and select the best price 
and itinerary for themselves. Promoting access to transparent pricing 
information is not only good for consumers, it is also good for 
competition in the airline industry. In October, DOT announced it would 
seek public comment on actions airlines have taken to restrict online 
travel sites from listing publicly available fare and flight 
information. So far, over 50,000 comments have been filed underscoring 
the importance of comparison shopping and the need for transparency in 
the marketplace.

  <bullet> Do you think it is important for airline consumers to have 
        access to information they need to make informed purchasing 
        decisions?

  <bullet> If confirmed, will you use take action to ensure that 
        airline consumers have access to comprehensive, transparent 
        flight information?

    Answer. I have not yet been fully briefed on this issue. If 
confirmed, I look forward to working with Congress after I have a 
better understanding of the subject and your concerns.

    Question 4. NHTSA plays a critical role in overseeing recalls and 
making sure they proceed expeditiously, and is responsible for 
overseeing the largest and most complex safety recall in U.S. history--
the Takata airbag recall. The Takata airbag defect has resulted in 11 
deaths and over 180 injuries in the United States, to date, and the 
largest civil penalty in NHTSA's history. Test data released by NHTSA 
reveal that certain vehicles with these defective Takata airbags show 
rupture rates as high as 50 percent in a crash.
    If confirmed, what will you do to accelerate the replacement of 
these dangerous defective devices?
    Answer. If I am confirmed, USDOT and NHTSA will work to encourage 
expeditious replacement of defective Takata airbags.

    Question 5. Car Cybersecurity--In October 2016, the National 
Highway Traffic Safety Administration (NHTSA) issued guidance for 
improving motor vehicle cybersecurity to protect vehicles from 
cyberattacks. The guidance recommends that automakers sufficiently 
allocate resources to enhance product development, research, testing, 
and authentication of cybersecurity protections. However, this guidance 
from NHTSA is merely voluntary. How do you plan to monitor and enforce 
vehicle cybersecurity initiatives given that the guidance is voluntary? 
Do you agree that the automotive industry and consumers would benefit 
from a regulatory framework that outlines mandatory requirements for 
vehicle cybersecurity systems?
    Answer. If confirmed, I will seek appropriate briefings regarding 
this issue and will fully consider how to monitor voluntary compliance, 
and whether and how to promulgate regulations for vehicle 
cybersecurity.

    Question 6. Dedicated Short Range Communications (DSRC)--In 
December, the Department of Transportation (DOT) released a proposed 
rule that may require new light-duty vehicles to have vehicle-2-vehicle 
communication technologies. These technologies use Dedicated Short 
Range Communications (DSRC) to share speed, direction data, and other 
transportation information to prevent accidents and reduce congestion.
    While these new technologies have the potential to save lives, 
security and privacy cannot be an afterthought in this new era of 
connected cars. If hackers access a vehicle's systems, privacy could be 
compromised, the safety of the vehicle could be put at risk, and 
disaster could ensue.
    As this important rulemaking proceeds, how would you ensure that 
vehicles have robust cybersecurity and privacy protections in place 
when automakers deploy vehicle-2-vehicle and vehicle-2-infrastructure 
communication technologies?
    Answer. If confirmed, I will receive a full briefing from NHTSA 
regarding all proposed Vehicle-2-Vehicle or Vehicle-2-Infrastructure 
regulations. I want to ensure that any such regulations are safe, 
secure, and useful to the driving public. I appreciate the role that 
new technology can play in saving lives. That said, safety, security 
and privacy in the motor vehicle is of paramount importance.

    Question 7. Aircraft Cybersecurity--As new technologies continue to 
enhance all aspects of the airline industry, airplanes and airline 
operations have become increasingly interconnected. With these 
technological advancements come great benefits, including improved 
flight navigation, additional communications abilities, and greater 
operational efficiency. However, we are concerned that these 
technologies may also create vulnerabilities that if exploited could 
threaten our aviation safety and security.
    Recently, the Federal Aviation Administration's (FAA) Aviation 
Rulemaking Advisory Committee (ARAC) submitted a report and provided 
cybersecurity rulemaking recommendations to the FAA.
    In light of this report, would you direct the FAA to initiate a 
rulemaking to ensure our aircraft, ground support equipment, and 
operations and maintenance practices are protected from cyberattacks?
    Answer. As I indicated during my testimony before the Committee, 
safety is my top priority. As you know, security and safety go hand-in-
hand. One of the most important aviation safety issues today is 
cybersecurity given the enhanced connectivity of aircraft. I am aware 
of the ARAC report. If confirmed, I will review to determine whether 
regulatory action to ensure that we have a strong aircraft systems 
information security and protection (ASISP) policy. I look forward to 
working with Congress, the Transportation Security Administration (TSA) 
and the private sector to combat unauthorized access to aircraft 
systems and networks.

    Question 8. FAIR Fees--Airline fees have climbed as high as the 
planes passengers are traveling on, and we must stop their rapid ascent 
to protect the everyday airline passenger. Will you investigate and 
take action against airlines charging fees that are unfair?
    Answer. I will take seriously the statutory mandate to prevent 
unfair, deceptive and anticompetitive practices in air transportation. 
This would include vigorous enforcement action against any air carrier 
that imposes ancillary fees in an unfair or deceptive manner.

    Question 9. 18-Year-Old Truckers--The Fixing America's Surface 
Transportation (FAST) Act contained a provision permitting members of 
the military and veterans between the ages of 18 and 21 to drive large 
trucks across state lines. Given the higher rate of accident among 
teenagers, how will you ensure this pilot program does not result in 
more deaths on our roads?
    Answer. The Fixing America's Surface Transportation (FAST) Act 
required the Federal Motor Carrier Safety Administration (FMCSA) to 
conduct a pilot program which allows a limited number of individuals 
between the ages of 18 and 21 to operate commercial motor vehicles in 
interstate commerce, if they received specified heavy-vehicle driver 
training while in Military service and are sponsored by a participating 
motor carrier.
    If confirmed, I will work to ensure that our veterans are given 
every opportunity to demonstrate safe compliance with operating 
commercial vehicles. The outcomes of any pilot will ensure the 
department remains focused on safety.

    Question 10. Safety Scores--How would you ensure Americans can 
readily access accurate safety information and data on motor carrier 
safety? What specific steps will you take to ensure that full safety 
scores will again be made publicly available? When will this occur?
    Answer. The FAST Act required the National Academies of Science 
(NAS) to conduct a thorough safety correlation study of Compliance, 
Safety, Accountability (CSA) and the Safety Management System (SMS). A 
contract with the NAS was awarded in February 2016. Within 18 months of 
the enactment of the FAST Act (June 2017), FMCSA is to submit the 
results of this study, and any planned actions in response to the study 
to both Congress and the OIG. The results will also be published on a 
publicly-accessible DOT website.

    Question 11. Driver Fatigue--While driver fatigue is one of the 
leading causes of motor carrier crashes, it is also one of the most 
preventable. What specific steps would you take to keep tired truck and 
bus drivers off the road? How have recent actions by Congress on hours 
of service regulations impacted safety on our roads?
    Answer. Congress recently enacted language in the FY 2016 
appropriations legislation, that required FMCSA to complete a study 
about provisions of the 34-hour restart. If confirmed I will review and 
submit the information to those specified in the enacted legislation.
    Additionally, The FMCSA Electronic Logging Devices (ELDs) and 
Hours-of-Service (HOS) Supporting Documents Rulemaking fulfills a 
statutory requirement of the Moving Ahead for Progress in the 21st 
Century Act (MAP-21), enacted by Congress in July 2012. The final rule 
was published on December 15, 2015, and establishes: Requirements for 
the mandatory use of ELDs by drivers currently required to prepare HOS 
records of duty status (RODS); Minimum technical specifications for 
ELDs, including a requirement to certify and register ELD systems with 
FMCSA; Requirements for HOS supporting documents; and Measures to 
address concerns about harassment resulting from the mandatory use of 
ELDs. The compliance date for the ELD Final Rule is December 18, 2017. 
As stated above, this rule is designed to positively affect the fatigue 
issues that have historically existed in the motor carrier industry.
    After FMCSA published the final ELD Rule, the Owner-Operator 
Independent Drivers Association (OOIDA) and two individual owner-
operator truck drivers filed a challenge to the rule in the United 
States Court of Appeals for the Seventh Circuit. The American Trucking 
Associations, Inc., and, in a joint filing, the Trucking Alliance for 
Driver Safety and Security and the Advocates for Highway and Auto 
Safety filed amicus briefs in support of the final rule. On October 31, 
2016, the court denied the petition for review and held that the ELD 
rule is not arbitrary or capricious, nor does it violate the Fourth 
Amendment.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Brian Schatz to 
                          Hon. Elaine L. Chao
    Question 1. As discussed in the hearing, Senator Heller and I 
worked to include safe streets provisions in the FAST Act. 
Specifically, these provisions require that the agency encourage states 
and MPOs to adopt safe streets policies and design standards, develop a 
report to Congress that identifies the level of adoption and best 
practices.
    If confirmed, can you provide my office a list of state or MPOs 
that USDOT has worked with to support adoption of safe street policies?
    Answer. If I am confirmed, I expect to request that USDOT provide 
your office with a list of state or MPOs that USDOT has worked with to 
support adoption of safe street policies.

    Question 2. In October of 2016 the Road to Zero coalition was 
created in partnership with NHSTA, FMCSA, FHWA, and the National Safety 
Council. The coalition is committed to reducing the number of roadway 
fatalities to zero within thirty years. Today that coalition has the 
support and participation of a diverse array of stakeholders including 
government agencies, advocacy groups, manufacturers, technology 
companies, and more.
    As discussed in your nomination hearing, safe streets planning and 
design is a cost-effective solution to preventing fatalities. Will you 
work to ensure FHWA's staff are engaged in the coalition's work to make 
sure safe streets practices are a central focus of the coalition's 
work?
    Answer. If I am confirmed, I expect to work to ensure that FHWA 
staff appropriately supports the work of the coalition.

    Question 3. The Maritime Security Program (MSP) maintains a 60-ship 
fleet of privately-owned U.S.-flag ships operating in international 
commerce. These ships are made available to the Department of Defense 
(DOD) to meet military sealift requirements. This program is 
administered by the agency through MARAD.
    MARAD approved the replacement of two 5,000-TEU MSP containerships 
with two smaller 1,100 and 1,600 TEU MSP containerships and permitted 
them to operate in a domestic trade (i.e., Guam) competing against an 
American shipping company that does not receive any MSP stipend.
    This development is concerning. The MSP was intended to maintain a 
U.S.-flag fleet in international trades. It was not intended to provide 
financial support for U.S.-flag vessels carrying cargo between domestic 
ports. It was not intended to create an unfair playing field for 
domestic trades, whereby one U.S.-flag operator receives financial 
support from the government and the other does not.
    Will you prioritize the review of this situation? I look forward to 
working with you on this issue because we must ensure that MARAD is not 
paying MSP operators for the period in which they carry cargo in 
domestic trades, and competing in those same trades against American 
shipping companies that do not receive MSP payments.
    Answer. I understand and appreciate the importance and role of the 
Maritime Security Program (MSP). Thank you for bringing this to my 
attention, and if confirmed, I will request a briefing with the 
Maritime Administration in order to consider this issue further and 
will work with your office once this has occurred.

    Question 4. Sprawling development patterns are more expensive to 
operate on a per capita basis and strain municipal budgets. That is why 
it is so important that DOT promote better transportation and land use 
development, especially around quality transit. My state has 
prioritized smart, transit oriented development (TOD) that will enable 
us to maximize economic development from our transportation investments 
and reduce government operating costs.
    TOD offers a mix of development uses and amenities within a 
walkable distance of quality transit. It encourages greater transit 
ridership, which decreases operating subsidies. It also improves 
location efficiency for individuals to access essential destinations 
such as jobs, groceries, or health care visits.
    Congress recognizes the importance of TOD and has established a TOD 
planning grant program to support grant recipients of FTA's Capital 
Investment Grant program. FTA has also established a technical 
assistance program to support TOD strategic plans. Honolulu is 
scheduled to receive TOD technical assistance from FTA in April 2017.
    Can I get your commitment to work with me to ensure Honolulu's TOD 
technical assistance goes forth as scheduled?
    Answer. If I am confirmed, I expect USDOT to continue to provide 
appropriate TOD technical assistance to Honolulu.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Edward Markey to 
                          Hon. Elaine L. Chao
    Question 1. Seatback Failure--Front seatback failures during a 
rear-end crash can jeopardize the safety of back seat passengers. Since 
the 1996 Airbag and Seat Safety Campaign informed adults that the 
safest place for infants and children is in an automobile's back seat, 
these young vehicle occupants are especially vulnerable to injury or 
even death due to front seatback collapse. Yet, the U.S. Department of 
Transportation has not updated Federal Motor Vehicle Safety Standard 
(FMVSS) 207--the regulation that defines seat back strength standards--
since 1967. Meanwhile, the Center for Auto Safety reported an average 
of 50 children placed behind occupied front seats have died each year 
in rear-end incidents. Further, at least 3,455 injuries and 326 deaths 
from vehicle accidents between 2003 and 2016 across 16 automakers refer 
to a seating issue in their report to the Early Warning Reporting 
system.
    Given the number of deaths and injuries associated with rear-end 
collisions that result in seat system failures, will you review and 
promulgate updates to seating standards, including the half-century-old 
FMVSS 207?
    Answer. As I stated during my hearing, if I am confirmed, safety 
will be the number one priority for all transportation modes in the 
Department. Every pending and proposed safety rule, as well as all 
future rulemaking, will be based on data-driven, risk-based analysis.

    Question 2. Early Warning Reporting (EWR)--The National Highway 
Traffic Safety Administration's (NHTSA) Early Warning Reporting 
requirements were established in 2000 after the Ford/Firestone safety 
crisis in which defective tires caused Ford trucks to roll over. These 
requirements were supposed to provide more information about 
potentially fatal safety defects to the public. But NHTSA's regulations 
that implemented the Early Warning Reporting system allow automakers to 
keep accident reports secret. Will you direct NHTSA to make more EWR 
documents public in order to increase transparency and save lives?
    Answer. If confirmed, I will review with NHTSA the current 
reporting requirements for auto manufacturers. Early Warning Reporting 
data is valuable to the agency, and I will receive a briefing regarding 
what data is collected and how it is used. I will work to ensure the 
agency protects proprietary information, while still sharing important 
safety data with the public.

    Question 3. Tire Pressure Monitoring Systems--The National Highway 
Traffic Safety Administration's (NHTSA) current rules allow drivers to 
recalibrate tire pressure monitoring systems, which electronically 
gauge if a vehicle's tires have the appropriate air pressure, to 
dangerous pressure levels without alerting the driver. As a result, 
drivers could unintentionally increase the risk of a tire failure or 
blow out. To address this safety hazard, I included a provision 
(Section 24115) in the Fixing America's Surface Transportation (FAST) 
Act that requires NHTSA to update its rules to ensure that tire 
pressure monitors cannot be recalibrated to unsafe levels. My provision 
requires the Department of Transportation (DOT) to publish proposed 
rule by December 4, 2016. As the Secretary of Transportation, will you 
swiftly complete this rulemaking?
    Answer. If confirmed, I will review NHTSA's work regarding any 
proposed regulation concerning tire pressure monitoring systems. While 
a vehicle owner is free to modify a purchased vehicle, it is important 
to ensure that after-market changes are not inadvertently dangerous. If 
NHTSA has been directed by law to propose a rule making, I will work 
with the agency to meet deadlines and to keep Congress apprised of any 
issues or problems related to the proposal.

    Question 4. Secondary Barriers--The 9/11 Commission described 
``failures of imagination'' as a primary reason we were unable to 
prevent those fateful attacks. That's why I support expanded use of 
secondary barriers, which is a fortified screen that protects the 
aircraft cockpits while the cockpit door is opened. These secondary 
barriers could prevent another tragedy. Will you initiate a rulemaking 
to require aircraft to have secondary barriers?
    Answer. Aviation safety will be my highest priority. In response to 
the terrorist attacks of September 11, 2001, the Transportation 
Security Administration (TSA) has established a multi-layered, risk-
based approach to aviation security that has prevented any breaches of 
cockpit security in the United States. One of the security mandates 
that resulted from 9/11 is the installation of fortified cockpit doors 
on commercial aircraft. If confirmed, I will ask the FAA to determine 
whether the installation of secondary cockpit barriers are necessary to 
further enhance cabin security.

    Question 5. Airplane Noise--What steps should the Federal Aviation 
Administration take to abate noise around airports, including Boston's 
Logan Airport?
    Answer. NextGen technology and procedures, the introduction of new, 
more fuel-efficient aircraft and aircraft technologies, and more 
stringent international standards will help drive reductions in 
aircraft noise in communities situated near airports. Airspace redesign 
and the implementation of performance-based navigation (PBN) procedures 
at Boston Logan and other major airports around the country--part of 
FAA's Metroplex program--is an important ongoing initiative to reduce 
noise.
    Continued support for eligible noise abatement projects in homes 
exposed to excessive aircraft noise is another existing program that 
has helped mitigate the impact of aircraft noise. FAA also needs to 
improve its communication with communities located near airports before 
implementing PBN and other NextGen procedures at airports.

    Question 6. Port Infrastructure--Without strong investment in 
America's ports, our shipping industry and the thousands of companies 
and millions of workers who rely on an efficient, effective American 
shipping network could suffer from increased costs of production, 
decreasing our countries' competitiveness in an increasingly globalized 
economy. What steps will you take to improve America's ports? How will 
you address our ports dredging, landside infrastructure, and intermodal 
infrastructure needs?
    Answer. I recognize the important role our country's ports and 
harbors play in our economy. This infrastructure is critically 
important and we must ensure our Nation's multi-model freight network 
incorporates every mode of transportation. If confirmed I will look 
into how the Harbor Maintenance Trust Fund is utilized and will ensure 
the Department develops a comprehensive plan to ensure our ports are 
efficient and connect our farmers, manufacturers, and consumers to the 
world marketplace.

    Question 7. Maritime--In March, Administrator Paul Jaenichen Sr., 
the former Administrator of the U.S. Maritime Administration, stated at 
a House Armed Services subcommittee hearing that the United States will 
need 70,000 new people for the Nation's maritime fleet by 2022. As the 
Secretary of Transportation, how would you support Maritime Academies 
and ensure that we have a robust merchant mariner workforce? Please 
describe how you will support the construction of a new class of 
training ships for the Academies?
    Answer. Having experience at the USDOT as both the head of MARAD as 
well as the Deputy Secretary has given me a strong background in these 
areas. MARAD's own King's Point is a key component of a robust merchant 
mariner workforce. King's Point, along with the other six other State 
maritime academies will be responsible for ensuring a sufficient number 
of mariners are always in the pipeline to meet our needs. If confirmed, 
I will review the current situation and will propose innovations to 
ensure we retain this capability.
    As for the training ships, I understand this is an aging fleet and 
a replacement or service life extension program will have to be 
developed. If confirmed, I will look into this matter and will then 
propose recommendations to this ongoing issue.

    Question 8. Takata--Air bag manufacturer Takata acknowledged a 
safety defect with its air bag inflators in May 2015. Since then, 
Takata initiated a recall which has become both the largest safety 
recall and one of the most confusing to automobile consumers to date. 
Recent efforts by the U.S. Department of Justice to negotiate a 
criminal fine with Takata is adding a layer of complexity to the 
automotive safety crisis. Additionally, if Takata declares bankruptcy, 
it is possible that it could be more difficult for NHTSA to enforce its 
consent order requiring Takata to replace all defective airbags, and 
this could leave the costs of the replacements for the auto 
manufacturers to pay.
    How will you work with DOJ so that policies introduced by NHTSA are 
respected and enforced, and to ensure that any bankruptcy or 
restructuring that Takata goes through does not jeopardize its 
responsibility to manufacture and pay for safe replacement airbags?
    Answer. If confirmed, I intend to receive detailed briefings from 
NHTSA staff regarding the Takata airbag recall. I can assure the 
Committee that safety will be my top priority, and as Secretary, I will 
ensure that all recalls are completed as swiftly and effectively as 
possible. All motor vehicle recalls are important, and I will work with 
the NHTSA staff and the Congress to make certain our resources are used 
wisely. I will seek appropriate briefings regarding this issue and will 
fully consider an appropriate USDOT position with respect to any Takata 
restructuring.

    Question 9. Ejection Mitigation--NHTSA established Federal Motor 
Vehicle Standard 226 to help prevent vehicle occupant side window 
ejections, but similar requirements were not extended to sun/moon roofs 
or back windows. The preamble to NHTSA's final rule explains the 
agency's belief that developing standards and countermeasures for these 
other vehicle portals would not be cost effective despite the continued 
harm caused to vehicle occupants from partial or complete ejections 
stemming from a sun/moon roof or back window.
    Given NHTSA's role to protect vehicle occupants from known safety 
threats, are you committed to further researching the prevalence of 
sun/moon roof and rear window injuries and fatalities? If no, why not? 
If yes, then would you also be willing to develop appropriate 
countermeasures to mitigate sun/moon roof and rear window ejections 
should the agency's research determine it is warranted?
    Answer. Preventing fatalities due to vehicle ejection is a safety 
priority. If confirmed, I will direct NHTSA to brief me regarding their 
research on potential changes to FMVSS 226 related to sun/moon roof 
ejection. Safety is the top priority and, whenever possible, NHTSA 
should review their motor vehicle standards to ensure they are current 
and based on the most recent research and data.

    Question 10. Electronic Vehicle Technology--Many OEMs are investing 
in electric vehicle technology to enhance the prevalence of electric 
vehicles in their vehicle fleet, and their affordability for consumers. 
Among the provisions in Section 1413 of the FAST Act is a plan for the 
development of a national electric vehicle charging infrastructure, 
which would extend the access and usability of electric vehicle 
technology into more cities across America. Will you support and 
advance efforts to achieve the FAST Act's goal of building an electric 
vehicle charging infrastructure by the end of Fiscal Year 2020?
    Answer. As required by the FAST Act, Secretary Foxx and President 
Obama announced the current Electric Vehicle Charging Corridors on Nov. 
3. Should I be confirmed, I look forward to working with Congress, and 
all of the stakeholders, to review the progress being made in these 
corridors, to identifying additional facilities that could be included 
in these initiatives, incorporating existing fueling and charging 
areas, and reviewing the use and demand of the existing vehicle 
charging and fueling infrastructure consistent with the law.

    Question 11. National Park System Transportation Systems--
Massachusetts has many wonderful natural and historical treasures, 
including our national park system sites, such as Freedom Trail, Cape 
Cod National Seashore, Minute Man National Historical Park, Faneuil 
Hall, and Salem Maritime National Historic Site. But my constituents 
cannot enjoy these sites if they cannot access them. Fixing America's 
Surface Transportation (FAST) Act created the National Advisory 
Committee on Travel and Tourism Infrastructure to advise the Secretary 
of Transportation on matters relating to the role of intermodal 
transportation on facilitating travel and tourism. Will you commit to 
ensuring that the work of the Advisory Committee sufficiently evaluates 
the transportation priorities and needs of the national park system, 
including those in Massachusetts?
    Answer. Facilitating travel for all Americans is an important 
mission of the USDOT. I intend to be fully briefed on the activities of 
the National Advisory Committee on Travel and Tourism Infrastructure, 
if I am confirmed.

    Question 12. Whistleblower--During Mr. Trump's campaign, there were 
reports that even volunteers were required to sign non-disclosure 
agreements. And following his election, there were also reports that 
transition officials were requesting information about career employees 
who worked on issues such as climate change at the Energy Department or 
women's issues at the State Department. Any implication that people who 
worked on advancing policies that the new President disagrees with may 
be targeted or retaliated against could create a chilling effect on 
non-political Federal employees simply trying to do their jobs.
    If you are confirmed, will you commit to protect the rights of all 
employees at the Transportation Department?
    Answer. I am not aware of any of the actions you have mentioned in 
this question. That said, employment law will be equally applied and 
complied with at USDOT under my leadership, as it will among all 
agencies.

    Question 13. Those rights include the right for civil servants to 
communicate with Congress, and in fact it is against the law to deny or 
interfere with their right to do so. If you are confirmed, do you 
commit to protect this fundamental right as well?
    Answer. The Constitutional rights of all DOT employees will be 
respected and upheld under my leadership, if I am confirmed.

    Question 14. There are several laws that describe the rights of 
civil servants to communicate with Congress and the protections they 
are afforded, and I have provided a brief description of those below. 
If you are confirmed, will you commit to communicate these rights via 
e-mail to all Transportation Department employees within a week of your 
arrival at the Agency?
    Answer. Current law provides the various mechanisms with which 
USDOT employees may communicate with Congress and other officials, 
including a whistleblower hotline at the Office of the Inspector 
General, as well as other methods prescribed by law.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Cory Booker to 
                          Hon. Elaine L. Chao
    Question 1. Gateway Program/Northeast Corridor Investment--As you 
may know, a recent economic analysis of the Gateway Program 
demonstrated that every dollar invested in the Program returns $4 in 
economic benefits to the region. As the Northeast Corridor contributes 
some 10 percent of the Nation's Gross Domestic Product, how important 
do you believe this project is to the national economy?
    Answer. The components of the Gateway Program contain some of the 
most important passenger rail track in the country. It is a project of 
great importance that impacts our economy and the daily lives of 
millions of Americans. If confirmed, I will request a full briefing on 
the status of the program and I look forward to working with you to 
identify and pursue the best course forward.

    Question 2. The current Hudson River tunnels were built in 1910 and 
suffered extreme damage during Superstorm Sandy. The 450 NJ Transit and 
Amtrak trains that use the tunnels each day are at risk of a complete 
disruption if new tunnels are not built. I have worked closely with 
Senators Menendez, Schumer, and Gillibrand along with Secretary Foxx, 
Governor Christie, and the Port Authority to advance the Gateway 
Program. Can you commit to partner with New Jersey and New York to 
prioritize investment and expedite the completion of the Gateway 
Program?
    Answer. The importance of the Gateway Program cannot be overstated. 
If confirmed, I look forward to working with you, the Gateway 
Development Corporation, industry and state and local leaders to 
address the needs of the program as we continue to make progress.

    Question 3. What's your plan to streamline environmental reviews, 
planning and construction of the full Gateway Program including a new 
Hudson River Tunnel, an expanded Penn Station and other associated 
infrastructure?
    Answer. Our administration will receive briefings on major projects 
and their cost/benefit analysis as part of the President-elect's 
Infrastructure Plan. It would be premature to speculate about any 
specific project prior to such briefings

    Question 4. I brought Secretary Foxx to see the existing tunnels, 
and would welcome the opportunity to bring you up to New Jersey to see 
the state of these tunnels. Can you commit to visit New Jersey and the 
Hudson River tunnels with me?
    Answer. Our administration will receive briefings on major projects 
and their cost/benefit analysis as part of the President-elect's 
Infrastructure Plan. Visiting key projects such as this is certainly 
something I hope to do, in order to get a better understanding of the 
situation.

    Question 5. I believe we must take a holistic approach to improving 
our Nation's transportation network. Modes work together to provide a 
network of mobility and sometimes investments in a single mode can 
enhance the whole network by reducing demand or generating efficiency 
in other modes as a secondary impact. When the Federal Government 
invests in our intercity and commuter railroads on the Northeast 
Corridor, we are also investing in our highway and aviation systems by 
removing cars from roads and bridges and freeing up slots at congested 
airports. Do you agree that it is essential to consider this when 
looking at the overall transportation network in the U.S.?
    Answer. The concept of intermodal transportation has been around 
since the 1970s. Despite significant progress in this area, we still 
have different modes of transportation that often view each other as 
competitors rather than as complimentary pieces of the Nation's 
transportation network. Our different modes of transportation should 
focus on how they can provide a seamless, more dynamic system for the 
benefit of the consumers, shippers and overall quality of life for our 
country.

    Question 6. The Amfleet 1, single-level passenger cars dating from 
the mid-1970s is the backbone of Amtrak's Northeast Corridor Regional 
and eastern State-Supported passenger car fleet. It is approaching the 
point where it will require complete rebuilding or replacement. 
Purchasing new equipment will be more cost-effective and will improve 
Amtrak's product, enhance customer experience, lower maintenance cost, 
increase safety and accessibility and support domestic manufacturing. 
Investment in this type of product will create a number of good jobs in 
this industry. Would this type of job creating investment be a priority 
for your department?
    Answer. At this point, it would be premature for me to speak to the 
replacement of Amtrak's Amfleet until I have had a thorough briefing on 
the matter. If I am confirmed, I will request a full review Amtrak's 
Amfleet and I look forward to following up with you on this matter.

    Question 7. Truck Safety--Every year, over 4,000 people are killed 
and nearly 100,000 are injured in large truck crashes. In 2015, 4,067 
people were killed in crashes involving large trucks. This is an 
increase of more than 4 percent from the previous year and a 20 percent 
increase from 2009. Further, this is the highest fatality number since 
2008. Early release data for 2015 shows that 116,000 people were 
injured in crashes involving large trucks, which is an increase of 57 
percent since 2009.
    I am concerned that in recent years we have seen rollbacks in 
common sense truck safety protections, and I want to make sure that we 
can work together to reduce fatalities on our roads.
    Can you please describe your plan to address the rising rate of 
fatalities from large truck crashes?
    Answer. As I noted in my confirmation hearing, safety will be the 
number one priority for the Department under my leadership. Technology 
can leverage safety achievements and incentives for encouraging fleet 
owners to invest in safety technologies on their commercial vehicles is 
important to save lives on our highways. The use of Electronic Logs for 
example have been a high priority for the FMCSA.
    It is also my understanding that DOT believes half of all CMV 
accidents are actually caused by automobiles. If confirmed, I will ask 
the NHTSA and FMCSA Administrators to work closely together to develop 
and implement a safety plan which will reverse the increasing accident 
numbers from recent years.

    Question 8. During your confirmation hearing, you noted that 
workers cannot protect themselves and they need the protection of 
Federal regulations. If confirmed, will you prioritize issuing 
regulations that protect truck drivers, specifically the rule requiring 
most commercial motor vehicles to install speed limiters?
    Answer. As I stated above, I am aware that despite efforts of the 
current administration, trucking crashes have increased. If confirmed, 
I will ask the FMCSA and NHTSA Administrators to work together closely 
to identify the root cause of accidents, and why the current regulatory 
posture of the agency has not effectively reduced these number and to 
see what initiatives will be effective at reducing the number of 
crashes, deaths, and injuries.

    Question 9. Will you reject any weakening of rules that protect 
truck drivers such as the Hours-of-Service and Electronic Logging 
Device regulations?
    Answer. Congress recently enacted language in the FY 2016 
appropriations legislation, that required FMCSA to complete a study 
about provisions of the 34-hour restart. If confirmed I will submit the 
information to those specified in the enacted legislation.
    Additionally, The FMCSA Electronic Logging Devices (ELDs) and 
Hours-of-Service (HOS) Supporting Documents Rulemaking fulfills a 
statutory requirement of the Moving Ahead for Progress in the 21st 
Century Act (MAP-21), enacted by Congress in July 2012. The final rule 
was published on December 15, 2015, and establishes: Requirements for 
the mandatory use of ELDs by drivers currently required to prepare HOS 
records of duty status (RODS); Minimum technical specifications for 
ELDs, including a requirement to certify and register ELD systems with 
FMCSA; Requirements for HOS supporting documents; and Measures to 
address concerns about harassment resulting from the mandatory use of 
ELDs. The compliance date for the ELD Final Rule is December 18, 2017.
    After FMCSA published the final ELD Rule, the Owner-Operator 
Independent Drivers Association (OOIDA) and two individual owner-
operator truck drivers filed a challenge to the rule in the United 
States Court of Appeals for the Seventh Circuit. The American Trucking 
Associations, Inc., and, in a joint filing, the Trucking Alliance for 
Driver Safety and Security and the Advocates for Highway and Auto 
Safety filed amicus briefs in support of the final rule. On October 31, 
2016, the court denied the petition for review and held that the ELD 
rule is not arbitrary or capricious, nor does it violate the Fourth 
Amendment.

    Question 10. Will you commit to ensuring that, during your time as 
Secretary, the Department will not advance policies that can be used to 
justify requiring truck drivers to operate larger and heavier trucks?
    Answer. I recognize there is a lack of consensus on truck size and 
weight. The FAST Act requires the U.S. DOT to submit to the Committee 
on Commerce, Science, and Transportation of the Senate, and the 
Committee on Transportation and Infrastructure of the House of 
Representatives, a report describing the safety and enforcement impacts 
of sections 5520, 5521, 5522, 5523, 5524, and 7208 of the FAST Act. If 
confirmed, I will ensure that FHWA will require safety and enforcement 
information for this report as part of the State enforcement plan 
required under 23 CFR 657.

    Question 11. Technology and Innovation--The previous administration 
went to great lengths to promote the use of technology in the 
transportation sector. From working to remove regulatory barriers for 
unmanned aerial systems (UAS), to the creation of a Federal automated 
vehicle policy, to implementing the Smart City Challenge, technology 
and innovation were at the forefront of solving our most pressing 
transportation and safety challenges. How do you plan to harness new 
technologies at the Department of Transportation (DOT) once you are 
confirmed?
    Answer. I believe that the greatest source for new technologies and 
innovation is the private sector. If confirmed, I will endeavor to 
ensure DOT promotes an environment that encourages technological 
innovation in the transportation sector.

    Question 12. Autonomous Cars/Persons with Disabilities--As you may 
know, the emergence of self-driving cars holds great promise for many 
people who have traditionally been disenfranchised. These autonomous 
vehicles can help provide greater independence to older Americans and 
persons with disabilities, providing them greater access to employment 
opportunities and health care.
    Under your leadership, will DOT further explore the benefits of 
autonomous cars for persons with disabilities?
    Answer. I agree, autonomous vehicles have a tremendous potential to 
provide benefits to a wide variety of Americans, including the elderly 
and persons with disabilities. I look forward to working with you, and 
the Congress, to further explore these benefits and the ways to safely 
incorporate the technology into widespread use.

    Question 13. Rail Safety--I am also deeply concerned about urgent 
passenger rail safety issues. Last September, a New Jersey Transit 
commuter train crashed into the station terminal in Hoboken, New Jersey 
killing one person and injuring over 100. In 2015, an Amtrak derailment 
along the Northeast Corridor outside Philadelphia killed eight people 
and injured over 200. And again last week, a train derailed on the Long 
Island Railroad, injuring over 100 people. While the National 
Transportation Safety Board (NTSB) has yet to make a determination on 
whether the absence of the safety system known as ``Positive Train 
Control'' was a contributing factor in Hoboken or Long Island, we know 
it was in the Amtrak incident. Positive Train Control is a critical 
system that stands to prevent similar disasters in the future, but 
installation of the system is moving slowly across the Nation's 
railroads. Will you make Positive Train Control implementation a top 
priority for DOT?
    Answer. As I mentioned at the hearing, rail safety is one of the 
top priorities of the Department of Transportation. As such, the 
implementation of Positive Train Control (PTC) and the promise it 
potentially brings of enhanced safety and accident avoidance will be 
one of my first priorities if I am confirmed. I look forward to working 
with this Committee and the Congress as I learn more about the PTC 
technology, its implementation and its challenges.

    Question 14. Key Transportation Programs--USDOT's successful TIGER 
program has granted millions of dollars for innovative port, roadway, 
transit and other multimodal projects throughout the US. Additionally, 
the Federal Transit Administration's New Starts, Small Starts, and Core 
Capacity programs have helped to fund light rail, commuter rail, heavy 
rail, streetcar, and bus rapid transit bus rapid transit projects. 
Given the vast demand for these grants across the country, how do you 
plan to ensure adequate funding levels for critical discretionary and 
competitive grant programs that create jobs, spur economic development, 
and help to rebuild our Nation's infrastructure?
    Answer. Discretionary grants are one tool in the tool box for 
facilitation of innovative finance and public-private partnerships. I 
intend to consider all options for the most expedient, effective and 
efficient delivery of projects.

    Question 15. The port of New York-New Jersey, the largest on the 
east coast, expects increases in demand in the coming years while also 
continuing to grapple with truck congestion and air quality issues. How 
do you plan to ensure adequate investment in major seaports that are 
key economic drivers for the entire nation?
    Answer. We will work to eliminate bottlenecks while seaport 
capacity expands. Some of this congestion relief may be relieved by 
utilizing more development expertise and suggestions from the state and 
local level MPOs plus expanding America's marine highway alternative. 
If confirmed, I will ask for further information regarding this 
subject.

    Question 16. Bicycle and Pedestrian Issues--Communities across the 
country are embracing bicycling and pedestrian infrastructure as an 
integral part of their transportation network for a number of reasons, 
including attracting businesses, workers and younger Americans who are 
choosing to live without a car. As secretary how will you support 
programs that will help expand this type of important infrastructure to 
meet the growing demand?
    Answer. If confirmed, I will be briefed fully on the interplay 
between Federal, state and local bike and pedestrian programs and 
expect USDOT will consider providing appropriate support for such 
programs, consistent with the law.

    Question 17. Increasing bicycle and pedestrian safety is critically 
important. In 2014, just over 700 cyclists were killed in a crash with 
a vehicle. On average, nearly 4,500 pedestrians are killed and 68,000 
are injured each year since the recent low point in pedestrian deaths 
in 2009. In 2015, pedestrian deaths increased 10 percent to 5,376 
deaths up from 4,884 in 2014. What is your plan to improve the safety 
of bicyclists and pedestrians?
    Answer. USDOT has an important role in educating the public and 
promoting bicycle and pedestrian safety. If I am confirmed, I expect to 
consider continuing support for those efforts consistent with the law.

    Question 18. Local Control--As a former Mayor I support providing 
additional resources and decision-making authority to local officials 
including increasing sub-allocation of Federal resources to the 
Metropolitan Planning Organizations (MPOs). What is your plan to ensure 
that local officials have a substantial role in transportation 
decisions, and do you support additional sub-allocation of Federal 
resources to MPOs?
    Answer. If I am confirmed, I will obtain full briefings on the 
issues surrounding sub-allocating Federal resources to MPOs and will 
seek to ensure that local officials have a substantial role in local 
transportation issues.

    Question 19. Diversity in Transportation Sector--Nearly one in ten 
jobs in the United States are in the transportation and/or 
infrastructure sector. However, women, workers of color, and workers 
with disabilities are significantly under-represented in the sector 
compared to their overall participation in the workforce. I am a strong 
supporter of the Disadvantaged Business Enterprise (DBE) Program, which 
is designed to provide small businesses owned by socially and 
economically disadvantaged individuals an equal playing field to 
compete for federally funded transportation contracts. Can you commit 
to supporting the DBE Program, and describe other steps you will take 
as DOT Secretary to connect disadvantaged workers to employment in the 
transportation field?
    Answer. Current law provides for specific DBE programmatic 
requirements. I intend to make equal application of the law a priority 
and intend to fulfill my obligations as set forth in applicable 
statutes.

    Question 20. Wells Fargo--You have been a member of the Board of 
Directors of Wells Fargo & Company since 2011. The company's most 
recent proxy statement lists your experience and qualifications as 
including regulatory, human resources, and governance matters.
    As you likely know, on September 8, 2016, Wells Fargo entered into 
consent orders with the Consumer Financial Protection Bureau (CFPB) and 
the Office of the Comptroller of the Currency (OCC), and a settlement 
with the Los Angeles City Attorney. These actions were the result of 
Wells Fargo's widespread opening of unauthorized accounts for Wells 
Fargo customers and the termination of thousands of employees.
    Please explain what actions the Board, Board Committees, or Board 
members (including you specifically) have taken to understand and 
address Wells Fargo's pervasive practice of opening accounts without 
customer authorization.
    Answer. The Board strongly believes that opening accounts without 
our customers' knowledge or approval is a violation of the bank's 
commitment to its customers.
    To be clear, the Board was not fully informed of the extent of the 
sales practices issue until the eve of the CFPB settlement in September 
2016.
    When we became aware of this, we took several concrete steps--

  1.  We stopped the retail sales goals.

  2.  John Stumpf forfeited $41 million in unvested equity awards and 
        will not receive a bonus for 2016. He has stepped down as 
        Chairman and CEO.

  3.  Another executive was relieved of her duties and forfeited $19 
        million in unvested equities.

  4.  The Board amended the by-laws to separate the Chairman and CEO 
        roles and to require that the chairman by an independent 
        director.

  5.  The Board also created a Vice Chair for additional 
        accountability.

  6.  The Board has retained independent outside counsel to investigate 
        the bank's retail sales practices and related matters, 
        including who knew what and when, and how information was 
        presented to the Board.

  7.  Finally, the bank has been proactively reaching out to deposit 
        and credit card customers who may have had an unwanted account 
        opened. We are refunding any fees, closing the accounts, and 
        contacting credit bureaus to protect customers from any harm to 
        their credit scores.

    I believe the Board took strong action to rectify a bad mistake in 
judgment by bank managers.
    I wish I had more on the details of the problems regarding 
unauthorized accounts, but that investigation is ongoing. I am hopeful 
that the investigation will answer many of these questions so the Board 
can take additional actions as appropriate and address these problems. 
It is my understanding that the Board has committed to share the 
results of its investigation with Congress upon completion.
    Finally, as I have stated previously, if confirmed, I plan to step 
down from the Board of Directors of Wells Fargo effective immediately.

    Question 21. Funding--In your testimony, you agreed that an 
infrastructure bill this Congress would include some direct Federal 
investment in transportation, not solely private financing. Do you 
think an infrastructure bill should provide supplemental dollars to 
existing authorized programs that are underfunded thus far but offer 
big impacts in terms of economic benefit, job creation and mobility 
benefits, like intercity passenger rail grant programs? Or do you have 
ideas for new DOT programs that would distribute Federal grant dollars 
via new authorized programs?
    Answer. Current USDOT programmatic spending includes both direct 
Federal investment and permits private investment in public 
infrastructure projects in certain instances. I intend to consider all 
options for financing of projects, and intend to be fully briefed on 
the various alternatives.

    Question 22. Since Amtrak was first created more than 45 years ago, 
there has been discussion of including it in a transportation trust 
fund. However, this simply has never come to fruition. Instead, Amtrak 
relies on discretionary funding one Fiscal Year at a time, which is 
unfortunate. This creates uncertainty and wreaks havoc on Amtrak's 
ability to plan capital improvement projects. By comparison, highway 
and transit programs' dedicated funding via multi-year contract 
authority allows for better capital planning and creates efficiencies 
and cost savings. It would also be beneficial for intercity passenger 
rail to receive predictable and dedicated funding like almost all the 
other transportation modes. Would you support including at least a 
portion of Federal funding for intercity passenger rail in the trust 
fund?
    Answer. Today, as you know, Congress appropriates Federal dollars 
to Amtrak to subsidize its operations and capital needs. If the 
Congress wishes to change the way Amtrak is funded, that is a 
discussion that the Administration would need to have with Congress, 
and if I am confirmed, I look forward to working with Congress to 
discuss this matter.

    Question 23. While including intercity passenger rail in the trust 
fund is by far the preferred method of Federal funding, have you given 
thought to other options for multi-year predictable and dedicated 
funding of intercity passenger rail? For example, providing Amtrak with 
advance appropriations for several years instead of only funding it one 
year at a time. Would you support Congress providing advance 
appropriations or creating another trust fund-like mechanism dedicated 
to passenger rail?
    Answer. At this point, it would be premature to comment on 
alternative funding possibilities for Amtrak until I am fully briefed 
on this matter. If confirmed, I look forward to a review of all funding 
options for Amtrak, and working with you and the Congress to determine 
a path forward.

    Question 24. Germany recently approved a transportation 
infrastructure plan to spend $126 billion on rail projects through 
2030. In the United States, which has four times Germany's population, 
Federal funding for vital infrastructure investments in the Northeast 
Corridor and elsewhere on the national passenger rail network amounts 
to just a few hundred million dollars a year. With each new Fiscal 
Year, there is no assurance that there will be any additional 
predictable and dedicated Federal spending to leverage private and 
state investment. How do we attract private investment in passenger 
rail infrastructure projects, like Gateway, when the Federal Government 
does not support a mechanism for substantial and reliable Federal 
investment in passenger rail?
    Answer. At this point, it would be premature to comment on 
alternative funding possibilities for Amtrak until I am fully briefed 
on this matter. If confirmed, I look forward to working with you, the 
Committee, and Congress, to look at best practices and all options to 
incent private investment in passenger rail infrastructure.

    Question 25. National Passenger Rail System--Can you discuss your 
vision for intercity passenger rail in the U.S.?
    Answer. The continuation and constant improvement of rail service 
for all Americans is an important issue. I intend to work with Congress 
to address our rail transportation needs, challenges and opportunities.

    Question 26. Do you agree that the Federal Government has an 
important role to play to help ensure passenger rail remains a viable 
option to connect rural communities to the rest of our transportation 
network?
    Answer. Long distance service by the National Railroad Passenger 
Corporation is an important issue facing the incoming administration. I 
intend to receive a detailed briefing on the challenges that face our 
national rail system and look forward to working with Congress to 
address the needs and opportunities for our rural communities.

    Question 27. What role do you envision the DOT has to make good on 
this commitment to the various rural communities who rely on intercity 
passenger rail?
    Answer. The Department of Transportation plays a very important 
role in regulating our national rail system. Long distance service by 
the National Railroad Passenger Corporation is an important issue 
facing the incoming administration. I intend to receive a detailed 
briefing on the challenges that face our national rail system, and look 
forward to working with Congress to address the needs and opportunities 
for our rural communities.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                          Hon. Elaine L. Chao
    Question 1. More than 10,000 Americans are killed each year in 
alcohol-impaired driving crashes. Drunk driving accounts for roughly a 
third of all traffic fatalities. These deaths are preventable. That is 
why I support high visibility law enforcement, ignition interlocks for 
all offenders, and a promising R&D program to end drunk driving. The 
Driver Alcohol Detection System for Safety (DADSS) is a public private 
partnership that brings together automakers and the National Highway 
Traffic Safety Administration (NHTSA) to develop lifesaving drunk-
driving prevention technology. As transportation secretary, will you 
continue to support the DADSS initiative and other efforts to save 
lives from drunk driving?
    Answer. If confirmed, I will receive a full briefing from NHTSA 
regarding the timing, technology, and funding of the Driver Alcohol 
Detection System of Safety (DADSS). Any fatality or injury due to drunk 
driving is tragic and preventable, and NHTSA must continue to work with 
the States to educate drivers and enforce current laws.

    Question 2. Given that the Highway Trust Fund has solvency issues, 
what measures will this Administration take to ensure that adequate 
funding is maintained in order for the Federal Government to meet the 
continued need for infrastructure improvements?
    Answer. With the enactment of the FAST Act, spending from the 
Highway Trust Fund will exceed receipts by nearly $20 billion annually. 
If we are to find a long-term funding solution, it will require 
significant input from many stakeholders, including Congress, industry, 
the public and the Administration. If confirmed, I look forward to 
working with this Committee and the Congress to address this top 
priority of the President-elect.

    Question 3. I am concerned your Administration's reported plans for 
funding transportation infrastructure through tax credits for companies 
and privatizing roads could result in American taxpayers paying twice. 
Should states that turn existing public roads into private toll roads 
be allowed to continue to receive Federal support for those roads, at 
the expense of taxpayers in other states?
    Answer. Tolling is but one tool in the toolbox for addressing 
certain financing needs of various infrastructure projects. I intend to 
be briefed on all of the options available for financing of 
infrastructure projects. What works for one state or one project may 
not work for another, and so it would be inappropriate to speculate or 
engage in broad generalizations.

    Question 4. Under your Administration, will private companies be 
allowed to charge tolls for a road that has already been paid for with 
Federal money?
    Answer. Congress has set explicit restrictions on the allowance of 
tolling the existing federal-aid highway system. Should Congress decide 
to pursue an expansion of tolling on existing roads already paid for 
with Federal money, I would look forward to participating in those 
discussions.

    Question 5. How will your Administration work to improve 
infrastructure projects that private investors may be reluctant to 
invest in, such as municipal water systems or improvements to existing 
bridges and roads where it may not be possible to charge tolls to 
recover costs?
    Answer. User fees are but one tool in the toolbox for addressing 
certain financing needs of various infrastructure projects. I intend to 
be briefed on all of the options available for financing of 
infrastructure projects. What works for one state or one project may 
not work for another, and so it would be inappropriate to speculate 
without full knowledge of specific situations or conditions.

    Question 6. How will you approach the transportation needs for 
those Americans living in rural areas?
    Answer. The needs of rural Americans should be considered just as 
much as those of urban Americans. I intend to be briefed on the various 
innovations and alternatives available to improve the transportation 
needs of rural Americans.

    Question 7. How should new Internet and communications technologies 
be incorporated into our Nation's transportation infrastructure to 
improve safety and performance?
    Answer. If confirmed, I intend to promote policies that encourage 
new Internet and communications technologies be integrated into 
transportation infrastructure, after a careful data-driven, risk-based 
analysis.

    Question 8. What role do you envision railroads playing in 
America's transportation infrastructure under your Administration?
    Answer. Railroads are a critical part of America's integrated 
transportation network. Americans rely on railroads to move products to 
market, which in turn creates jobs and economic security. If I am 
confirmed, I intend to work closely with the Committee and Congress to 
highlight and promote the important role railroads have in America's 
transportation infrastructure.

    Question 9. Recent Federal and private investments at the Santa 
Teresa, NM Port of Entry and surrounding areas have helped expand and 
improve the efficiency of trade along the New Mexico-Chihuahua 
international border. New Mexico has also led all U.S. states in goods 
export percentage growth to Mexico. Will your Administration support 
transportation policies to promote efficient trade along the border?
    Answer. Fair and efficient trade with any trading partner is an 
important consideration of the incoming Administration. I intend to be 
briefed on the various ways in which our trade relationships can be 
improved to the benefit of the United States.

    Question 10. President-elect Trump's infrastructure plan available 
at https://www.donaldjtrump.com/policies/an-americas-infrastructure-
first-plan calls for ``reforms that streamline permitting and 
approvals.'' What specific reforms will you pursue to the permitting 
and approval process for transportation infrastructure such as bridges, 
roads, pipelines, etc.?
    Answer. President-elect Trump's transition team is currently 
evaluating all of the various financing tools and opportunities for the 
streamlining of permits and for approval of new infrastructure projects 
across the Nation. If confirmed, I look forward to communicating our 
infrastructure plan once it is fully conceived.

    Question 11. What is your Administration's plan for improving the 
aging and insufficient roads on tribal lands and how will DOT work with 
these communities to see that their infrastructure needs are addressed?
    Answer. The President-elect's transition team is currently 
evaluating all of the various financing tools and opportunities for a 
new infrastructure plan, including those projects on tribal lands. 
Since we have not yet made a decision on which options will be 
utilized, it would be premature for me to speculate on the details or 
effects of such a plan.

    Question 12. President-elect Trump's infrastructure plan calls for 
approving ``private sector energy infrastructure projects--including 
pipelines and coal export facilities--to better connect American coal 
and shale energy production with markets and consumers.'' In recent 
years, a proposed coal export facility at Cherry Point, WA and pipeline 
near the Standing Rock Indian Reservation faced opposition from local 
Indian tribes. Will you assure me that the Department of Transportation 
will consult with tribes on a government to government basis and uphold 
the U.S. Government's treaty obligations?
    Answer. While the DOT does not have jurisdiction over the physical 
siting of projects like those mentioned, if confirmed, I can state that 
DOT will ensure all infrastructure projects comply with all applicable 
laws and Department regulations.

    Question 13. The DOT's Transportation and Climate Change 
Clearinghouse (available at https://climate.dot.gov/about/index.html) 
states that ``within the United States, transportation is the largest 
source of greenhouse gas (GHG) emissions after electricity generation. 
With scientific recognition that GHG emissions are contributing to a 
long-term warming trend of the earth, there is an increasing 
realization that transportation, as a significant contributor of GHGs, 
plays an important role in climate change policy and program 
decisions.'' How will DOT under your leadership work to address GHG 
emissions and climate change issues?
    Answer. If confirmed, I will ensure that DOT continues to challenge 
and work with the transportation industry to reduce its carbon 
footprint through CAFE standards; support of international efforts to 
curb commercial aircraft engine CO<INF>2</INF> emissions through ICAO's 
Committee on Aviation Environment Protection (CAEP); and continued 
support of Federal research in this important area.

    Question 14. Each major Federal agency has been graded at least 
three times on their implementation of the Federal Information 
Technology and Acquisition Reform Act of 2014 (FITARA, PL 113-291). The 
House Oversight and Government Reform Committee with assistance from 
the Government Accountability Office (GAO) issues a ``scorecard'' for 
FITARA implementation. What grades has DOT received? How do you plan to 
improve this grade?
    Answer. I have not been briefed on the present administration's 
past FITARA scores. If confirmed, I will familiarize myself with the 
provisions of FITARA and work to improve the Department's performance 
in this area, if necessary.

    Question 15. Describe the role of your department Chief Information 
Officer (CIO) in the development and oversight of the IT budget for 
your department. How is the CIO involved in the decision to make an IT 
investment, determine its scope, oversee its contract, and oversee 
continued operation and maintenance?
    Answer. If confirmed, I will seek full briefings on the role of the 
USDOT CIO in making the decision to make an IT investment, determine 
its scope, oversee its contract, and oversee continued operation and 
maintenance.

    Question 16. Describe the existing authorities, organizational 
structure, and reporting relationship of the Chief Information Officer. 
Note and explain any variance from that prescribed in the Federal 
Information Technology and Acquisition Reform Act of 2014 (FITARA, PL 
113-291) for the above.
    Answer. If confirmed, I will receive the necessary briefs to answer 
your question.

    Question 17. What formal or informal mechanisms exist in your 
department to ensure coordination and alignment within the CXO 
community (i.e., the Chief Information Officer, the Chief Acquisition 
Officer, the Chief Finance Officer, the Chief Human Capital Officer, 
and so on)?
    Answer. If I am confirmed, I will obtain appropriate briefings 
regarding USDOT's coordination and alignment within the CXO community.

    Question 18. According to the Office of Personnel Management, 46 
percent of the more than 80,000 Federal IT workers are 50 years of age 
or older, and more than 10 percent are 60 or older. Just four percent 
of the Federal IT workforce is under 30 years of age. Does your 
department have such demographic imbalances? How is it addressing them?
    Answer. It would not be appropriate for me to speculate on the 
current demographics of the DOT. If confirmed, I hope to gain a better 
understand the demographics of the workforce at DOT through briefings 
on that subject.

    Question 19. How much of the department's budget goes to 
Demonstration, Modernization, and Enhancement of IT systems as opposed 
to supporting existing and ongoing programs and infrastructure? How has 
this changed in the last five years?
    Answer. I do not have that information, but, if confirmed, I expect 
to receive the necessary briefings to fully understand the department's 
budget.

    Question 20. What are the 10 highest priority IT investment 
projects that are under development in your department? Of these, which 
ones are being developed using an ``agile'' or incremental approach, 
such as delivering working functionality in smaller increments and 
completing initial deployment to end-users in short, six-month time 
frames?
    Answer. If I am confirmed, I expect to obtain appropriate briefings 
regarding priority IT investment projects under development at USDOT.

    Question 21. To ensure that steady state investments continue to 
meet agency needs, OMB has a longstanding policy for agencies to 
annually review, evaluate, and report on their legacy IT infrastructure 
through Operational Assessments. What Operational Assessments have you 
conducted and what were the results?
    Answer. Since I am not yet confirmed, I have not conducted any 
operational assessments of the DOT.

    Question 22. What are the 10 oldest IT systems or infrastructures 
in your department? How old are they? Would it be cost-effective to 
replace them with newer IT investments?
    Answer. If confirmed, I will request the necessary briefings on 
DOT's IT systems. It would be inappropriate to speculate at this time.

    Question 23. How does your department's IT governance process allow 
for your department to terminate or ``off ramp'' IT investments that 
are critically over budget, over schedule, or failing to meet 
performance goals? Similarly, how does your department's IT governance 
process allow for your department to replace or ``on-ramp'' new 
solutions after terminating a failing IT investment?
    Answer. If I am confirmed, I will seek full briefings on USDOT 
operational issues, including governance processes for off-ramping and 
on-ramping potential IT solutions.

    Question 24. What IT projects has your department decommissioned in 
the last year? What are your department's plans to decommission IT 
projects this year?
    Answer. As an intended nominee, I do not have that information.

    Question 25. The Federal Information Technology and Acquisition 
Reform Act of 2014 (FITARA, PL 113-291) directs CIOs to conduct annual 
reviews of their department/agency's IT portfolio. Please describe your 
department's efforts to identify and reduce wasteful, low-value or 
duplicative information technology (IT) investments as part of these 
portfolio reviews.
    Answer. As an intended nominee, it would be inappropriate for me to 
comment on the current administration's activities in this area.

    Question 26. In 2011, the Office of Management and Budget (OMB) 
issued a ``Cloud First'' policy that required agency Chief Information 
Officers to implement a cloud-based service whenever there was a 
secure, reliable, and cost-effective option. How many of the 
department's IT investments are cloud-based services (Infrastructure as 
a Service, Platform as a Service, Software as a Service, etc.)? What 
percentage of the department's overall IT investments are cloud-based 
services? Does DOT have a Cloud strategy to encourage the use of Cloud 
computing solutions? If not, by when do you plan to have such a 
strategy in place?
    Answer. If I am confirmed, I will seek full briefings on USDOT 
operations.

    Question 27. Congress passed the MEGABYTE Act (P.L. 114-210) to 
encourage agencies to achieve significant savings in managing IT assets 
including software licenses. What policies or processes are in place at 
DOT to improve management of software licenses? What savings do you 
expect DOT to report by the end of FY 2017?
    Answer. As an intended nominee, it would be inappropriate for me to 
comment on the current administration's activities in this area.

    Question 28. Provide short summaries of three recent IT program 
successes--projects that were delivered on time, within budget, and 
delivered the promised functionality and benefits to the end user. How 
does your department/agency define ``success'' in IT program 
management? What ``best practices'' have emerged and been adopted from 
these recent IT program successes? What have proven to be the most 
significant barriers encountered to more common or frequent IT program 
successes?
    Answer. If I am confirmed, I expect to seek full briefings on USDOT 
operations.

    Question 29. Are you the beneficiary or trustee of any 
discretionary trust that has not been fully disclosed to the Committee 
or the Office of Government Ethics? If so, please provide detailed 
information about the trust(s).
    Answer. No.

    Question 30. During a campaign speech in Ashburn, Virginia last 
August, President-elect Trump reportedly said that he would ``at least 
double'' Hillary Clinton's proposed $275 billion infrastructure plan. 
Yet he did not provide many details where the money to do this will 
come from. A campaign website describes ``leverag[ing] new revenues and 
work with financing authorities, public private partnerships, and other 
prudent funding opportunities.'' Can you shed more light on what the 
Trump infrastructure plan really is and how it will be funded?
    Answer. The President-elect's transition team is currently 
evaluating all of the various financing tools and opportunities for a 
new infrastructure plan. Since we have not yet made a decision on which 
options will be utilized, it would be premature for me to speculate on 
the details.

    Question 31. Some of my Congressional colleagues have reportedly 
expressed concerns about how to pay for a Trump infrastructure plan. 
There are news reports that estimate that a tax reform package could 
lead companies to repatriate up to $200 billion of overseas cash 
holdings. Such tax measures could be part of a broader agreement to 
help fund infrastructure upgrades with Federal investments. What level 
of direct Federal investment will be necessary to support a Trump 
infrastructure plan?
    Answer. Our transition team is currently evaluating all of the 
various financing tools and opportunities for a new infrastructure 
plan. Since we have not yet made a decision on which options will be 
utilized, it would be premature for me to speculate on the details.

    Question 32. Would direct Federal investment to upgrade our 
Nation's infrastructure create jobs and promote economic growth?
    Answer. Our transition team is currently evaluating all of the 
various financing tools and opportunities for a new infrastructure 
plan. Since we have not yet made a decision on which options will be 
utilized, it would be premature for me to speculate on the anticipated 
effects from such a plan.

    Question 33. Your written statement notes that you want to work 
this committee on transportation needs in rural America. I am concerned 
that it may be easier to ``unleash private investment'' for 
transportation improvements in cities along the Interstate 95 corridor 
from New York to Washington than in smaller towns along I-40 from 
Gallup to Tucumcari. How will your Administration work to improve 
infrastructure projects that private investors may be reluctant to 
finance, especially where it may not be possible to recover costs 
through tolls and other user fees?
    Answer. Our transition team is currently evaluating all of the 
various financing tools and opportunities for a new infrastructure 
plan, including those projects in rural America. Since we have not yet 
made a decision on which options will be utilized, it would be 
premature for me to speculate on the details or effects of such a plan.

    Question 34. Vehicle fuel efficiency has been a success story 
thanks to advances in technology that improve car mileage. Fuel 
efficiency save drivers money at the pump. Do you agree with the 
assessment of the Department of Transportation and the Environmental 
Protection Agency that there are more technologies to increase fuel 
efficiency available, and that they cost less than earlier projections 
believed would be the case? Will you work to further improve vehicle 
fleet fuel economy rather than rolling back standards?
    Answer. If confirmed, I will receive briefings on fuel efficiency 
standards and technology and will support approaches to emissions 
standards that we determine are the most effective.

    Question 35. Senator Feinstein and I have worked for several years 
on the truck safety issue of so called ``twin 33s.'' Currently, thirty-
eight states including New Mexico do not allow these longer trucks to 
operate within their jurisdictions. One study estimates that twin 33s 
would put more wear and tear on our Nation's roads, adding $1.2 billion 
to $1.8 billion in maintenance costs per year. DOT has previously 
advised that there is currently not enough data to draw conclusions on 
the safety implications of double 33-foot trailers. DOT recommended 
that no changes to truck size be considered at this time. Given the 
cost and potential safety hazards, would you as Secretary require DOT 
to complete a comprehensive safety study before longer trucks are 
permitted on highways?
    Answer. I recognize there is a lack of consensus on truck size and 
weight. The FAST Act requires the U.S. DOT to submit to the Committee 
on Commerce, Science, and Transportation of the Senate and the 
Committee on Transportation and Infrastructure of the House of 
Representatives a report describing the safety and enforcement impacts 
of sections 5520, 5521, 5522, 5523, 5524, and 7208 of the FAST Act. If 
confirmed, I will ensure that FHWA will require safety and enforcement 
information for this report as part of the State enforcement plan 
required under 23 CFR 657.

    Question 36. Pipelines are a key component of our Nation's 
transportation infrastructure. Many Americans are probably not aware 
that they live, work, or pursue recreational activities near pipelines. 
Ensuring their safety is an issue I take very seriously. In 2000, a 
quiet summer morning was shattered when a gas pipeline ruptured and 
burst into flames near Carlsbad, New Mexico. The fireball could be seen 
twenty miles away. Tragically, twelve people who were camping along the 
Pecos River died. This was the worst pipeline accident in the 
continental United States. I wish I could say that it was the last. Yet 
tragedy struck again since then. I am concerned that PHMSA still has 
not done enough to prevent further pipeline catastrophes. What are your 
priorities for PHMSA's work related to pipeline safety?
    Answer. As you suggested, pipelines are very important to our 
national economy and are statistically the safest when it comes to 
transportation large volumes of energy products. That said, many of our 
pipelines are aging, and PHMSA's regulatory oversight must be able to 
respond more quickly and efficiently than is has in recent years. We 
also must look for ways to deploy advanced technology ILI inspection 
tools and look to update the Nation's 811 program which is now almost 
15 years old. If confirmed, I can assure you that the transportation of 
hazardous materials will be taken seriously, and I will look for ways 
to improve this key component of our national infrastructure and will 
ensure PHMSA is up to the task of identifying and managing risk in 
partnership with its State partners.

    Question 37. Not far from the United State Senate, trains carry 
hazardous materials through the heart of Washington, DC. In fact, all 
across the country, trucks and trains pass through communities carrying 
hazardous cargoes such as ammonia, chlorine, and highly flammable 
fuels. PHSMA has an important responsibility in ensuring the safe and 
secure shipment of these dangerous materials. What efforts should PHMSA 
undertake to improve safety and emergency preparedness? How can PHSMA 
better help local governments and communities with pipeline and 
hazardous materials safety and emergency preparedness?
    Answer. The Hazardous Materials Transportation Act gave the 
Department extraordinary jurisdiction to ensure the safe and efficient 
transportation of hazardous materials and that includes broad powers 
even for intrastate shipments to ensure we do not end up with a 
patchwork of different requirements throughout the country. That said, 
and if confirmed, I will look for ways to ensure the Department is 
engaged with State and local stakeholders. This includes the ability to 
work with local first responders and emergency personnel. PHMSA has 
also recently updated its Emergency Response Guidebook which is carried 
onboard every firetruck in the country. PHMSA and the Department should 
make its expertise available to the emergency response community, and 
I'll look for ways for PHMSA to identify and expand education, 
training, and outreach opportunities.

    Question 38. During the hearing, you mentioned new technologies 
such as driverless cars as an example of some of the incredible 
innovation happening in the transportation sector. As in so many areas, 
U.S. military research helped develop and accelerate autonomous vehicle 
technology. Defense Advanced Research Projects Agency (DARPA), for 
example, successfully used challenge prizes for autonomous vehicles to 
reach beyond traditional partners and attract problem solvers from the 
wider research community. Prizes can also be a cost-effective way to 
spur innovation since one pays only for successful solutions rather 
than traditional research and development costs. Legislation I 
sponsored last year, the Science Prize Competitions Act (PL 114-329) 
encourages Federal agencies to use prize competitions as incentives for 
innovation. The Challenge.gov website notes that DOT has 13 active 
challenge prizes. Under your leadership, will DOT continue to use 
challenge prizes as one tool to help drive innovation?
    Answer. Challenge prizes have been effective in spurring innovation 
regarding autonomous vehicles. If confirmed, I will review the full 
list of challenge prizes currently proposed by the Department to ensure 
they are truly innovative challenges that will help assess and address 
needs in every mode.

    Question 39. Last year marked the National Park Service centennial. 
Will you commit to assisting the National Park Service in addressing 
the transportation infrastructure needs of America's national parks?
    Answer. Our transition team is currently evaluating all of the 
various financing tools and opportunities for a new infrastructure 
plan, including the needs of all facets of American society. Since we 
have not yet determined which options will be utilized, it would be 
premature for me to speculate on the details and effects of such a 
plan.

    Question 40. As a member of the Senate Appropriations Committee, I 
supported a transportation funding bill that included $241 million for 
New Starts. Unfortunately, New Start projects cannot currently move 
forward due to the continuing resolution. Will you work in the 
Administration to support an appropriations bill for the remainder of 
Fiscal Year 2017 that allows New Starts projects to move forward?
    Answer. Our transition team is currently evaluating all of the 
various financing tools and opportunities for a new infrastructure 
plan, including the needs of transit projects. Since we have not yet 
made a decision on which options will be utilized, it would be 
premature for me to speculate on the details and effects of such a 
plan.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Gary Peters to 
                          Hon. Elaine L. Chao
    Question 1. The Detroit Metropolitan Airport, Capital Region 
International Airport, Gerald R. Ford International Airport, and other 
airports in Michigan require sustainable funding so they can invest in 
their facilities to make them more secure and efficient. Do you support 
changing funding models to eliminate the Federal cap on the Passenger 
Facility Charge?
    Answer. PFCs are one of many important financing tools that 
airports in Michigan and across the country have to make necessary 
infrastructure improvements. Modernizing our Nation's transportation 
infrastructure will be a top priority of the Trump administration.

    Question 2. The FAA's Essential Air Service Program ensures that 
small and rural communities are able to efficiently travel to larger 
communities and access economic opportunity beyond their region. In 
Michigan, the Alpena County Regional Airport, Houghton County Memorial 
Airport, and six other of its sixteen air carrier airports receive 
Essential Air Service funding. Do you plan to continue this program? 
Would you propose any changes to the program?
    Answer. I support continued access for small communities to the 
benefits of interstate travel and commerce, and appreciate the passion 
that many Members of Congress have for the Essential Air Service (EAS) 
Program.

    Question 3. The FAA's Federal Contract Tower Program allows the 
Kalamazoo/Battle Creek International Airport, Sawyer International 
Airport, and two other airports in Michigan to have air traffic control 
(ATC) services because the FAA cannot otherwise afford to provide ATC 
services at those airports. Do you plan to continue this program? Would 
you propose any changes to the program?
    Answer. The Contract Tower Program has been a huge success. It's 
been widely acknowledged by Congress, the National Transportation 
Safety Board, the U.S. Government Accountability Office, the airport 
community and our Nation's air traffic controller workforce that the 
program has enhanced safety, reduced FAA operating costs and provided 
tower service to communities that might not have received it otherwise.

    Question 4. Highly Automated Vehicles have the opportunity to make 
our roads safer and more efficient. I was pleased when the Department 
of Transportation released a proposed rule in December 2016 that would 
require vehicle-to-vehicle (V2V) technology in new vehicles which would 
allow cars to communicate using a standard language. Will you commit to 
finalize the V2V rule if you are confirmed?
    Answer. If confirmed, I will receive a full briefing from NHTSA 
regarding the timing, efficacy and technology of vehicle-2-vehicle and 
vehicle-2-infrastructure rule making proposals. I will also review any 
vehicle technology proposals to help make sure that motor vehicle 
privacy and security issues are addressed by the agency.

    Question 5. Automakers and tech companies across the country say 
their fully autonomous cars will be ready for the roads in the next 4 
to 5 years. These vehicles have the potential to save thousands of 
lives, reduce congestion and better the environment. However, our 
current regulatory regime for automotive safety does not contemplate 
the possibility of not having a steering wheel--or an accelerator 
pedal--or various other features of a driverless car. It's essential 
that we move quickly to update DOT's Federal Motor Vehicle Safety 
Standards to accommodate driverless cars. The Federal Government must 
encourage this innovation and ensure the public that these vehicles 
will keep them safe. If confirmed, will you commit to updating the 
current regulatory regime to accommodate autonomous vehicles?
    Answer. Several states have recently allowed autonomous vehicle 
testing on highways and local roads. This is a fascinating new 
development in motor vehicles, and, if confirmed, I will ask NHTSA to 
brief me regarding current and proposed changes to FMVSS to allow for 
potential changes. The safety and security of the vehicle and the 
driver must always be the top priority.

    Question 6. It is essential that any infrastructure package invests 
in smart and digital infrastructure. In addition to concrete, steel, 
and asphalt we also need to be investing in smart infrastructure that 
accommodates connected and autonomous vehicles and can increase safety 
and efficiency of transportation on our Nation's waterways. Such smart 
infrastructure will be capable of providing real-time updates on its 
status through an alert system, making our transportation assets more 
safe, useful and resilient. Will you support new research and 
technology programs that further develop and integrate smart 
infrastructure with existing infrastructure?
    Answer. If confirmed, I will support policies that would facilitate 
the integration of smart technology with existing infrastructure.

    Question 7. I believe transportation public-private partnerships 
are a useful tool in financing new projects and providing services to 
Americans. However, many communities are concerned that an overreliance 
on public-private partnerships could unfairly favor already-prosperous 
communities when it comes to critical investments. While there is a 
role for the private sector to play, we cannot allow the push for 
profits to leave underserved communities behind. What are your plans to 
ensure that public-private investments will deliver on the promise of 
transportation that is accessible, affordable, and connects underserved 
communities to opportunity? What criteria should be used to determine 
which projects are funded through this investment? How will you ensure 
that the infrastructure investments reach to low-income, under-
employed, urban and rural communities, as well as communities of color, 
which are in desperate need of these investments and stand to benefit 
the most? Specifically, how can we target investments to these areas?
    Answer. Our transition team is currently evaluating all of the 
various financing tools and opportunities for a new infrastructure 
plan, including the needs of all parts of America, both urban and 
rural. Since we have not yet made a decision on which options will be 
utilized, it would be premature for me to speculate on the details and 
effects of such a plan.

    Question 8. Most public discussions of transportation 
infrastructure only mention highway, transit, and aviation 
infrastructure. While maritime transportation infrastructure is often 
less visible to the public it has an enormous impact on our Nation's 
economy. As you consider how to modernize our decaying transportation 
infrastructure, please work with the Army Corps of Engineers to include 
navigation infrastructure in the new Administration's infrastructure 
plans. There is a tremendous backlog of navigation lock modernization 
and harbor deepening and maintenance that creates substantial risks to 
our economy and local communities if not addressed. What additional 
steps can the Department of Transportation take to improve 
transportation on our Nation's waterways?
    Answer. The U.S. Army Corps of Engineers plays a vital role in our 
inland transportation system and involves not only inland navigation 
but also is important to permitting for other forms of transportation. 
I agree this is an area where better interagency coordination would be 
very helpful. If confirmed you have my promise to look into this issue 
further and to work toward improving transportation on waterways. The 
DOT has also been working on a new National Maritime Transportation 
Strategy draft and it is something I will review very closely.

    Question 9. All Great Lakes region steel and automobile 
manufacturing depends on the Army Corps' aging navigation locks at 
Sault Ste. Marie, Michigan and U.S.-flag bulk cargo vessels to obtain 
iron ore from Michigan's Upper Peninsula and Minnesota. Will you commit 
to visiting the Soo Locks with the Army Corps' leadership to learn more 
about this linchpin of the Great Lakes maritime transportation system?
    Answer. Thank you for bringing this to my attention. While I cannot 
pursue the Army Corps commitment for such a visit prior to being 
confirmed, I look forward to a continued dialogue with you and your 
office and hope such a visit can become a reality, if I am confirmed.

    Question 10. Great Lakes Jones Act shipping alone is responsible 
for over 128,000 American jobs, nearly $10 billion in annual income, 
and $18 billion in annual business revenue. It brings significant 
national security benefits as routinely noted by senior military 
leaders and the Maritime Administration. Great Lakes Jones Act vessels 
can transport as much as 100 million tons in raw materials such as iron 
ore, limestone, coal, and other bulk materials that are the lone source 
for the steel used in U.S. automobile, appliance, heavy machinery, and 
other durable goods. The Jones Act perfectly aligns with the incoming 
Administration's policy stance, ``Buy American and Hire American.'' As 
DOT Secretary, will you be committed to supporting the Jones Act?
    Answer. Yes. As I stated during my confirmation hearing, the Jones 
Act is a very important piece of legislation, and it is the law of the 
land until Congress elects to change that.

    Question 11. The U.S. is undergoing dramatic demographic shifts and 
local and regional migration patterns are shifting as well. These 
changes highlight the need for transportation decision-making to be 
informed by critical tools such as disaggregated data, mapping 
technology, best practice guidance/examples and other technical 
assistance to communities. DOT plays a critical role in providing such 
tools. How will you approach providing tools and guidance to support 
the success of state departments of transportation, local and regional 
transit agencies, and others?
    Answer. State DOTs, and local and regional transit agencies 
understand best the needs of their constituents. If confirmed, I will 
support state and local agencies and will provide Federal assistance as 
appropriate.

    Question 12. The Federal pipeline safety oversight agency, PHMSA, 
is located in the USDOT. PHMSA has demonstrated a number of 
shortcomings over the years but I am hopeful improvements can be made. 
However, given the unique characteristics of Great Lakes waters, I am 
concerned that the response plan requirements for owners and operators 
of Great Lakes pipelines are not adequate to prevent, respond to, and 
pay for a variety of oil spill scenarios. As the source of drinking 
water for 40 million people, and an economic engine that supports 1.5 
million jobs in multi-billion-dollar shipping, fishing and tourism 
industries, it is imperative that we have stringent Federal regulations 
that ensure the safety and integrity of the Great Lakes' oil pipeline 
network. Are you committed to strong enforcement of pipeline safety and 
supporting PHMSA so they can finish necessary regulations and pursue 
new steps to better protect communities from pipeline threats?
    Answer. I have not yet been briefed specifically on PHMSA's 
enforcement program, but given that the country has approximately 2.6 
million miles of pipelines, it is important that these underground 
energy highways operated safely and efficiently. If confirmed, I will 
take a hard look at how PHMSA has been organized, and how it carries 
out its mission. Strong enforcement is important to this effort. Other 
components of an effective pipeline safety program include enabling new 
technology, increasing the effectiveness of the 811 program, looking 
for ways to deploy advanced ILI tools, increasing education and 
outreach, and working with PHMSA's state partners.

    Question 13. When the Obama administration developed the DOT and 
EPA Federal fuel economy programs in 2011, it was with the intention 
that the two programs would be well harmonized, such that a 
manufacturer could comply with both with a single fleet of vehicles. 
But I understand there are inconsistencies in the programs that may 
leave many companies facing fines under the DOT program even if they 
are compliant with the EPA program. There may be both regulatory and 
legislative differences between the programs that need to be corrected. 
On the regulatory side, automakers have petitioned to have a number of 
items corrected to establish better harmony between the programs. I 
urge DOT to act on these items as quickly as possible, and work with 
Congress on potential legislation to harmonize the programs. Are you 
aware of this situation and what are your priorities as it relates to 
fuel economy standards?
    Answer. If confirmed, a review of the NHTSA CAFE program will be a 
top priority. Inconsistencies between Federal agencies can be 
frustrating for industries and consumers. I will work with my 
colleagues in other related Federal agencies, including EPA, to ensure 
a robust program that prioritizes safety and fuel efficiency, while 
ensuring automakers have time to implement necessary changes.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Tammy Baldwin to 
                          Hon. Elaine L. Chao
    Question 1. The Secretary of Transportation is provided broad 
authority to waive Buy America restrictions on its grants. Please 
elaborate on how you will use the ``public interest waiver'' as 
Secretary.
    Answer. As you know, the President Elect has been a staunch and 
vocal supporter of such provisions. By statute and regulation, the 
Secretary of Transportation may waive Buy America requirements if those 
requirements would be inconsistent with the public interest based upon 
a consideration of all appropriate factors on a case-by-case basis. If 
I am confirmed, I expect to review any public-interest waivers in 
accordance with the statutory and regulatory requirements.

    Question 2. The Secretary of Transportation is provided broad 
authority to implement the statutory Buy America requirements in its 
grant programs. The Department, under Anthony Foxx, improved access to 
grant opportunities for American businesses by posting all Buy America 
waiver requests on a central Department website before the waiver is 
granted. This allows American companies to find out if they can fill a 
Department need. Will you maintain this process as Secretary?
    Answer. If I am confirmed, I would expect USDOT to implement Buy 
America in accordance with the applicable statutory and regulatory 
requirements and to support efforts to improve access to grant 
opportunities for U.S. businesses.

    Question 3. Your testimony stated that you would ``identify and 
[address] unnecessary bottlenecks in the processes that govern project 
development and delivery, as well as the manufacturing processes that 
we oversee.'' I am unaware of what ``manufacturing processes'' the 
Department oversees. I am aware that the extent to which 
``manufacturing processes'' occur in the United States is a critical 
factor for determining compliance with the Department's regulations 
implementing the various Buy America laws applied to federal-aid 
transportation infrastructure spending. For iron and steel, the 
Department has for many decades required that ``all manufacturing 
processes'' occur in the United States to be treated as ``produced in 
the United States.'' Was your reference to ``manufacturing processes'' 
in hearing testimony implicating these laws and the Department's 
longstanding regulations implementing them? If not, please indicate 
what ``manufacturing processes'' the Department oversees and why such 
manufacturing processes result in ``bottlenecks.''
    Answer. If I am confirmed, I would expect to USDOT to implement Buy 
America in accordance with the applicable statutory and regulatory 
requirements. To the extent that other Federal requirements or 
processes create bottlenecks, USDOT should seek to ameliorate those 
issues.

    Question 4. The Small Shipyard Grant Program generates incentives 
for our Nation's small shipyards to modernize their facilities. It 
enables these businesses to upgrade equipment and processes that make 
them more efficient and competitive in the global marketplace. Grants 
may also be used to support worker training programs. Continued 
investment in this program is a win for shipyards, manufacturers and 
the workboat fleet--while also supporting good-paying jobs in these 
industries. If confirmed as Secretary, will you support continued 
funding and reauthorization of the Small Shipyard Grant Program?
    Answer. I have not yet been briefed on this program but if 
confirmed, I will be briefed on this program and look forward to better 
understanding the role and mission that it serves.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Tammy Duckworth to 
                          Hon. Elaine L. Chao
    Question 1. During your confirmation hearing, there was extensive 
discussion about the President-Elect's proposed infrastructure package. 
I appreciated your leadership and interest in making sure public 
transportation funds reach disadvantaged business enterprises (DBEs) 
located in urban and rural areas of Illinois that are home to low-
income populations and communities of color. If the President-Elect 
follows through on the promise to invest trillions in new public 
infrastructure projects, please describe:

  <bullet> What criteria you would employ, if confirmed, to select 
        infrastructure projects that benefit under-served communities 
        and communities of color in urban and rural regions; and

  <bullet> How Congress could help DOT achieve this important goal.

    Answer. The President Elect's transition team is currently 
evaluating all of the various financing tools and opportunities for a 
new infrastructure plan, including the needs of all facets of America, 
both urban and rural. Since we have not yet made a decision on which 
options will be utilized, it would be premature for me to speculate on 
the details and effects of such a plan. However, I fully intend to work 
with Congress in finding the best solution.

    Question 2. Transit funding is critical to the economic health and 
well-being of Illinois and states across the Nation. However, important 
public transit project that serve a critical public good do not always 
attract robust private investment or result in significant revenue 
gains. As Congress examines reforming how our Nation finances surface 
transportation, please describe:

  <bullet> How you would, if confirmed, make sure that direct Federal 
        investment continues to support vital public mass transit 
        programs; and

  <bullet> Your view on the appropriate role of private-public 
        partnerships in financing portions of our transportation 
        system.

    Answer. If I am confirmed, I would expect USDOT to administer 
direct Federal investment in public transportation programs in 
accordance with applicable statutory and regulatory requirements and 
consistent with Congressional appropriations. Public-private 
partnerships (P3) can be a valuable means of expediting development of 
portions of our transportation systems, financing or performing state-
of-good-repair efforts, and/or supporting operations and maintenance.

    Question 3. In Illinois, the expansion of the CTA Redline to the 
far south side of Chicago is a critical transportation project that 
promises to bridge the gap between urban and rural communities, while 
bringing economic growth to underserved areas. CTA Redline expansion 
would bring access to jobs, opportunities and holds the potential to 
improve the lives of hard-working Illinois families. Please describe:

  <bullet> Your view on the benefit of rail transit projects that 
        connect diverse communities across a large state, such as 
        Illinois; and

  <bullet> How Congress can effectively support DOT in prioritizing 
        transit projects that help create equity between rural and 
        urban areas, such as the CTA Redline expansion, receive robust 
        public support.

    Answer. If I am confirmed, I will seek appropriate briefings 
regarding the quantifiable benefits of rail transit projects that 
connect diverse communities across large states such as Illinois and 
how Congress can more effectively help to create equity in rural and 
urban transit projects.

    Question 4. Recently, an alarming number of violent incidents have 
occurred targeting Chicago Transit Authority (CTA) employees. This 
increase in violence against CTA employees may be part of a wider trend 
of increasing attacks on transit personnel, particularly bus drivers 
who are highly vulnerable to violent assaults as a result of close 
proximity to riders and lack of physical barriers. Attacks targeting 
bus drivers are a serious public safety concern that not only put the 
life of a driver at risk, but also those commuters who use bus transit. 
Congress sought to address this problem by enacting Section 3022 of the 
FAST Act, which requires the Federal Transit Administration (FTA) 
publish a rule to improve workplace safety against physical assaults, 
including bus upgrades that increase bus driver protection. Please 
describe:

  <bullet> What steps you would take, if confirmed, to make sure FTA 
        effectively implements this statutory requirement and meets the 
        congressional deadlines for issuing this vital public safety 
        rule.

    Answer. If I am confirmed, I will seek appropriate briefings 
regarding transit workplace safety and bus upgrades that could increase 
bus driver protection and USDOT will work to expedite an NPRM to comply 
with Section 3022 of the FAST Act.

    Question 5. Since 1992, the United States Government has 
established bilateral ``Open Skies'' agreements with foreign nations to 
provide rights for air carriers to offer international passenger and 
cargo air service. DOT is responsible for authorizing foreign airline 
companies to conduct commercial aviation operations with flights into 
and out of the United States. As you may be aware, significant 
controversy surrounds Norwegian Air International's foreign air carrier 
permit application. Please describe:

  <bullet> What actions you would take, if confirmed, to make sure DOT 
        effectively carries out its statutory responsibility to review 
        foreign license applications and make sure foreign airline 
        applicants comply with Open Skies agreement.

    Answer. I will take seriously the statutory mandate to strengthen 
the competitive position of our Nation's air carriers to ensure at 
least equality with foreign air carriers, including the attainment of 
the opportunity for our carriers to maintain and increase their 
profitability in global markets. I will oppose any foreign air carrier 
license applications that are inconsistent with our air service 
agreements or would undermine the economic viability and global 
competitiveness of our Nation's air carriers.

                                  <all>
</pre></body></html>
